<html>
<title> - NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2014 INTERNATIONAL AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 113-196]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-196

NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2014 
                      INTERNATIONAL AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE

86-860 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     4
Kerry, Hon. John F., Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................    10
    Responses to questions submitted for the record by the 
      following Senators:
        Robert Menendez..........................................    43
        Bob Corker...............................................    70
        Robert P. Casey, Jr......................................   102
        Jeanne Shaheen...........................................   107
        James Risch..............................................   110
        Jeff Flake...............................................   111
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
    Prepared statement...........................................     3

                                 (iii)



 
NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2014 
                      INTERNATIONAL AFFAIRS BUDGET

                              ----------                              


                        THURSDAY, APRIL 18, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Boxer, Cardin, Coons, Murphy, 
Kaine, Corker, Rubio, Johnson, Flake, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    Welcome back, Mr. Secretary. And first let me say that I 
know how important the tragic incidents in Boston is to all of 
us, but certainly to you, how much the Boston Marathon has 
meant to you and everyone in Massachusetts and New England. But 
Bostonians are resilient, and I know next year on Patriot's 
Day, the marathon will be bigger and better than ever before. 
And our thoughts are with everyone in Boston today. And I know 
that you would have loved to have been there after so many 
years, and I appreciate, as do all the committee members, your 
appearance here today.
    In the 2\1/2\ months since you were sworn in, you have 
spent 31 days traveling to 17 countries, logged in over 55,000 
miles, and done a lot of good work along the way.
    There was one headline in that time that affected all of us 
deeply as I know it affected you. Anne Smedinghoff, an upbeat 
25-year-old diplomat whom you met, was tragically killed in 
service in Afghanistan. Her life was a tribute to all of those 
dedicated to something bigger than themselves, and it 
underscores the importance of service to this Nation and to 
people around the world who look to us for leadership. Her 
death is a stark reminder that part of our duty is to provide 
those who serve abroad with everything they need to do their 
jobs and to keep them as safe and secure as possible in 
carrying out America's priorities.
    Today, Mr. Secretary, we have an opportunity to look 
forward, as always, to hearing the State Department's 
priorities as well as of that of the administration's, and, of 
course, letting you know some of ours. Our policy focus is not 
only on budgetary items, but also on taking action to 
demonstrate U.S. leadership and improve lives through 
cooperation with other states.
    An example, from my view, is the Disabilities Treaty, which 
would, without cost, improve the lives of thousands of people 
overseas, but as well for millions of Americans with 
disabilities who travel abroad.
    We are all committed to strong American leadership, and the 
need has never been greater. Mexico, Central America, 
Venezuela, Cuba, Syria, Afghanistan, Pakistan, North Korea, 
climate change, nuclear proliferation, the Arab Spring, all 
require our full attention. Some require greater attention, 
some require specific action, and some require changes in 
approach as we look around the world.
    As we heard in testimony here last week, violence in Syria 
has already displaced 4 million people, resulted in more than a 
million refugees, and threatens to further destabilize the 
Middle East, which brings up another issue, and that is whether 
or not we need to do something more to help that Syrian 
opposition that we, in fact, have vetted as being in line with 
our values. And I would like to hear your views on whether or 
not you believe we should be moving forward to change the 
tipping point in that regard.
    Syria is not the only humanitarian crisis. In the Sahel, 
severe drought has displaced more than 300,000 people, affected 
9 million more. Thirteen million people have been affected by 
drought in 
the Horn of Africa. These humanitarian disasters demand active 
and engaged U.S. diplomacy and assistance, which depend on 
robust funding of the International Affairs Account. And at the 
same time, we understand the budget realities we face and the 
need to make smart decisions in choosing the most effective and 
efficient programs that will yield the greatest security return 
on our investment.
    We may live in a constrained budget environment, but the 
world goes on. National security needs are not bounded by any 
constraints, budgetary or otherwise. They continue, and meeting 
them requires clear thinking and difficult choices. We will 
have to rebalance and scale down operations in certain areas as 
we scale up in others, so I look forward to your views on how 
we strike the balance in making those tradeoffs.
    In that process, I fully support efforts to increase 
funding for the Asia-Pacific rebalance. We applaud the 
administration for a budget proposal that includes an increase 
for East Africa--East Asia, I should say, and the Pacific. But 
as important as East Asia and the Pacific area, I hope it does 
not come at the expense of other priorities, such as Latin 
America. I am concerned with sharp cuts to the Western 
Hemisphere and what this may say about our strategy within our 
own front yard. And I look forward to being able to pursue 
those.
    Finally, I look at the humanitarian needs in Syria, and our 
increasing interests, national interests, national security 
interests. I look at the question of embassy security and we 
look forward to hearing from you about progress on the 
Accountability Review Board's efforts. And last, I am 
interested in your views on how this budget reflects the 
priorities of diplomatic statecraft as economic statecraft, and 
how the budgetary choices we make could help the State 
Department create jobs and economic opportunities at home.
    I will have my full statement entered into the record 
without objection.
    [The prepared statement of Senator Menendez follows:]

             Prepared Statement of Chairman Robert Menendez

    Welcome back, Mr. Secretary. First, let me say, I know how 
important the Boston Marathon is to you and everyone in Massachusetts 
and New England. But New Englanders are resilient and I know--next 
year--Patriot's Day and the Boston Marathon will be bigger and better 
than ever. Our thoughts are with everyone in Boston today.
    Again, welcome back. In the 2\1/2\ months since you were sworn in, 
you've spent 31 days traveling to 17 countries, logged in over 55,000 
miles, and made many headlines along the way.
    There was one headline in that time that affected all of us 
deeply--as I know it affected you. Anne Smedinghoff, an upbeat 25-year-
old diplomat whom you met, was tragically killed in service in 
Afghanistan. Her life was a tribute to all those dedicated to something 
bigger than themselves. It underscores the importance of service to 
this nation and to people around the world who look to us for 
leadership. Her death is a stark reminder that part of our duty is to 
provide those who serve abroad with everything they need to do their 
jobs--and to keep them safe and secure in carrying out America's 
priorities.
    Today, Mr. Secretary, we look forward, as always, to hearing the 
State Department's priorities, as well as the administration's--and, of 
course, letting you know ours. Our policy focus is not only on 
budgetary items, but also on taking action to demonstrate U.S. 
leadership and improve lives through cooperation with other states, an 
example being the Disabilities Treaty which would--without cost--
improve the lives of thousands of people overseas, as well as Americans 
with disabilities who travel abroad.
    We are all committed to strong American leadership, and the need 
has never been greater. Mexico, Central America, Venezuela, Cuba, 
Syria, Iran, Afghanistan, Pakistan, North Korea, climate change, 
nuclear proliferation, the Arab Spring--all require our full attention. 
Some require greater attention. Some require specific action; and some 
may require changes in approach as we look around the world.
    As we heard in testimony here last week, violence in Syria has 
already displaced 4 million people, resulted in more than 1 million 
refugees, and threatens to further destabilize the Middle East--which 
brings up another issue and that is arming the Syrian opposition--and 
I'd like to hear your views on whether or not you believe we should be 
providing military aid to vetted opposition forces we identify, 
stopping short of providing weapons that could threaten our own 
security if they fall into the wrong hands. And Syria isn't the only 
humanitarian crisis. In the Sahel, severe drought has displaced more 
than 300,000 people and affected 9 million more, and 13 million people 
have been affected by drought in the Horn of Africa. These humanitarian 
disasters demand active and engaged U.S. diplomacy and assistance--
which depend on robust funding of the international affairs account.
    At the same time, we understand the budget realities we face and 
the need to make smart decisions in choosing the most effective and 
efficient programs that will yield the greatest security return on our 
investment. We may live in a constrained budget environment, but the 
world goes on. National security needs are not bound by any 
constraints, budgetary or otherwise. They continue and meeting them 
requires clear thinking and difficult choices. We will have to 
rebalance and scale down operations in certain areas, as we scale up in 
others. I look forward to your views on how we strike the balance in 
making these trade-offs.
    An example is funding for Western Hemisphere programs. I fully 
support efforts to increase funding for the Asia-Pacific rebalance and 
applaud the administration for a budget proposal that included an 
increase for East Asia and the Pacific . . . but as important as East 
Asia and the Pacific are, I hope it does not come at the expense of 
other priorities--like Latin America. I'm concerned with sharp cuts to 
Western Hemisphere, and what this may say about a lack of a coherent 
U.S. strategy. The FY14 budget proposes a 14-percent, $253 million cut 
in aid to the region. Some of that decrease is because we are engaging 
with increasingly capable partners and our activities are less resource 
intensive.
    In Mexico, we are transitioning the Merida Initiative on security 
cooperation from a focus on equipment to technical assistance on the 
rule of law and local capacity-building. But, again, I hope we are 
circumspect in how we go about striking the proper balance and that we 
don't overlook the very severe security crisis in Central America. I 
hope you will address what we gain and what we potentially give up as 
we make these decisions.
    To address the humanitarian needs in Syria I mentioned, we are 
already providing $385 million in humanitarian support, but, even in 
this difficult fiscal climate--we could dramatically increase that 
number to help end one of the region's most devastating humanitarian 
tragedies unfolding as we speak. Making that choice would, in my view, 
be a positive step not only for the Syrian people, but it would signal 
to other donors that this is not business as usual. I'm anxious to hear 
your views on the prospect of increasing aid, as well as an answer to 
the question I raised at our hearing on Syria that no one seemed to 
address--and that is: What, in your view, does a realistic political 
solution in Syria look like? And have we already moved beyond that 
point?
    I'm also interested in a fuller understanding of the Department's 
approach to implementation of the Accountability Review Board's 
recommendations to meet embassy security goals balanced against the 
need for our diplomats to freely operate and do their jobs.
    Lastly, Mr. Secretary, I'm interested in your views on how this 
budget reflects the priorities of diplomatic statecraft as economic 
statecraft, and how the budgetary choices we make could help the State 
Department create jobs and economic opportunities at home.
    With that, Mr. Secretary, it's good to welcome you back. I look 
forward to your comments.

    The Chairman. And with that, let me turn to the ranking 
member, Senator Corker, for his remarks.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman and Mr. 
Secretary, thank you for being here today. And I appreciate 
your continued updates on what is happening. I have to say I am 
very encouraged with the beginning of your tenure and the 
efforts that you have underway. And I look forward to you 
having a very successful tenure at the State Department. So 
thank you.
    I also want to apologize. There is a hearing going on 
upstairs regarding housing finance, and I may step in and out. 
I hope you understand. It is not due to lack of respect.
    Today the committee is convening its annual budget hearing 
with the Secretary, an opportunity to talk about the budget 
request and the issues that should inform what I hope will be a 
near-term effort by the committee to produce a State Department 
authorization bill. Unfortunately, the challenges to our 
interests around the globe have not become easier since the 
Secretary last appeared before us as our colleague and nominee.
    I want to note that I welcome the food assistance reform 
proposal in the budget request. Thank you for that, the top-to-
bottom look at significant foreign assistance programs. And I 
underscore that I look forward to discussing the details of 
this proposal and the way forward with Administrator Shaw 
during next week's hearing.
    The budget reflects a sense of uncertainty in key areas, 
and I know that you are working to change that. But, for 
example, in this budget we see a lack of structured funding for 
Syria. I fear this reflects the lack of a coherent strategy and 
a failure to plan ahead to invest in specific priorities, 
whether supporting the opposition inside Syria or better 
preparing the neighboring states to weather the coming storm.
    Once again, the administration has submitted a request for 
a contingency fund for the Middle East and North Africa, but I 
am concerned that we are getting a vague request for an open-
ended authority rather than a request for funds tied to clear 
priorities.
    We also see uncertainty for U.S. personnel serving abroad. 
The budget request, including a substantial amount of funding 
for security-related programs, reminds us that there are still 
critical, unanswered questions that must be addressed going 
forward about the failures of process and leadership in 
Benghazi. And as far as I am aware, no one has yet lost their 
State Department employment over the Benghazi failures, and I 
do hope at some point, Mr. Secretary, you will address that.
    Given that the budget has now arrived with substantial 
funding requests for embassy construction and security 
programs, I hope we will shortly have responses to the 
questions we have been asking about the process by which the 
Department is sorting and prioritizing the competing 
construction and security list. This will assure the committee 
that funding is spent on the highest priority construction and 
renovation projects.
    At the same time, we see built into the budget request 
plans for continued development in places like Afghanistan and 
Iraq, where security issues present a significant challenge for 
U.S. personnel. In many of these programs, it is evident that 
targets are not being set, performance data is not being 
collected, and monitoring of our partners is not being done to 
know if our objectives are being met. This issue, as I said, is 
worth a larger conversation, and I am sure we will have that 
soon.
    Today's hearing is also our first opportunity for the 
committee to hear from you about your recent Asia trip, and to 
get your assessment of China's willingness to support a larger 
strategy to address the uncertain situation in North Korea.
    And finally, the administration has sent a $52 billion 
request to Congress for funding, and we owe it to the taxpayer 
to ensure that every penny of their hard-earned money is well 
spent. It is long past time, and I hope again you will address 
this, for the administration to name a permanent, qualified 
inspector general for the Department of State and the U.S. 
Agency for AID to help ensure that that happens. In fact, it is 
my hope that the next nominees you send to this committee will 
be individuals with proven careers and aggressive oversight for 
these two mission critical positions.
    Mr. Chairman or Mr. Secretary, I look forward to your 
comments.
    The Chairman. Thank you, Senator Corker.
    With that, Mr. Secretary, we will welcome your remarks.

   STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kerry. Mr. Chairman, Ranking Member Corker, and 
members of the committee, thank you very much. It is a 
privilege to be back here, though still a little surreal to be 
on this side of the dais. But I am honored to be back here, and 
I thank all of you for your generous comments, and particularly 
for the cooperation on any number of issues along the way.
    Thank you for your mentioning of Boston. Obviously I 
appreciate that enormously. It is no secret that my heart and 
my head are in Boston today with the President, with the 
families, with a lot of friends. There is a memorial service 
there, and I am grateful to the President for going up there. I 
wish I could be there with him, but I need to be here, and I 
understand that. And I respect the need to continue.
    You mentioned, Mr. Chairman, how resilient Bostonians are, 
and it is absolutely true. I echo the admiration that I saw 
watching the news clips. You know, you watched people running 
toward the chaos to help. You saw runners continue running from 
the marathon to the hospital to give blood. You saw people 
opening their homes to give comfort to complete strangers. It 
was just a remarkable outpouring.
    And I think, you know, last night I saw that at the Boston 
Bruins game, everybody just broke out into singing the 
``National Anthem.'' I do not think it ever sounded better, and 
there was this sign that flashed up saying, ``We are Boston 
strong.'' And so my thoughts are with those folks today, and I 
am confident we are going to get to the bottom of this.
    I also want to thank--you know, this is unusual, but a 
couple of days ago at Yankee Stadium, the Yankees posted the 
Boston Red Sox logo, and they sang ``Sweet Adeline'' during--
after the third inning, I think. But it was a great tribute to 
the way America comes together, and we are grateful for all of 
people's prayers and thoughts, and we thank everybody for their 
solidarity. Express my condolences, deep condolences, to the 
families, those who were lost, and we lost a citizen of another 
country, a young Chinese girl studying in Boston, a graduate 
student who went there with her friends to watch the marathon 
and take part in this fabulous Patriot's Day rite that, if 
nobody has ever experienced it, you are right, Mr. Chairman, 
they will be back, and there will be a bigger and better one 
next year. And we will celebrate that spirit.
    So thank you for your comments.
    Turning to the business of the budget, I will try to move 
rapidly because I do remember the lesson of let us get to the 
questions as fast as we can. Senator Lindsey Graham said, I 
think, very eloquently, that America's investment in foreign 
policy is a national security insurance, and I think he is 
right. If you make the small, smart investments up front, we 
can avoid much costlier conflicts and burdens down the road. 
And in the past few months, we have seen a number of 
developments that just lend credence to that.
    American engagement was essential to our rapprochement 
between Turkey and Israel, a positive step toward stability in 
a volatile region of the world, and helpful in terms of perhaps 
ultimately being able to get to negotiations in the Mideast 
peace process. The committee, needless to say, is deeply 
immersed. You had a hearing the other day on Syria. We have 
contributed nearly $385 million to the humanitarian crisis to 
provide essential resources to the Syrian people. We have 
actually delivered flour to bakers in Aleppo and provided food 
and sanitation in the Atmeh refugee camp, which is not 
inconsequential in terms of stability.
    The fourth-largest city in Jordan today is a tense city. It 
is a refugee city. I believe Senator McCain has been there, and 
he understands the passions of the people who are there. Having 
just returned from Seoul, Beijing, and Tokyo, where obviously 
the North Korea nuclear issue took center stage, I really was 
reminded again of the fact that America is the guardian of 
global security. People all through the region look to us for 
that leadership, the indispensable nation. And we will not turn 
our back on the prospect of peace, but I will tell you, neither 
will we hesitate to do what is needed to defend our allies and 
our interests. And that was the message that I went to deliver 
and that we have delivered in other ways over the course of the 
last weeks.
    So all of these things, and a lot more, speak to why the 
budget is not just a collection of numbers. It is an 
illustration of our values. It is an illustration of our 
priorities, particularly with respect to the security and long-
term interests of our country. I know that budget deficits and 
debt are all weighty decisions, and we have to toe the line, 
but--and I know you are all grappling with that. We are 
grappling with them at the State Department, too, and I think 
our proposed budget is responsive to, and reflective of, the 
national economic reality.
    In fact, I think it is more restrictive than I would 
personally like it to be in the context of our national 
reality. And we can talk about that a bit today. But it is 
responsible investing in areas that attract economic growth, 
create good jobs in America, and secure our national interests.
    And as you know, when I testified before you for my 
confirmation hearing, I said then that I think much of foreign 
policy today is, and ought to be, economic policy. I stand by 
that even more so after the meetings that I have had both in 
Europe and the Middle East and Asia. It is just more clear than 
ever where the economic action is, where the United States 
needs to be, and how we can lead in the future if we are.
    I believe we have implemented reforms that reduce costs 
without jeopardizing vital contributions. The budget delivers, 
I think, maximum bang for the buck, but that is not to say we 
cannot do more and do better. And I will share with you 
thoughts about some of the places where I think as I get into 
this and we get people sort of at the table and invested, we 
are going to be able to deliver more for the dollar and even 
reduce some costs and do a more effective job.
    Let me give you a couple of examples of some high-impact, 
low-cost things that we are doing right now that we get as a 
return on the investment. For just over $3.5 million, the State 
Department's Bureau of Conflict and Stabilization made really 
key investments leading up to the elections in Kenya.
    And I am absolutely convinced, and I think the record will 
show, that what we did in Kenya, what Assistant Secretary of 
State Johnny Carson and his shop did, and what the folks over 
there in the Embassy and others working, AID and others, over 
the last year, helped prevent a repeat of the violence that 
tore that place apart 5 years ago. Our antiterrorism assistance 
funding has helped save hundreds of lives of people in places 
like Pakistan, India, and Lebanon, by training local law 
enforcement to detect and neutralize explosive devices.
    Our 2014 budget request maintains these commitments to 
advancing peace and stability in places where it is hard to 
find them. I have already traveled three times as Secretary to 
the Middle East and north Africa, and all of you know how north 
Africa is struggling to meet the growing expectations of 
populations in this moment of uncertainty.
    To that end, this budget includes a request for $580 
million for the Middle East and North Africa Incentive Fund for 
the very purpose of allowing us to be able to give reformers 
the tools and resources they need to make the right decisions 
and to avoid a decline into either failed statism or near 
failed statism.
    When we look at the threats that emanate from failed and 
potentially failing states, nobody knows more than the members 
of this committee the costs of making the wrong choice. Quite 
simply, the U.S. homeland is not going to be secure if violent 
extremists are bent on attacking us, and they can find a safe 
haven in a place like the Sahel or the Maghreb. As Senator 
McCain just returned from Mali, I know he is familiar with the 
threats that we are dealing with there from al-Qaeda to 
narcorebels and so forth.
    This budgets sets aside $8.6 billion for our security, 
counterterrorism, law enforcement assistance. Now, I ask you to 
just compare $8.6 billion and what we have gotten as a return 
on that investment versus the more than $1 trillion we have 
spent fighting in Iraq and Afghanistan. I think there is a 
clear penny-wise, pound-wise investment that we are engaged in. 
And I emphasize to all my former colleagues the United States 
simply cannot be strong in today's world if we are not strong 
in the world. And I think this is particularly true when it 
comes to our domestic economic renewal.
    We need to be more engaged and more out there, which is the 
purpose of the TTIP, which Europe is very excited about.
    Turkey expressed to me their desire to do parallel 
negotiations. They do not want to be left out in Europe. And in 
Asia, I just saw the enthusiasm of Prime Minister Abe and the 
Japanese to be part of the TPP. They have taken significant 
steps to reform and alter their approach in order to qualify, 
and the United States is pleased to support their desire to be 
part of this.
    This is the way we are going to raise the standards and 
deal with the issues of cyber security and intellectual 
property and the other financial transactional rules of the 
road that we all think are so important.
    I would say also to everybody, I just want to emphasize 
that development is not charity. It is an investment. Eleven of 
our top fifteen trading partners today, 11 of the top 15, were 
beneficiaries of U.S. foreign assistance only a few years ago. 
I was just in Korea. Korea, 15 and 20 years ago, was a 
recipient of aid. Today Korea is donating aid around the world 
and partnering with us in charitable initiatives, efforts for 
Syria, humanitarian and other kinds of efforts. So this is 
important.
    I also just want to highlight, quickly, reforms we are 
making in this budget. The most visible one perhaps is in the 
area of food aid, U.S. food aid. By giving ourselves the 
flexibility to choose the most appropriate and efficient type 
of food assistance, we are going to reach an estimated 2-to-4 
million more people, and we are going to do it with the exact 
same discretionary funding. At the same time, we are going to 
save approximately $500 million in mandatory funding over the 
next decade, which we will use to reduce the deficit.
    American growers and producers will still play the majority 
role in the donation of food assistance. Over half the funding 
we are requesting will be used for the purchase and shipping of 
U.S. commodities overseas. But by giving us the ability to 
modernize, including the flexibility to procure food in an area 
closer to the crisis, we actually address the crisis. We can 
get food to malnourished people 11-to-14 weeks faster, and 11-
to-14 weeks faster for malnourished people can mean the 
difference between life and death.
    And here is the bottom line. This change allows us to do 
more to help people lift themselves out of hunger and poverty 
without spending more money. I think that is a great deal for 
the American taxpayer.
    The final thing I want to mention and then open to 
questions obviously is just our most valuable resources--and, 
Mr. Chairman, thank you for talking about Anne Smedinghoff. I 
met Anne in Afghanistan in Kabul a few weeks ago. She was in my 
control team. And I met with her family in Chicago the other 
day on the way back, just this unbelievably good family, 
committed, and vibrant, and very proud of their daughter. And 
we have requested--you know, we cannot protect everybody. We 
just say it. We cannot have 100 percent assurance in this 
world. We have to make judgments.
    So we have requested $4.4 billion to fortify our worldwide 
security protection and to improve our overseas structure; $2.2 
billion is set aside for constructing secure diplomatic 
facilities. And this is part of our commitment to implement the 
full recommendations of the ARB so we can mitigate the 
potential of the risks. And I say to my former colleagues, you 
know, we cannot guarantee the elimination of that risk. So as 
Secretary, I will sit here and I will say to you, you know, we 
lost people in the 1960s, 1970s, 1980s, 1990s, and in the first 
decade, and it is a risk of being on the front lines of 
diplomacy in dangerous places. But we cannot retreat, and we 
will not retreat.
    Anne and Ambassador Chris Stevens were cut from the same 
cloth, and that is what made them such outstanding members of 
the State Department family. And as Secretary, obviously my job 
is to work with you so that together we protect the men and 
women, and they can carry out our national mission.
    I will just summarize by saying to everybody here, nothing 
has hit me more in the last 2 months, 2\1/2\, months of my 
travel and engagement in this job than the reality that so many 
nations are looking to us for leadership. So many nations see 
us as that indispensable country. We stand for optimism. We 
stand for opportunity, for equality, for freedom, for dignity, 
for people's ability to have a job and an education and do 
better in life. And we stand in opposition to all those who 
want to replace hope with hate, who just want to blow 
themselves up and take people with them, or who want to, you 
know, conduct a jihad without any viable program, purpose, or 
alternative view that makes people's lives better.
    So those are the things we believe. Those are the values 
that the State Department and AID will defend every day. And I 
look forward to continuing to work with this committee to take 
those values and interests and protect them to the best of our 
ability, and see America's flag fly proudly.
    Thank you.
    [The prepared statement of Secretary Kerry follows:]

         Prepared Statement of Secretary of State John F. Kerry

    Thank you Chairman Menendez, Ranking Member Corker. It is always a 
privilege--and still a bit surreal--to be in this hearing room on the 
other side of the dais.
    Before I begin, I couldn't possibly come home to the Senate without 
addressing the terrorist attack in my home city of Boston, an attack 
that hit home for me--literally. I've talked with friends and family 
still wrestling with what happened to children and loved ones, and I am 
very sorry that I am unable to join President Obama at the memorial 
service today because my duties demanded I be here with you this 
morning. But I know just how resilient Bostonians are, and I want to 
echo all the admiration we hold for the people, both first responders 
and ordinary citizens, who didn't hesitate when the bombs went off--the 
people who ran into the chaos to help the victims, the marathoners who 
continued running to the hospital to donate blood, the citizens who 
opened their homes to offer comfort to strangers. Their actions are 
proof positive that the American people, and especially Boston, cannot 
be intimidated by cowardly acts of terrorism and destruction. My 
thoughts and prayers are with the families of the three victims who 
lost their lives--American victims and citizens of other countries, one 
just 8 years old--and with all those who were wounded. We will not rest 
until we have gotten to the bottom of these bombings and the 
perpetrators have been brought to justice.
    Turning to the business of the budget--I promise to remember the 
most important lessons I learned during my time on this committee. 
First, keep your remarks short so we can get to the questions.
    And second, a lesson we talked about at my confirmation hearing but 
which has hit home particularly during my travels as Secretary: there 
really is no longer anything foreign about foreign policy.
    As Senator Lindsey Graham has said very eloquently, America's 
investment in foreign policy is ``national security insurance.'' He's 
right. If we can make the small, smart investments up front, we can 
avoid much more costly conflicts and burdens down the road.
    In the past few months, we have seen several developments that 
underscore the stakes for having a strong American presence in every 
part of the world. American engagement was essential to the 
rapprochement between two of our close partners, Israel and Turkey--a 
positive step toward stability in a volatile region of the world.
    This committee is well aware of the ongoing crisis in Syria--you 
held a hearing on it just last week. We have contributed nearly $385 
million in humanitarian relief to provide essential resources to the 
Syrian people, including sending flour to bakeries in Aleppo and 
providing food and sanitation in Atmeh refugee camp. I expect we will 
have the chance to discuss Syria at length today.
    Having just returned from Seoul, Beijing, and Tokyo where the North 
Korea nuclear issue took center stage, we are reminded once again that 
America is the guardian of global security. We will not turn our back 
on the prospect of peace, but neither will we hesitate to do what is 
needed to defend our allies and interests.
    All this speaks to why this budget isn't just a collection of 
numbers; it's an illustration of our values and priorities. Budgets, 
deficits, debt--these are weighty decisions, and I know each of you is 
grappling with them carefully.
    We are grappling with them at the State Department, too, and I 
think our proposed budget is responsive to, and reflective of, our 
national economic reality. As part of the President's budget, it will 
help cut our deficit responsibly while investing in areas that attract 
economic growth, create good jobs for American workers, and secure our 
national interests.
    Our 2014 budget request represents a 6-percent reduction from 2012 
funding levels. We have examined our request with a steely eyed 
determination to improve efficiency and economize wherever possible. We 
have implemented reforms that reduce costs without jeopardizing vital 
contributions. This budget delivers maximum bang for the minimal 
possible taxpayer buck--actually, for about one single penny out of the 
taxpayer dollar.
    Let me give you a few examples of the kind of high-impact, low-cost 
work we do every day to make the world safer. With just over $3.5 
million, the State Department's Bureau of Conflict and Stabilization 
Operations made key investments leading up to the recent elections in 
Kenya that helped prevent a repeat of the violence we saw 5 years ago.
    Our antiterrorism assistance funding has helped save the lives of 
hundreds of people in places like Pakistan, India, and Lebanon by 
training local law enforcement to detect and neutralize explosive 
devices.
    Our 2014 budget request maintains our commitments to advancing 
peace, security, and stability in places where all three can be scarce 
commodities. I've already traveled three times as Secretary to the 
Middle East and North Africa--a region struggling to respond to its 
citizens' growing expectations for dignity and opportunity. Leaders 
there are making difficult decisions, and the United States cannot make 
those decisions for them, but we can do more to be a partner for all 
those on the side of freedom and democracy.
    To that end, this budget includes a request for $580 million for 
the Middle East and North Africa Incentive Fund so that we can help 
give reformers the tools and resources they need to make the right 
decisions on behalf of their citizens. This fund allows us to say to 
people in the region: ``If you're willing to take on the deep-rooted 
challenges and make the tough choices, we are here for you.''
    When we look at the threats that emanate from failed and 
potentially failing states, we must heed the lessons of our past. The 
U.S. homeland will not be secure if violent extremists bent on 
attacking us find a safe haven in places like the Sahel or the Maghreb. 
Senator McCain, you've just returned from Mali, so you are familiar 
with the range of threats we're dealing with in that part of the world, 
from 
al-Qaeda rebels to narcotraffickers. This budget sets aside $8.6 
billion for our security, counterterrorism, and law-enforcement 
assistance. Compare that $8.6 billion to the more than $1 trillion we 
have spent fighting in Iraq and Afghanistan and I think you'll agree 
this is both a penny and pound-wise investment.
    The simple fact is, the United States cannot be strong at home if 
we're not strong in the world. This is particularly true when it comes 
to our domestic economic renewal.
    We need to do more to get out there and stoke our economic engines 
with the trade and business opportunities available in other countries. 
That's why the President is committed to successfully completing the 
Transatlantic Trade and Investment Partnership and the Trans-Pacific 
Partnership. We want to tap the growing markets of the Asia-Pacific, 
which are vital to American economic recovery.
    When it comes to shoring up our economic health and protecting our 
national security, our development work is one of our strongest assets. 
Let me be clear: development is not charity. It's an investment in a 
strong America and a free world. Eleven of our top 15 trading partners 
were once beneficiaries of U.S. foreign assistance. We can't afford to 
pull back. But that doesn't mean we won't work in better, smarter ways.
    Let me highlight the reforms we are making with this budget to one 
of our most visible forms of assistance: U.S. Food Aid. By giving 
ourselves the flexibility to choose the most appropriate and efficient 
type of food assistance, the U.S. Government will reach an estimated 2-
4 million more people every year with the same discretionary funding. 
At the same time, we will save approximately $500 million in mandatory 
funding over the next decade, which we will use to reduce the deficit.
    American growers and producers will still play a major role in our 
food assistance. Over half the funding we are requesting for emergency 
food aid must be used for the purchase and shipping of U.S. commodities 
overseas. But by giving us the ability to modernize, including the 
flexibility to also procure food aid in developing countries closer to 
crisis areas, not only can we feed more people, we can get food to 
malnourished people 11-14 weeks faster. Here's the bottom line: this 
change allows us to do more to help more people lift themselves out of 
hunger and poverty without spending any more money. That's a great deal 
for the American taxpayer.
    The final area I want to mention is how this budget cares for our 
most valuable resource: the brave men and women of the State Department 
and USAID. We have requested $4.4 billion to fortify our worldwide 
security protection and improve our overseas infrastructure; $2.2 
billion of this is set aside for constructing secure diplomatic 
facilities. This is part of our commitment to implement in full the 
recommendations of the independent Accountability Review Board so that 
we can mitigate the risk of future tragedies like the one we suffered 
last year in Benghazi.
    This has been a hard year for our State Department family--a family 
that knows how risky the work we signed up for can be in a very 
dangerous world. Just 2 weeks ago in Afghanistan we lost a bright, 
committed Foreign Service officer--Anne Smedinghoff. I met her on my 
last visit, and earlier this week, I sat with her parents. She was just 
25 years old. She wanted to make a difference in the lives of people 
she had never met, and she was willing to take risks to do it.
    Anne and Ambassador Chris Stevens really were cut from the same 
cloth. That's what made them such outstanding members of the State 
Department family, and such outstanding Americans.
    As Secretary, my most important job is to protect the men and women 
under my watch so they can carry out their national security mission. 
But we cannot do it by retreating from the world. We stand for optimism 
and opportunity and equality. And we stand in opposition to all those 
who would replace hope with hate. That's what we believe--and those are 
the values the State Department and USAID defend every day.
    Thank you.

    The Chairman. Thank you, Mr. Secretary.
    Well, we will start a round of questions of 6 minutes.
    Secretary, there is a lot to talk about here, and part of 
the budget is also understanding some of our policy choices so 
we can make decisions as to what that budget should look at. So 
let me review some of those most significant policy choices 
that I think we have some challenges moving ahead.
    Iran. I am very concerned about Iran's nuclear ambitions. I 
was discouraged to see the last round of the P5+1 talks where I 
saw there was no real intention by the Iranians really to have 
any commitment to moving forward in that regard.
    The problem here is that we saw a report that they have 
more sophisticated centrifuges, that they have progressed far 
more than many expected at this time according to reports that 
came out of the IAEA. The centrifuges are spinning, the clock 
is ticking, and they seem to be managing the sanctions that we 
have levied so far. And if they think that the status quo 
continues to move forward, they will continue to manage it in a 
way that they will move forward.
    My question is, What do we do going from here? Is there, 
for example, additional support in the Security Council to take 
additional action? And what is your view--there is talk within 
the Senate, someone who has led on this issue. I know Senator 
Kirk and others. What is your view of sanctions that would 
require the acceleration of significant reductions in petroleum 
purchases by foreign nations or that would limit Iran's access 
to its foreign currency reserves as additional items that might 
create a tipping point in their attitude?
    Secretary Kerry. Mr. Chairman, I share your concern. The 
President shares your concern. There is no question but that 
the last round of talks was less than the United States hoped 
for. However, our policy is clear, and there is no variation in 
it. The clock is ticking. And the Iranians I believe know that.
    The one thing I would say to the members is that they are 
2 months away from an election. The election is on June 14. And 
every bit of evidence we have, this very week or next week, 
they declare who their candidates are. And there is an enormous 
amount of jockeying going on with the obvious normal struggle 
or tension between hardliners and people who might want to make 
an agreement, et cetera.
    We all know what life is like here in the Senate 6 months 
from a Presidential election, so you can imagine what it is 
like there 
2 months from theirs. And so I think this is a moment for us to 
be a little patient. We are watching. Every bit of intelligence 
is being compared on a daily basis within our interagency 
process. We are deeply engaged with our Israeli allies, 
friends, comparing on a regular basis. I think we are on the 
same page, and we understand sort of what the schedule is here.
    But I am personally not expecting something dramatic to 
happen over the course of the next 2 months, unless of course 
they take steps to not just install additional centrifuges in 
Natanz, but start to spin up and do things which we are capable 
of tracking very effectively.
    So the President has made the policy crystal clear: Iran 
will not get a nuclear weapon. The international community has 
spoken to this effect, and we have, as everybody on the 
committee knows, the United Nations resolution, and the 
Chinese, Russians, everybody supporting it. We still want a 
diplomatic resolution of this as our first choice, but if the 
Iranians, who know what they have to do, are not willing to 
come to the table, the clock will ultimately run out.
    We are not there yet. We do not need to spin this up at 
this point in time. I think the President will be very clear 
with you when and if we need to do that. But for the moment, I 
think you need to leave us the window to try to work the 
diplomatic channel.
    The Chairman. Well, I appreciate that. It is just that I 
see that diplomatic window increasingly closing, and I am 
concerned that if they believe they can manage the present set 
of circumstances over the next 5 months or so, then we have a 
real challenge. So we hope you will be open to some of the 
initiatives that we may be considering. We will confer with you 
in that regard.
    Secretary Kerry. Let me say, Mr. Chairman, we are open 
obviously. I would really like to work with you on the timing, 
and the reason is I would like to actually talk about some of 
this in a classified session. And I would be happy to do that 
with you at near term. But I do think timing and the choice of 
when we might do something is critical. We need to cooperate 
together on that, and you need to be aware of some things that 
I need to talk to you about in a classified session.
    The Chairman. All right. Syria. We had a hearing here last 
week, and we heard from Ambassador Ford and the Acting 
Assistant Secretary that our current policies and political 
solution, which of course we would love to see. But I got no 
sense of what is the pathway toward a political solution.
    And I am concerned that if Assad continues to believe, as I 
believe he thinks in his mind at this point, that given the 
present dynamics where he has a monopoly on air power and on 
artillery, that he will continue to be able to move forward. 
And unless we change the tipping point here, and from my own 
personal view I have evolved to the point of thinking about how 
do those who are in opposition, which we have vetted and 
believe share our values, get the type of assistance that can 
change that tipping point, we will continue to see lives lost. 
We will continue to see the challenges to other countries in 
the region and to their own security, like Jordan and others, 
move forward.
    So can you give me a better roadmap than we got last week 
and a sense of whether or not you believe we need to change the 
tipping point? And if so, how? And if not, what is the 
political solution road work?
    Secretary Kerry. Thanks, Mr. Chairman. I have said for 
months that I think--and President Obama has said and directed 
me to go out and try to find the ways to implement this, to 
change--we need to change President Assad's calculation. That 
is clear. Right now he is sitting there with support from Iran, 
with support from Hezbollah, with support from Russia, with 
artillery and an army, and believing that he can continue to 
fight it out using his air power, his Scuds, his artillery, and 
his tanks. So that equation somehow has to change, and we all 
understand that.
    We have a meeting scheduled--well, the President directed 
me first to go to Rome where we did pick up what we were doing. 
We increased it and created a synergy, I think, between the 
core group of supporters and Syrian opposition, which was 
important, has been important. And Syrian opposition is making 
progress on the ground. If you look at a map and see where they 
are versus where they were a few months ago, they are making 
progress. But that is not the measurement of this. The violence 
is enormous. The numbers of refugees coming out is intolerable. 
The killing, the wanton destruction is unacceptable. And so 
time is not on our side. We do not want to leave this in the 
status quo if we can help it.
    To that end, I have reached out to the Russians trying to 
find if there is a way for us to find a common ground with 
respect to the possibility of implementing the Geneva 
principles. Now, the Geneva principles are as follows, and 
Russia signed on to them, that President Assad and the Syrian 
opposition both nominate and choose individuals who will be 
the, by mutual consent--both sides have to agree, so obviously 
the Syrian opposition is not going to agree to Assad. It has to 
be someone else. And they create a transitional government with 
full executive authority that then goes to an election where 
all of the Syrian people will choose their future.
    Now, that is the ideal that has been set forth and, in 
fact, codified in international terms by this agreement that 
was reached in Geneva with the Russians signed onto it. They 
are now arguing that Assad does not necessarily have to leave 
immediately or up front, and they believe that the Syrian 
opposition is pushing away from the negotiations.
    So we are meeting in Istanbul this Saturday at the 
invitation of both Foreign Minister Davutoglu and myself with 
the core group, to get everybody on the same page with respect 
to what post-Assad might look like: commitment to diversity, 
pluralism, democracy, inclusivity, protection of minority 
rights; that they would be open to the negotiating process, to 
a political settlement; that they will abide by rules with 
respect to conduct in warfare and so forth, so that everybody--
Qataris, Saudis, Emirates, Turks, Europeans--who are involved 
will all be on the same page.
    And the hope is that that will then create a confidence 
level about who is getting what kind of aid from whom. 
Everybody has now accepted a concern about extremist elements 
who have forced their way into this picture, and there is a 
desire by all parties to move those extremist elements to the 
side, and to give support, I believe, to the Syrian opposition. 
That is a big step forward.
    And so if we can come out of that, then there are some 
other considerations that are clearly being talked through. 
None have been approved yet. But the President has authorized 
additional assistance, nonlethal, and others are giving lethal. 
So different countries are making their choices about what they 
are doing, but we are coordinating as closely as we can in that 
effort, and that is what the meeting in Istanbul would be 
about.
    I think that is the best road we can at least work on at 
this moment in time. My hope is still that the Russians can be 
constructive in this process, and we can find room to 
negotiate. The bottom line is that time is not on the side of a 
political solution. It is on the side of more violence, more 
extremism, an enclave breakup of Syria, a very dangerous 
sectarian confrontation over the long term, and the potential 
of really bad people getting a hold of chemical weapons. So 
there are enormous strategic interests for us here.
    I will be seeing Foreign Minister Lavrov next week in 
Brussels at the Minister's meeting there when I come back from 
Turkey. And hopefully we can find some progress, and that is 
where we are.
    The Chairman. All right. Thank you very much.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Mr. Secretary, 
welcome back. Thanks for being here.
    Let me pick up on Syria. Over the course of a couple of 
hearings, we have heard some conflicting testimony in terms of 
the Pakistanis--or, I mean, the Syrian citizens, their 
viewpoint of America, whether they are appreciative of what we 
are trying to do versus growing resentment that we are not 
doing enough. What is your assessment of the general feeling of 
the citizens of Syria?
    Secretary Kerry. Well, I think it is a mix. I think there 
are some that are angry and feel we should be doing more, and 
there are some that think we are doing things and helping them. 
There is no question that the vast majority would like to see 
us do more.
    Senator Johnson. OK, thank you. As a fiscal conservative, I 
am not opposed to foreign aid. I think if it is spent well, it 
is money well spent. I am proud of the fact that we, you know, 
portray American values around the world, and I think if it is 
done effectively, I think it would be an important component of 
both our foreign and military defense policy.
    But at the same time, we have, to put it delicately, some 
unreliable allies. And there have been attempts in the Senate 
to move amendments that could strip foreign aid from some of 
these allies. What is your assessment of the best way of 
holding some of these allies accountable without--you know, 
again, to also understand the real politics of the situation, 
whether we are talking about Egypt. I mean, let us talk about 
Pakistan with Dr. Afridi.
    How can we handle those situations effectively?
    Secretary Kerry. Well, Senator Johnson, it is a really good 
question. And what I have learned through the years at least, 
you know, from my practice is that there is no generic 
prophylactic rule that applies to everybody. Just there is not. 
There is a delicacy and an individuality to each situation that 
you have to kind of respond to.
    Some places you can do conditionality, and it lends itself 
to that, and it is effective. Some places it is 
counterproductive, and it does not work, and it actually can be 
even, you know, destructive. And it depends on who you are 
dealing with and what the circumstances are.
    And Pakistan, for instance, as everybody knows, certain 
things that have been taking place over the years have really 
created anger within the country, and the body politic is 
tense, and the politicians respond to that. But then they have 
been trying to be helpful in other ways, and they have been. 
And we have a route for transiting our aid to--all of our 
supplies to our troops in Afghanistan last year and now 
bringing things out. We have had cooperation on intel. We have 
had cooperation on nuclear weapons. We have cooperation on 
efforts to ferret out, you know, bad actors in the Fatah in the 
western part of the country. They have lost--I think they have 
150,000 troops out there fighting the same fight we are now.
    So it is a mixed bag is the bottom line. And it does not 
lend itself to sort of just come in and say, well, Dr. Afridi 
is in jail, he should not be, et cetera. We have said that. We 
will fight that. And it is wrong, and it angers all of us. But 
I do not think you can chuck the whole relationship over one, 
or two, or three things here and there because of the overall 
interest that we have.
    Egypt similarly. The army in Egypt has been, frankly, an 
incredibly responsible player in this drama. You know, but for 
the army, you could have had--you would have had a civil war I 
think in Egypt. You would have had massive bloodshed. And the 
army not only kept the peace, but did what it said it would do: 
created the capacity to have an election, had the election, and 
gave up power, turned it over to the people who won the 
election. Now, we do not--you know, we have questions about 
where the people who won the election are taking the country, 
but they won the election.
    And so I think, frankly, our investment over the years in 
the relationships we have in the junior officer level and on 
the way up within the army is terrific. We have people on the 
telephone to their military during Tahrir Square saying, you 
got to be restrained, you got to do this. Many of these people 
have trained over here at our training facilities, and so there 
were relationships built up and standards put in place.
    That is the virtue of what we do in these kinds of long-
term investments and relationships. And they are never perfect, 
but on balance, I believe, you know, we are getting a return on 
that investment that is not inconsequential. The army also is 
helping us enforce security in the Sinai. The army is also 
helping us enforce the Gaza peace, and the Gaza peace has held. 
And the relationship--our friends in Israel will tell you today 
that the day-to-day relationship and workings they have for 
security--mill to mill and intel to intel--is army to army 
intel to intel with Egypt. So I think it is very important, and 
we have got to be thoughtful about how we approach those 
things.
    Senator Johnson. And I agree, and I guess I would just 
suggest the administration work very closely with the Senate 
and the Congress in terms of getting the information out, 
because let us face it, foreign aid is very unpopular, and we 
need to at least provide the American people the rationale for 
why we are doing it.
    A quick other question here. I agree with you that foreign 
policy is but economic policy. I also believe that the reason 
America is getting away with these enormous deficits, all this 
debt, is because we are still the world's reserve currency. We 
are still the world's safe haven.
    I am concerned about the point in time when America is no 
longer the world's reserve currency, and we are seeing China 
begin, you know, developing relationships with other countries 
and doing currency swaps and trading in other currencies. Can 
you just speak to your concern about that and how far has that 
progressed where America is no longer going to be the world's 
reserve currency?
    Secretary Kerry. I do not see it happening any time soon, 
to be honest with you, Senator. I think our economy is the 
strongest economy in the world still. We are going to be the 
first or second strongest economy through the first half of 
this century to a certainty. And I think we can get stronger, 
much stronger than we are if we make some of the right moves 
now and the right investments.
    So, you know, my sense is that we are on a pretty good 
track. With the TTIP we will bring Europe, which is the largest 
market in the world, together with the United States, which is 
the largest economy in the world. We will set the standards 
through that. With the TTPP and Japan joining in, we will have 
40 percent of GDP in that alone. So these are very significant 
economic alliances that we are building. And others will have 
to come up to our standard, and I think that is one of the 
reasons why the dollar will remain strong.
    If I can just say one thing quickly on foreign aid, you 
mentioned that foreign aid is unpopular. That is the reason I 
went to the University of Virginia to give my first speech as 
Secretary of State to talk about what we do get for what we 
invest. What we are talking about in this budget is one penny 
on every dollar we spend, folks, in everything that we do in 
the world: our embassies, our consulates, our visa programs, 
our economic programs, our aid, I mean, everything. One penny.
    Now, if you look at the relationships we get out of that, 
and the role we play in the world, and our ability to have an 
impact, we are saving 5 million lives in Africa through PEPFAR 
in what we are doing. I saw 10 extraordinary women the other 
day in Afghanistan, each of them going against years of habit 
and culture and history in their country to start businesses. 
One woman had 10 businesses. Another had three or four. They 
are entrepreneurs. They are unbelievable, and they are 
courageous because it is not easy to do. So that is what we get 
for our help and investment.
    So I would say that, you know, what we need are more 
elected officials who do not go home and beat up foreign aid 
and say, you know, I would rather have that money come to 
wherever it is in their particular hometown. It is a guaranteed 
applause line, but it does build up that prejudice against the 
program.
    And I would just close by reminding everybody here, when 
George Marshall and Harry Truman put the Marshall Plan in 
place, the country was overwhelmingly against it. Japan and 
Germany today are two of the strongest allies we have. Europe 
as a whole, whose economy was flat and broken and destroyed by 
the war, came back, and Europe and NATO have been indispensable 
to us. And to remind you of what I said in my opening, 11 of 15 
countries we gave aid to now give aid around the world, one 
penny on the dollar. I will argue that anywhere in this Nation.
    Thank you, Senator.
    Senator Johnson. Again, I would like to help you make that 
argument. Thank you.
    Secretary Kerry. Thank you.
    The Chairman. Senator Boxer.
    Senator Boxer. Well, I want to thank Senator Johnson for 
that line of questioning because I think it was very important. 
I appreciate it.
    And I want to thank you, Secretary Kerry. We really miss 
you in the Senate, but I cannot imagine a better job for you 
than this. And already in the shortest time, it felt like in 2 
minutes you have been to every hot spot in the world. And here 
you are today before your colleagues. I am just very happy 
myself.
    Secretary Kerry. Thank you. Thank you, thank you.
    Senator Boxer. I also want to express my support for the 
extraordinary people of your home State as they face the 
aftermath of a cowardly and vicious attack, and associate 
myself with the remarks you made yesterday in front of the 
House, and everything you said.
    I do have the luxury of having the microphone on, so I want 
to say two more things that do not have anything to do with 
your appearance here.
    I send my deepest sympathies to those in West, TX, who are 
dealing with a horrific explosion, and to the parents of Sandy 
Hook Elementary School, I want to say how sorry I am for a do-
nothing Senate. And in that I speak for myself alone.
    Mr. Secretary, in your job, you are dealing and responding 
to devastating violence and humanitarian suffering all over the 
world. And I was very pleased in your response to Chairman 
Menendez to hear about this meeting that is going to happen in 
Turkey, and that you are trying to bring everybody together.
    About a year ago, I met with the Russian Ambassador, and it 
was one of the--about this issue in Syria and a post-Assad. It 
was a very depressing meeting for those of us there. I was 
called by Senator Durbin in his office in the Capitol. And 
Russia's attitude was that there is not going to be any post-
Assad. Assad is going to be there.
    Now, I certainly hope in light of what has happened since 
then that they have softened on that. And if anybody can push 
them in our direction, I think it would be you given your 
amazing sense of history and your ability to communicate.
    I want to focus on the issue of refugees for a minute and 
get your opinion. There is a worsening situation there. 
According to the United Nations, the number of Syrians fleeing 
to the neighboring countries has more than doubled just since 
January from 400,000 to 1.3 million refugees. And these 
refugees are in dire need of assistance, especially the women 
and the children, many of whom have suffered rape or sexual 
violence. A UNICEF spokeswoman warned, ``The needs are rising 
exponentially, and we are broke.''
    Now, I am so proud that the United States is the largest 
single donor, and I think as Senator Johnson indicates, this is 
hard for us. We have these deficits. I am happy to say they 
have gone way down from the top when the President inherited 
them from President Bush, $1.2 trillion. They are now down to 
about $700 billion or so, but still too high. But we are still 
the largest single donor of humanitarian aid to the Syrian 
people. But the United States cannot do this ourselves.
    So in your opinion, Secretary Kerry, are you confident that 
the Gulf States will follow through in a constructive way on 
their pledges to provide much-needed humanitarian assistance to 
Syria? And what can we do here to encourage the international 
community, including the Gulf States, to do more?
    Secretary Kerry. Well, thank you, Senator Boxer. You are 
absolutely correct. This is a growing humanitarian catastrophe, 
and Lebanon is very destabilized. You do not have camps in 
Lebanon. They are just pouring into Lebanon and spread out 
among the population. And they are obviously in Turkey, and 
everybody is very concerned about it. As I said earlier, the 
fourth-largest city in Jordan now, which is already under 
economic stress and some financial constraints, they are 
feeling the impact of this.
    So that is one of the reasons there is an urgency to this. 
I mean, your refugee situation, if this just continues to slide 
downward, is going to get worse, and I also fear for the lives 
of minorities if this slides downward and gets worse. It is why 
a political solution-- 
I know some people say you are crazy, how can you work out 
something with Assad. Maybe you cannot, but you ought to keep 
trying even as you keep the pressure on.
    The important thing is that you try to get a transition one 
way or the other as rapidly as you can. And that is why 
accelerants to Assad's departure are being thought through and 
are being considered at this point. And that is why the 
President decided to raise the amount of nonlethal aid that he 
is currently providing.
    So I hope they will follow through on the pledges. We are 
talking to each of them. I actually met with His Highness 
Sheikh Mohammed Bin Zayed yesterday. This is very much on their 
minds. They are deeply concerned about Syria as is every member 
of the Gulf State community. So hopefully they will be 
forthcoming, and we are going to need to help Jordan in this 
struggle.
    Senator Boxer. Secretary, you recently returned from a trip 
to Asia amid intensifying threats from North Korea, and coming 
from California, I am sure you understand everyone has deep 
concerns, our State and the west coast particularly. I 
understand North Korea still faces significant challenges in 
developing a reliable missile capable of reaching the United 
States, but I know you can appreciate our angst.
    You said that the United States is willing to engage 
directly with North Korea as long as it takes steps to end its 
nuclear weapons program. What leverage does the United States 
have to pressure North Korea to sit back down at the 
negotiating table?
    Secretary Kerry. Well, that is precisely why I went at the 
request of the President. The President's policy is to try to 
change this dynamic, which has been just a round robin of 
disaster for the last 20 years. The framework agreement, you 
reach agreement, they go back on it. You reach agreement again, 
you give them some food aid, there is some sort of bait, 
nothing happens. It just has not been serious. And the problem 
with that is that now they are further down the road in terms 
of nuclearization, and it is more dangerous.
    So my conversation with all of the parties in the region 
was really very direct, and particularly honest and candid with 
the Chinese, and I am grateful. I want to thank the Chinese 
for, first of all, their reception for me, which was open and 
at the highest level, and very engaged, very serious 
conversations. And it is clear to me they are wrestling with 
their best approach. They are really thinking about this for a 
number of reasons. I think they view this as different now 
because it does involve the security of the United States, and 
the United States, through the President's decisions, has 
appropriately responded by deploying different assets to 
respond to a potential missile threat.
    So China sees a growing level of instability in the region, 
and the last thing they would want, I am convinced, is a war on 
their doorstep or a completely destabilized Korean Peninsula. 
The best way to avoid that, needless to say, is to move to 
change the dynamic. No country has as much leverage with North 
Korea as China. China provides most of their fuel supplies. 
China provides a huge amount of food aid. China supplies a lot 
of their banking facilitation. China supplies a lot of their 
trade. China has a huge ability here to have the major impact.
    Now, I do notice that since the visit yesterday, the Korean 
foreign office put out their terms of what would be required 
with respect to a negotiation. That is the first word of 
negotiation or thought of that we have heard from them since 
all of this has begun. So I am prepared to look at that as, you 
know, at least a beginning gambit, not acceptable obviously, 
and we have to go further.
    One thing we are not going to do is get into the, you know, 
here is a little food aid, here is a little of this, and then 
we will talk kind of, you know. We have got to make some 
fundamental determinations here, and we have made that crystal 
clear in our discussions with the Chinese. And I hope--I know 
that the Chinese are thinking about this very, very seriously 
as they always do, and now I think their interests are perhaps 
different than they were before.
    One of the calculations I know that has been in Kim Jong-
un's mind is that he can kind of do this and get away with it 
because he does not believe China will crack down on him. So 
that is a key consideration here, and hopefully that, in fact, 
will be proven to be not true.
    Senator Boxer. Thank you very much.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and, Mr. 
Secretary, again thank you for being here and for your 
presentation.
    Secretary Kerry. Oh, I am just being corrected here. I said 
something. It was not the Republic of Korea that put it out. It 
was the DPRK. I thought I was saying DPRK, but I just wanted 
the record to reflect correctly who put out what.
    Senator Boxer. Thank you.
    Senator Corker. Mr. Secretary, you know, when the conflict 
in Syria began, the administration put out a statement that 
Assad must go, but then not much has happened since from the 
standpoint of a coordinated strategy. And it would appear to me 
that the reason for that was that there was not really a 
national interest that was perceived there. There was a desire 
to be kind of involved and to act as if, you know, we were 
doing some things on the humanitarian front. But there really 
was not a clear national interest per the administration. I 
know this is all before your time.
    It seems like that the events have shaped into a very 
different kind of situation where the national interest that we 
have or might have thought we would have discussed in the very 
beginning is very different now. And what I mean by that is, it 
seems to me that the national interests that we have in Syria 
are that we do not want al-Qaeda or other extremists to control 
the country, and to be able to infect, if you will, countries 
nearby. And it seems to me that that now makes it a national 
interest.
    And I wonder if you might shed some light on your thoughts 
as it relates to this being very different. Obviously I do not 
think anybody here wants to see Assad stay, but at the same 
time, our national interest now is very different. I think our 
national interest now is not so much to focus on that, although 
we want that to change, but our national interest is to ensure 
that al-Qaeda does not end up with a foothold in this country 
with chemical weapons and have the ability to destabilize 
countries in the neighboring areas.
    Would you agree with that assessment?
    Secretary Kerry. Well, I certainly agree with the part that 
says that we do not want, you know, any extremist elements to 
be able to control the country. I think everybody accepts that. 
But I do not agree that we did not have a national interest at 
the beginning, which is why the administration said that Assad 
has to go. But our interest was different.
    You know, you can have a national interest. You can have a 
vital national interest. You can have a--I mean, there are 
gradations.
    Senator Corker. The gradation has increased.
    Secretary Kerry. Yes; they have.
    Senator Corker. OK.
    Secretary Kerry. You bet. They absolutely have. They have 
changed, and you are absolutely correct that they morphed 
during the process.
    But we had an interest in supporting the Syrian opposition 
and did. In fact, it was President Obama's leadership through 
Secretary Clinton that brought the original--you know, the 
Syrian opposition----
    Senator Corker. And I do not really care about all that. I 
mean, I just asked----
    Secretary Kerry. No, but I am just trying to----
    Senator Corker. What I would like to focus on if we could-- 

I mean, I will take your comments. That is fine. I do not want 
to spend 5 minutes talking about the past. What I would like to 
do is talk about the future.
    Secretary Kerry. OK.
    Senator Corker. And I would like to talk about the threat 
that al-Qaeda poses and whether there is any thought of trying 
to figure out a way that the more secular moderate opposition 
could team over time with the Alawite population and do 
something very different than what we see now taking place.
    Secretary Kerry. Senator Corker, you are hitting the nail 
on the head, and that is exactly what we are going to talk 
about in Istanbul, among other things. In fact, we are actively 
reaching out now to see if that base of the opposition could be 
broadened, and whether or not everybody can come together and 
agree on sort of the rules of the road, if you will, going 
forward. So my hope is that the dynamic could conceivably shift 
through that.
    You still have the difficulty of, you know, trying to 
change President Assad's calculation himself because he has got 
to be--he has got to get to a place where he is making the 
decision, whoops, this is not so good for me. If I hang around, 
it is curtains for the government or curtains for me 
personally, and I got to make--I have got to find an 
alternative. He is not there. Obviously he is not there.
    Senator Corker. How do you deal, though, with the fact that 
the more moderate secular groups that we would like to support 
in some way, and I know you are having discussions about the 
best way to make that happen, and I appreciate that. How do you 
deal with that knowing that the Alawites on the other end are 
worried about extermination, and at the same time, the more 
secular opposition groups that we want to support realize that 
if they are successful, their very next conflict is going to be 
with al-Qaeda. So how do you deal with that all simultaneously?
    Secretary Kerry. That is exactly what this meeting is 
about. The core group parties have come to the conclusion--I 
think now all of them with perhaps one exception, and we have 
to figure that out--that they are concerned about the growth of 
the extremist element, particularly when it aligned itself 
voluntarily the other day with 
al-Qaeda. That was a break point for a lot of them.
    And now they are determined to try to take steps, I 
believe, based on the conversations we have had, to try to 
isolate them and, in fact, make sure support is going through 
the Syrian opposition. So this is a potential moment of 
coalescence that we have been looking for, and people have 
wanted a clarity to how the aid is being delivered and to whom 
and so forth. Our hope is to be able to achieve that, and that 
is one of the purposes of the meeting.
    Senator Corker. And do you think there is a realistic way 
to cause the more secular groups to actually reach out and try 
to accommodate some kind of political reconciliation with the 
Alawite population, not Assad----
    Secretary Kerry. I know this----
    Senator Corker [continuing]. But the Alawite population 
that supports him?
    Secretary Kerry. I know this. I know that they will sign on 
to a document that will offer protective language, and 
inclusivity, and other things to the Alawite and to the others, 
to the Druze, to the Christians, to the Ismali, and others.
    Can I tell you to a certainty that--I think we have got to 
find a way to make sure that policy is implemented and adhered 
to. We need to. Everybody needs to reach out to Alawi to change 
the calculation, because you are right. They do believe they 
are fighting against extermination. And sectarian components of 
this, the sectarian overhang on this conflict, is very 
dangerous in that context, not just for the Alawi, but for 
other minorities in Syria. And that is why getting everybody to 
be very public and very clear and ready to adhere to the 
standards with respect to the rules of the road is going to be 
critical.
    Now, all I can do is tell you that we have got to have that 
meeting and see where people are really at, and what the 
enforcement mechanisms can be, and how strong an agreement it 
can be. And I cannot give you any guarantees until I am seeing 
sort of the flavor of that.
    Senator Corker. Mr. Secretary, I do appreciate what you 
have been doing since you have been in your position. And I, 
too, have visited the camps in both Turkey and Jordan, and I do 
believe that the folks that influence the secular groups on the 
ground are the ones that are going to determine the future. And 
I know you are looking at how that best can be done.
    I have also traveled through North Africa, Mali and Tunisia 
and Algeria, and I just do not think we have a very coordinated 
effort there. The budget request lays out a big sum of money, 
but not a real strategy. And I know that is of lesser import, 
if you will, with all the other urgent things that you have 
going on or of slightly lesser focus. But I do hope we will 
deal with that.
    And I want to thank you for your efforts with North Korea. 
I think that there is a real chance of nuclear proliferation if 
we do not deal with this issue, and I know you sense that as I 
did on the ground, both in South Korea and Japan. So anyway, 
thank you for your efforts.
    Secretary Kerry. No, thank you very much, Senator. And I 
need to work with you guys, with all of you, very, very much on 
what you just mentioned about the Maghreb and the Sahel. The 
President has directed me actually--it is on the menu, and we 
are putting together--what he wants is to analyze what the 
options are. And we are going to be putting those options. The 
President will need your input ahead of time, and then we will 
need your support hopefully when the President makes decisions 
about what we try to do.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman. 
Secretary Kerry, let me join in thanking you for your continued 
service. A very impressive start giving us all hope that we can 
make progress in areas that are extremely important to 
America's security.
    You mentioned several times that the international 
community looks to the United States as the best chance to 
resolve international conflicts. I just want to concur with 
Senator Corker's observations of the problems we have in the 
Syrian opposition. I have been to that region also. I have been 
to the camps. I have talked to the Syrian opposition. And it is 
young. It is yet to be fully tested. It is a very difficult 
area in which they are operating. The Assad regime still 
controls a great deal of military might, and it is still a very 
difficult circumstance.
    But we do know that the extremist groups that want to 
identify with al-Qaeda are strong. And I just would encourage 
you to be very aggressive, and as you said, not just the 
conversations, but how do we have accountability to make sure 
that the opposition groups that we are supporting in Syria 
isolate themselves from those extremists.
    You also mentioned as one of the ways the international 
community looks to America is for dignity, and I could not 
agree with you more, so I want to talk a little bit about the 
rebalancing to Asia. And I do want to point out, originally I 
was listening to our chairman talk about the additional funds. 
If I did the calculations correct, East Asia and the Pacific is 
one of the smaller parts of the pie of international diplomacy, 
and, yes, they did receive an increase, but that increase is 
smaller than Africa. And if you take Iraq out, I think the 
increase is smaller than the Near East. I would just point that 
out, but I do believe we have to put the resources up for East 
Asia and the Pacific.
    And we made some changes in military deployments in that 
region. We have joined the East Asia summit. Secretary Kerry, 
you mentioned the trade initiative, CPP. All that speaks to the 
economic and military side. I want to talk about the human 
dimension for one moment. I know you are not going to be 
surprised to hear me bring that subject up.
    In Europe, we focused on all of the areas important to the 
United States in 1975 when we established the Helsinki Accords. 
We did that recognizing that security in a region depends not 
only on military, but also on economic growth, as you pointed 
out, but also human rights and respect for human rights.
    We do not have any similar mechanism within the Asian 
community. ASEAN represents an opportunity. They are looking at 
human rights issues, but it is at the beginning stages, and it 
is not quite yet clear what the commitment is among the member 
countries, let alone the U.S. involvement here.
    So could you comment as to the priority you are placing on 
the development of basic rights, particularly in Asia as we 
rebalanced Asia, and whether there are some mechanisms that we 
can help you with in order to advance these causes?
    Secretary Kerry. Absolutely, Senator Cardin. And I would 
begin by thanking you for your unbelievable tenacity and 
continued focus on these issues. You are the Senate's champion 
on it, and I appreciate that.
    I gave a speech while I was in Japan in which I talked 
about sort of the Pacific dream, if you will, in response to 
the notion that we have an American dream and that the new 
President of China is now talking about a China dream, a 
Chinese dream.
    And so I wanted to hold out to them on behalf of the 
administration. You know, the President did the rebalance, and 
the President is super focused on Asia. And the reason is that 
he has a vision about what it can be and what our relationship 
with it can be. And so we talked about strong growth which 
relates to our security components, and we talked about smart 
growth, which relates to our, you know, technology and other 
things that we can do, and energy, and so forth, green growth. 
And also just growth. And just in the growth, I talked about 
rule of law and human rights, and how critical human rights 
are, talking about specific challenges and instances in the 
region. In all of my conversations with everybody, I raised, as 
I always have as a Senator and now as Secretary, the specific 
human rights concerns relative to the country. We talked about 
Tibet in China, and we also talked about individual cases of 
rights.
    And so ASEAN will continue to be, as it was in the last 4 
years--Secretary Clinton did this also. We are going to 
continue. It is a part of American foreign policy. It is one of 
the signature components of our policy, and it will continue to 
be.
    Senator Cardin. Well, I thank you for that. It seems to me 
we have to be very clear that for U.S. participation, as you 
point out, it so critically important to development of that 
region that there is an expectation that the countries will 
commit themselves to basic internationally recognized human 
rights, and the legitimacy of other countries to challenge 
their adherence to those standards, not by direct action, but 
by the conciliatory process patterned after the Helsinki 
process, which, as you know, is not a treaty. It is a consensus 
organization, and it has been very effective in putting a 
spotlight where countries need to make further progress. I 
would just urge you to do that.
    And last, let me say I strongly support the statements that 
you have made on development assistance. I could not agree with 
you more. I just want to underscore the point of Senator Boxer, 
and it has been very strong from other members of our 
committee, on gender issues, and to continue the incredible 
work that Secretary Clinton did in making it clear that gender 
equity issues must be--progress must be made for our continued 
cooperation and participation in development assistance in 
countries that have not made as much progress as they should.
    Thank you, Mr. Chairman.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, and thank you for your testimony.
    Let me talk about the budget for a minute. You know, prior 
to the Iraq and Afghanistan war, DOD had a small account, 
overseas contingent operations, or OCO account. As you know, 
since Iraq and Afghanistan, that has been plussed out 
significantly, and it has been taken offline or off budget.
    Now it looks as the State Department is going in this 
direction as well, and for the first time in fiscal year 2012, 
it is requesting OCO funding outside of the base budget. So 
when we hear figures about budget decreasing 6 percent or 
whatever, it is not always accurate because of the existence of 
these OCO funds outside.
    And it is a bit troubling if we want to see in all areas of 
government honest accounting. And I am not blaming you or 
anything else. We are seeing this in other areas of government. 
But how are we, who have to authorize funding or appropriate, 
how are we to do our job when we do not know, you know, what we 
are dealing with really in terms of where this funding is going 
to be spent?
    The concept of OCO is, you know, for contingency operations 
that we do not plan for. And initially, I think that was--it 
was true to that, but it is not anymore if we are still using 
OCO funding in defense in Iraq and Afghanistan. You know, this 
is 11 years in. And with regard to the State Department, I 
understand that some of these funds are being spent in Syria 
and Mali. That might apply for a year, but certainly not beyond 
that.
    What can you tell me about your efforts to try to make sure 
that we have accounting that we can actually rely on here as 
those who have to authorize and appropriate?
    Secretary Kerry. Well, Senator, that is an excellent 
question, and I think we are actually helping to improve the 
situation in this budget in the following ways.
    I mean, first of all, I agree with you. I mean, OCO became 
the Overseas Contingency Operation Fund because we had all 
these surprise numbers coming at us, and I guess it sort of 
became semisupplementary, if you will, in that respect.
    We recognize, needless to say, that that is changing now. 
Our OCO is down 65 percent. We are going in the right direction 
here. And overall, our budget represents a 6-percent decrease 
compared to fiscal year 2012, and the reason we compare it to 
2012 is we had a CR in 2013.
    But I will give you both comparisons. Our overall Function 
150 request for all of our agencies is $52.1 billion, including 
OCO. That is $2.4 billion, 4 percent less than 2012, and it is 
$3.2 billion, 6 percent less than the 2013 CR. So we are going 
down, and we have had to make a lot of different adjustments, 
different tradeoffs.
    We have had targeted reductions on a number of programs. We 
have taken advantage of cost efficiencies in some programs. We, 
you know, made some changes in reforms and the food aid program 
and so forth to create savings. We have deferred maintenance. 
We have deferred purchases. We have deferred hiring. We are now 
doing a one-for-two hiring. For each two slots, we only fill 
one. And we are living with sequester on top of that.
    So I assure you at an age where I am saying I could, you 
know, give you 10 reasons why we ought to be doing more in 50 
places, we are going down.
    Senator Flake. Right.
    Secretary Kerry. I might also add, the Congress decided 3 
years ago in response to what had been a long period of 
downward trend within the foreign assistance budget and a shift 
to the Defense Department, and you remember Bob Gates' speech. 
Bob Gates said we have got to stop this. Too much coming over 
here to the Defense Department. We have got to get it back to 
the State Department.
    And so there was a conscious decision in the Congress, and 
we plussed up. We had a target of increasing the State 
Department budget by 25 percent under Secretary Clinton and 
President Obama in the first term. That got up to a 17-percent 
level, folks, then it stopped. Now we are going down. So we 
will never reach, at least on the current track, the 25 percent 
that we committed to in the Congress a few years ago.
    I am sad to see that, and I am going to come to you maybe 
later, depending on the decisions the President makes, and see 
if we cannot reverse that.
    Senator Flake. If I might ask just specifically with regard 
to Syria and Mali, will these in the future years--right now 
some of that is coming out of OCO. Is that going to come out of 
the base budget or OCO?
    Secretary Kerry. Well, if the base budget can handle it. I 
am not going to come to you--I will tell you right up front, I 
am not going to gut the State Department and come up here 
because we have some new emergency contingency that has arisen 
in terms of national security. And I think it is critical for 
this committee and the Approps Committee to fight for, you 
know, a reasonableness with respect to American security 
policy.
    Senator Flake. I agree. I am just talking about in future 
years.
    Secretary Kerry. But the short answer is, it is most likely 
going to be in the form of something like an OCO or 
supplementary because we do not yet know the full measure of 
what it is going to be. We have got to put together what is the 
most rational approach. What will our allies do? We just do not 
know what kind of number to give you at this point. The 
President has not yet made a decision about exactly what 
strategy he will implement. He wants the options for putting 
them together.
    Senator Flake. Thank you.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. Mr. Chair, before I 
begin, this is the first chance I have had to be with you 
publicly, and Senator Rubio, and Senator Flake, at least a 
working crew of the Group of Eight just to congratulate you on 
the work that you have done on immigration reform. This is an 
important part of the face that we turn to the world, and it 
bears on foreign relations matters. And I just wanted to 
congratulate all of you for your work and tell you how excited 
I am to have a chance to work on it with you as we get down the 
road.
    Mr. Secretary, welcome. You honored me by having me 
introduce you at the University of Virginia, and I love that 
your first speech was there. And if Americans would read the 
comments you made that day about international development; you 
put the case about as well as it can be made. The value of that 
one cent on the dollar and how it produces actual tangible 
dollar value as well as good will. You did such a good job, and 
I know you will continue to carry that message.
    One other comment before questions. I just associate myself 
with comments that Senator Corker has made and that you have 
made as well on Syria. I just really believe that the more work 
that can be done diplomatically to have the opposition be more 
inclusive of the Alawite minority, a powerful minority, the 
quicker we will hasten Assad's exit, the harder we will make it 
for Assad to paint this as a United States-Russia proxy war. 
The right thing we will do by human rights, and Alawite 
involvement in the opposition will also dilute jihadist 
elements. So there is a lot of things that rest on that 
particular diplomatic effort, and I am going to say prayers for 
you in those meetings.
    I asked you at your confirmation hearing about Mideast 
peace and the relationship between Israel and Palestine. We 
want a safe Jewish state of Israel, and we want it living side 
by side with a Palestine that will respect its sovereignty, and 
that has been United States policy. My concern has been we have 
stated it as a policy without really trying to do what we need 
to make it, in fact, happen. And it is difficult. And you gave 
me a diplomatic answer, which was appropriate, but also one 
that made me feel good about the fact that you recognize that 
as a huge priority. And I know that you have been doing work on 
that.
    So without, you know, going into things you should not, 
could you talk a little bit about that?
    Secretary Kerry. Well, thank you, Senator Kaine. Thanks for 
your comments also, and I appreciate your support and 
friendship.
    To me, one of the greatest--obviously I think to 
everybody--one of the greatest foreign policy challenges there 
is is this Middle East peace process, and we have had how many 
Presidents, and how many Secretaries of State, and how many 
Congresses have tried 
to advance the cause of peace in the Middle East, and tried to, 

you know, work through various negotiations--Oslo, Madrid, Wye 
Plantation, Annapolis. You know, you can run the list of them--
Camp David.
    And we are now at a point where in my judgment, because of 
demographics, because of settlements, because of perceptions, 
because of the Middle East, because of a whole bunch of things, 
a lot of people are questioning, you know, because of Hamas 
rockets, I mean, you can run the list. I am not pointing 
fingers in any direction. I am just saying there is a 
complicated mosaic that presents an enormous challenge.
    But time is running out on two states because of those 
things. And I am convinced that is the only way to have peace, 
the only way. So we have an urgent need to try to meet here, 
and the greatest challenge obviously, and they are both 
legitimate concerns, is how do you provide security for Israel? 
How do you work with Israel so Israel has its own security is a 
better way to phrase it. Israel needs to know that is not 
turning the West Bank into Gaza, that it is secure. That is a 
very legitimate concern. I accept that.
    At the same time, the Palestinians need to know that they 
will have a legitimate state that is contiguous, viable, and 
based on, in their judgment, the 67 lines plus swaps, which is 
also our judgment and the judgment of the international 
community. So we have to try to find a way to get everybody 
over years of mistrust that is built up by failure, by 
problems, by actions, and that is the goal.
    I do not want to say much more than that, except to say 
that Prime Minister Netanyahu has really been terrific, and up 
front, and very open, and engaged in trying to figure out how 
we might be able to get to real talks. And likewise President 
Abbas has accepted responsibility for a period of time 
certainly not to go to the United Nations, not to try to see if 
we can find this mutual way forward. And we all have some 
homework to do. We are doing our homework, and that is about as 
much as I would sort of want to lay out, except to say to you 
that we are going to need everybody's support and help in this 
to try to create the conditions.
    I do not think it is going to happen in some grand, you 
know, public negotiating scene, but I think it is going to have 
to be steady, quiet, patient, but nevertheless fairly rapid 
work because of the timeframes that are hanging over all of us.
    Senator Kaine. One last issue. The fiscal year 2014 budget 
proposal reduces the Western Hemisphere by about 14 percent 
overall. There are some pluses and minuses. So it looks like 
Mexico and Colombia are taking cuts, and the CARSI, Central 
America Regional Security Initiative, is plussed up 20 percent 
because of the security concerns there. I would just like you 
to comment for a second about the budget and the Americas.
    Secretary Kerry. There are some plusses and minuses, you 
are absolutely correct. And it is really readjustments I think 
more than anything to some success stories. We have worked very 
closely with President Pena Nieto, and he and the President 
have sort of agreed that the redirection of the Marita 
Initiative to greater training emphasis over purchasing of 
equipment. We have been purchasing equipment. There is a lot of 
equipment there. What we need now are trained police officers 
and trained law enforcement officers, and judges, and so forth. 
So there is a reemphasis, and it is really a reflection of 
that. It is not a diminution of effort or focus on the region, 
but a kind of how do you adjust and, you know, perhaps save, 
but do some things better, more efficiently.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman. Welcome, Secretary. 
Thank you for being here with us.
    As you know, I have been a supporter of foreign aid just as 
a way to further the national interests of the United States 
throughout the world. I read with interest your comments in 
front of the House committee yesterday, regarding your 
frustration over the billion dollars in debt relief to Egypt 
that has been held up by congressional action. And I wanted to 
probe that a little bit.
    Let me pose to you the dilemma. I think people read about 
things that are happening in Egypt, and in particular things 
that are happening with the Egyptian Government, and are 
wondering why the United States continues to send aid.
    There is an article from I think a month ago where an 
Egyptian cleric says that American aid is basically a mandatory 
tax. ``The taxpayer aid consists of a poll tax that Americans 
must pay to placate the Muslim Brotherhood,'' according to 
Khalid Saad, a cleric who serves as the official spokesperson 
for the country's Salafi front. ``They pay that so we will let 
them,'' he said in an interview.
    Now, I know he does not speak officially for the 
government, but I think a lot of people have come to suspect 
that that sort of sentiment is widespread in the country among 
the Islamist leadership.
    So here is the question that I have. First of all, I would 
like you to kind of delve into the difference between the 
Egyptian military and the Egyptian Government because that is 
two different types of aid and two different types of 
institutions we are dealing with. And second, exactly what is 
our strategic plan with regards to aid to Egypt? And in that 
light, I would just say what I am most concerned about is that 
we are not repeating errors of the past where we have valued 
stability or strategic interests at the expense of some of the 
democratic principles in the region.
    So if you could help me explain to my constituents what is 
our plan and how we intend to use foreign aid to not just bring 
Egypt along toward a more democratic process, but one, for 
example, that respects religious minorities. We are outraged at 
what we are seeing happening with the Christians in particular 
in Egypt and a government that quite frankly that has not 
responded. In fact, there has been reports that the government 
has actually participated, or at least the military has 
participated, or the police, in some of these attacks.
    So what is our strategic goal with regards to foreign aid 
in terms of moving Egypt in the direction we think is in our 
national interest as well as in the interest of democracy? And 
second to that, if you could explain the distinction between 
aid to the military and aid to the government, which I believe 
there is a distinction. It might be helpful if you outline 
that.
    Secretary Kerry. Well, Senator Rubio, thank you. I 
appreciate the question, and it is an appropriate one. And I 
will not only answer you, but I will answer that fellow who 
thinks that we are placating the Brotherhood.
    We have been very clear with the Brotherhood, and had very 
direct conversations with President Morsi and others about the 
need for inclusivity, the need for recognition of the 
opposition. We have urged them, in fact, to try to reach out to 
the opposition and bring them into a greater degree to the 
governance.
    I would express here today concerns about the direction 
that they appear to be leaning, which is not, in fact, to be 
that inclusive, and rather to consolidate and to leave people 
out. That is of great concern to us, which is why on the $1 
billion of aid that the President promised, we have only, in 
fact, delivered $190, which I released when I was there in 
those conversations with them as a sign of good faith based on 
the need to try to proceed forward.
    But any further aid we said very clearly is going to be 
conditioned on progress on a number of things. One, on the IMF. 
If economic reforms are not put in place, if they do not 
restore credibility to the political process, if they do not 
pacify the streets to some degree so that they can begin to 
attract tourists and get businesses working again, if they do 
not give confidence to the diaspora that they can, in fact, 
return and invest in Egypt without witch hunts, or trials, or 
confiscation, or other kinds of problems, I do not know how 
Egypt is going to, you know, rebound. And I think the politics 
could be very, very difficult absent a shift here that becomes 
more inclusive, more democratic, more respectful of the 
opposition and so forth.
    Now, the army--the military has been quite separate from 
that. I think the military has been the best investment that 
America has made in years in that region for a lot of reasons, 
keeping the peace with Israel. It is enforcing security in the 
Sinai. It helped to negotiate, broker, and, in fact, enforce 
the Gaza peace now. If you ask Israel, they will tell you, our 
Israeli friends, that the day-to-day intel mill partnership 
that is so essential to security and to enforcement of the 
Sinai and other things, is being carried out on a day-to-day 
basis not in government to government, but in military to mill 
and intel to intel. And that is very important to us. So there 
is a clear distinction here.
    The military I believe, you know, in a significant way was 
responsible for holding Egypt together at a critical moment, 
and many of those officers who were on those tanks or 
commanding those battalions that were out trying to keep the 
country calm responded thoughtfully because they had trained 
here in the United States, had relationships with people here. 
They were in touch--we were in touch with them at the lower 
officer level. There was a great deal of communication. And 
they had a different ethic. They had a different standard. They 
knew they needed to try to be responsible.
    I met with Field Marshal Tantawi at least three, four, five 
times in the interval between the SCAF taking responsibility 
for governing the country and then running the election, and 
they did exactly what they promised. They set up the machinery 
for an election. They enforced that process for the country. 
The country had an election, and the Brotherhood won--a 
Brotherhood that had organized for 80 years and was waiting, 
you know, in the wings that did not have much to do with the 
bringing of the revolution. The revolution was young kids 
looking for a different world and a different future. It was a 
generational revolution, not an Islamic one. But when you had 
the election, the results brought what we have.
    So now we are in a different stage where we are trying to 
move the government in one direction and keep our relationship 
with the military, which is meeting other interests in another 
direction. And that is pretty much how I describe the 
differential.
    The Chairman. Thank you. Senator Coons.
    Senator Coons. Thank you, Chairman Menendez. Welcome, 
Secretary Kerry. It is tremendous to have you back. I have been 
impressed in the brief time you have been serving as Secretary 
with your vigorous and engaged diplomacy. Not at all surprised. 
The time that we served together in this committee, I had the 
pleasure of working with you on a whole range of demanding and 
pressing issues from Syria, to Egypt, to Pakistan and 
Afghanistan, and, of course, a whole range of issues across the 
continent of Africa.
    I just want to associate myself with remarks made by 
Senators of both parties about the level of my concern about 
Syria as well as Iran, and my compliments to your early work on 
trying to achieve some progress and peace in the Middle East 
while respecting the vitality and centrality of our 
relationship with Israel.
    If I might as the Africa Subcommittee chair, I just wanted 
to briefly mention a wide range of issues on the continent that 
I would love to work with you and where generally I am quite 
pleased with the budget status of a variety of different 
investments we are making. I am pleased with your advocacy for 
an ongoing effort by the Obama administration to invest in the 
three pillars of diplomacy, development, and defense, and to 
make sure that we have a balanced and responsible engagement.
    I recently released a report on the promises of United 
States-Africa trade. I would love to work with you more 
closely. Senators Durbin and Boozman and I have introduced a 
bill to try and significantly improve United States-Africa 
trade cooperation. After peaceful elections in Kenya, we face 
real challenges in balancing accountability to the ICC with a 
critical, strategic partnership. I just held a hearing on the 
Democratic Republic of the Congo, and I look forward to working 
with you on the appointment of a special envoy, which I think 
is absolutely essential.
    I was pleased with your opening comments about both Kenya 
and Mali and the recognition we have to have a balanced 
approach in Mali, and look forward to continuing to work with 
you on conservation issues and trying to fight poaching in the 
same way that I think terrorism in Mali was, in part, financed 
by kidnapping terrorism, and instability in other parts of the 
continent are financed, in part, by poaching.
    Let me focus on three areas I wanted to ask questions on. I 
was very pleased with proposals to streamline aid and to find 
efficiencies first in food aid on PL 480. These are some bold, 
challenging changes that have long been urged by aid 
professionals. I respect the fact that it continues to have a 
floor of 55 percent for U.S. commodity producers and 
transporters, and look forward to working with you on trying to 
ensure progress on food aid reform.
    In the area of PEPFAR, which is a very significant portion 
of United States budget toward Africa, how will we work 
together to ensure that the stove piping of PEPFAR funds that 
dominated some of the early years of the program is reduced and 
to make real progress in terms of streamlining and improving 
our partnership? I recently visited South Africa, was very 
encouraged with the transition being made there, and look 
forward to working with you. But I would be interested in 
hearing your vision for how with PEPFAR going forward, we will 
achieve greater impact at lower cost through reducing overlap.
    Secretary Kerry. Well, Senator, first of all, let me begin 
by honestly thanking you for your unbelievable focus on Africa, 
and the contributions that you have made to a lot of those 
discussions going forward.
    With respect to PEPFAR, you know, it is really our greatest 
success story in that we are--one of our greatest success 
stories. What we have been able to accomplish, we are really 
looking now at the potential of an AIDS-free generation. And we 
are looking at, you know, 60 percent of the carriers are women, 
as you know, I think. And so if we can prevent children from 
starting with it, we are saving enormous amounts of money.
    So that is really I think the principle focus is on this, 
you know, mother to child pass down, and we have become far 
more efficient in the way in which we are able to reach people, 
get out. And that means we are not just talking about a round 
robin where the costs are going to keep going up or you just 
have a population that keeps going up. You are actually moving 
toward elimination for the next generation.
    The President originally, you know, there was a lot of--
this was hard fought for, and, I mean, we really pushed hard, 
and I am grateful to President Obama for listening carefully to 
the arguments about this moment and why it was so important to 
keep the funding at a full funding level. I do not know if that 
is entirely answering your question. If there is another----
    Senator Coons. I look forward to continuing to work with 
you to advocate for robust funding for PEPFAR, let me not be 
misunderstood. But I think there are ways to achieve 
efficiency. And in the same way that I look forward to 
continuing to advocate for food aid, I think we can make that 
case as long as we are also continuing to find ways to deliver 
that aid.
    Secretary Kerry. Well, I would be----
    Senator Coons. Let me move to one other question if I 
could.
    Secretary Kerry. Yes, sure.
    Senator Coons. President Mahmoud Ahmadinejad is visiting 
three west African countries, I think, Benin, Ghana, and Niger, 
just this week. I am very concerned about the sort of charm 
offensive the Iranians are leading in Africa. I am very 
concerned about the Chinese dominance of the continent. Senior 
Chinese leaders have made many visits to the continent.
    I would welcome your personal engagement in leading our 
engagement with Africa and wonder what, if any, plans you have 
to work with us to blunt or press back on Iran's seeking access 
to natural resources, to diplomatic support, and to potential 
allies on the continent, which I view as a very negative 
development.
    Secretary Kerry. Well, I think that is a negative 
development, Senator. You are absolutely correct. And you are 
correct also-- 
I mean, on China. China is now out-investing the United States 
significantly in Africa. Now, China is principally focused on 
resources--minerals, so forth--and that does not necessarily 
compete with us. But I will say that between Iran, China, other 
countries, they are having an impact on the business practices 
and on the choices that, you know, some of the leaders and some 
of the governments there are facing. And it has not been a 
positive one in some regards.
    In addition, a lot of different folks in the region--I am 
not going to name the names here and now--are engaged in bad 
business practices, in bribery, in, you know, support for the 
wrong people. And that is having a negative impact on the 
stability of some governments. So we are going to have to be 
more engaged in Africa. We will have a special envoy for the 
DRC. We will have a special envoy for the Sudan. Princeton 
Lyman just retired about 5 weeks ago now. We are racing to try 
to get people in these places, and we will have them. But you 
are absolutely correct to be focused on this.
    I think that something like--I think it is 6 of the 12 to 
15 fastest-growing or 10 of the fastest 15 growing countries in 
the world----
    Senator Coons. Seven to 10, yes.
    Secretary Kerry [continuing]. Are in Africa.
    Senator Coons. Correct.
    Secretary Kerry. And we need to be cognizant of the long-
term implications of that with respect to resources, trade, 
governance, and other issues. So I look forward to working with 
you on that.
    Senator Coons. Thank you very much.
    Secretary Kerry. Mr. Chairman, I need to mention something. 
Also I am going to be at the 50th anniversary in Ethiopia in 
May.
    The Chairman. Wonderful.
    Secretary Kerry. And there are some other engagements that 
we are looking at with respect to sort of trying to be front 
and present.
    Mr. President--Mr. Chairman, I--you know, maybe it is the 
confusion--not the confusion, but it is the emotion of actually 
getting to the point where I praise the New York Yankees in a 
tribute to Boston. And I am not used to giving the evil empire 
credit for something. [Laughter.]
    Secretary Kerry. But with my head and heart in Boston----
    The Chairman. Which evil empire are you referring to? 
[Laughter.]
    Secretary Kerry. With my head and heart in Boston, I think 
I said ``Sweet Adeline,'' which is Ted Kennedy's grandfather, 
Honey Fitz's favorite song, and I meant ``Sweet Caroline.'' And 
I want to make sure everybody knows that I can sing ``Sweet 
Caroline,'' but I ain't singing it here for you now, but----
    [Laughter.]
    Secretary Kerry [continuing]. Just my head was whatever, 
jumbled up.
    The Chairman. That we will leave for some benefit 
fundraiser.
    Secretary Kerry. I will spare you a rendition, but it is 
pretty good. [Laughter.]
    The Chairman. All right.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Welcome, 
Mr. Secretary.
    Secretary Kerry. Thank you.
    Senator Murphy. And our hearts are with you and your 
friends in Boston this week.
    We are about 3 or 4 years since the administration's reset 
on our policy toward Russia, and so it is probably a good time 
to have a conversation about where we are and whether that 
reset has gotten us what we wanted to get. Senator Johnson and 
I have the new responsibility of overseeing the subcommittee 
here, which has jurisdiction over Russia. And so I wanted to 
just spend my few minutes getting your thoughts on a couple of 
issues related to recent developments in Russia.
    First, developments regarding the state of Russian civil 
society. We clearly were very upset to see our USAID workers 
leave that country. They are not alone. Many of the NGO workers 
have been either subtly or not so subtly moved out of that 
country in recent months. And of course, that corresponds with 
a much larger degradation of civil society.
    And so I wanted to get your thoughts on two issues. One, 
what is the administration's role in trying to promote civil 
society in Russia? And two, what is Congress' role, because 
historically during the cold war when the administration here 
in the United States had to have an ongoing dialogue with the 
Soviets. It was Congress that often provided the link to 
Russian civil society, a link that maybe has atrophied over the 
years as we did not necessarily think that it was as important 
given the reforms happening there.
    So I guess my question is, one, the role of the 
administration, your role in trying to promote civil society. 
And then, you know, some advice as to what Congress' role can 
be in complement or in contrast to the administration's role on 
trying to provide linkages with civil society there.
    Secretary Kerry. Well, Senator, thank you. Very thoughtful 
question, and I will try to answer it as directly as I can.
    We have a role, obviously, and so do you, and it varies at 
different points in time. I mean, whether it was Jackson-Vanik 
or whether it was, you know, Jewish immigration, you know, 
Soviet jury issue. There have been constant efforts by the 
Congress and by administrations to have an impact on civil 
society not just in Russia, but everywhere. That is American 
DNA. I mean, that is who we are. That is part of our foreign 
policy is to try to fight for human rights, freedom, democracy, 
the ability of people to choose for themselves, not just, you 
know, because it works. It is in our interest, and we think 
that those people do better, feel better, live better lives, 
have better choices. And those societies are less prone to 
engage in war and conflict and oppression.
    And so there are any number of reasons why we have a 
responsibility to always press for the growth of civil society. 
We try to work it as effectively as we can in ways that, you 
know, are as respectful as you can be under difficult 
circumstances of the sovereignty of a country that you are 
dealing with. I mean, it depends on which country it is and 
what issues there are as to how responsive people are going to 
be or what kind of gradations of opposition you have to those 
kinds of efforts.
    So we do it. Lech Walesa jumps over a fence and becomes the 
leader of a labor movement and ultimately the President of a 
country because he used to listen, among other things, not the 
only reason, but he was inspired by, you know, Voice of 
America, listening to us, and freedom, as were many other 
people who found their hope in that. We encourage things 
through that.
    It sometimes costs us, and right now we are going through a 
period of time in our relationship with Russia where it has 
unfortunately been less productive than we would like it to be. 
I would like to see us get back on track, and obviously our 
NGOs are going through a tough period with the law that is 
there. But they would say to us, well, we are going through a 
tough period with the law that you passed, and you are 
interfering with us, and so forth. So you get into this back 
and forth.
    Frankly, to the credit of the reset that President Obama 
engaged in and to the credit of Russia and the choices they 
have made, on the big ticket items, we have continued to make 
progress, and Russia has actually been a partner with us. A lot 
of people have lost sight of that in the fight over adoption 
and the fight over the Magnitsky and so forth. But the fact is, 
on Afghanistan, Russia has been enormously helpful with respect 
to the northern supply route and helping us. With respect to 
WTO, Russia has been helpful, and came on board, and met the 
standards with respect to the START Agreement. Russia did its 
part and has kept that agreement, and we are working with them 
now on the dialogue to go to the next step with that.
    On Iran and North Korea, two issues of vital national 
security interest to the United States, Russia has been 
supportive. Russia is there on the resolution and supportive of 
the sanctions, and Russia has been supportive on the DPRK.
    So we have to put this in perspective, even as we continue 
to keep faith with our values and our beliefs about, you know, 
how we want to reach out to citizens in other countries.
    Senator Murphy. Mr. Secretary, my simple hope is that--I 
just hope as a tradeoff for this cooperation that we are 
getting in places that we may not have gotten before that we do 
not take the foot off the pedal in terms of trying to promote 
civil society there. I think we have a role as well, a role 
that sometimes can go further than the administration's role. 
But given that cooperation, I hope ultimately it does not 
present any disincentive for us to do the things we have 
historically done to stand up for the Russian people who need a 
friend now more than ever.
    The Chairman. Thank you.
    Senator Paul.
    Senator Paul. Thank you, Secretary Kerry, for coming today.
    You mentioned in your remarks that we do not need 
politicians to go home and say we need to end foreign aid and 
we need to spend some of that money at home. Well, this might 
come as news to one of the most prominent politicians in our 
country who said in his reelection campaign that we need to 
less nation-building abroad and more nation-building at home. 
And that would be your current boss, the President of the 
United States.
    So I do not think this is unique to Republicans or 
Democrats. In fact, it crosses all party lines. It is not me 
going home and creating an atmosphere where people are doubtful 
of foreign aid. It is that 80 to 90 percent of the people are 
doubtful. We have two bridges in my State that are over 50 
years old. The President came and I flew down with him to talk 
about rebuilding them. I am in favor of replacing bridges and 
rebuilding our infrastructure.
    But at the same time, we seem to not have enough money to 
keep the doors open around here, not enough money to keep the 
touring of the White House open. This administration sent an 
extra $250 million to Egypt. Many of us find that offensive. We 
cannot even run the basic functions of government, and yet we 
send an extra $250 million in addition to the $2 billion we 
already send over there. So many of us are offended by this.
    The question I have for you is, the Mubarak family is said 
to be worth more than $10 billion. Most people say that a lot 
of that money came from our foreign aid. Mobutu ruled for many, 
many years in Central Africa. He was said to be worth millions 
upon millions, if not billions, of dollars. His wife was called 
Gucci Mobutu. She was famous for going to Paris and shopping 
for shoes with a Louis Vuitton bag full of $500,000 in cash to 
a million dollars in cash. That money was looted from the 
American treasury.
    There are all kinds of examples of theft and kleptocracy. 
There are examples of our foreign aid being used to buy tear 
gas in Egypt to spray on the Egyptian people. So I do not think 
it even buys the good will of the people because often it is 
stolen by their leaders who are unpopular in their country. So 
I think it is often counterproductive.
    But I think we are missing the boat here if you think that 
we are stoking the fires and that the people do not already 
believe this. This is something that is already in the psyche 
of the people. People are upset about it, would rather spend 
money at home. But I would like your comments on the 
President's position, but also on the idea that a lot of 
foreign aid has been stolen by these leaders.
    Secretary Kerry. Well, Senator, I think there is a 
difference between, you know, some of the nation-building that 
we have seen sometimes engaged in and good foreign aid programs 
that do not rise to the level necessarily of nation-building. 
But that is a quibbling probably, and we will wind up arguing 
about the smaller issue rather than the larger one here. So let 
me try to frame it this way.
    Has some money been stolen? Absolutely. But by the largest 
measure possible today because of reforms that have been put in 
place because of new accountability systems, because of the way 
aid is given now, because of something like the Millennium 
Challenge Corporation's standards that are applied to 
investment and other kinds of things, the money, a lot of it 
does not go to governments anymore directly. It goes into 
either the investment or into the project, and it is quite 
controlled. And that is one of the reforms that has been put 
into place.
    And we often have a fight about that with some countries. 
For instance, Pakistan pushed very, very hard to say, no, we 
want it directly to the government, and we said, no, we are 
going to do it this way to the project and so forth in order to 
have the kind of accountability that you are talking about that 
we need.
    So historically, yes. But, you know, some of the riches of 
people who have ripped off their own governments have not 
necessarily come from our aid. They have come from stealing 
from the revenues of their oil, or selling the diamonds and the 
rubies that they have in their resource rich, you know, mines. 
And there are plenty of ways that people have enriched 
themselves in some countries to the adversity of their people.
    That is something we fight. I mean, that is also part of 
what our foreign policy and investments try to change is 
installing rule of law, is trying to help with the justice 
system, create accountability for those things.
    Senator Paul. But nevertheless, we kept sending money to 
Mobutu for years and Mubarak for years despite evidence that 
they were stealing it.
    Secretary Kerry. I did not make that decision, and I will 
certainly review any program that we are engaged in now. And if 
you have any information on something we are doing now that 
somebody is stealing, let me know immediately.
    But let me just come back to one thing about this. You 
know, all of this that we do, Senator Paul, is one penny on the 
dollar. And if you look--I mean, I can go through a long list 
of things that we invest that provide a return on our 
investment. I will give you an example. We have stopped 
countless plots against our country, which had the FBI not 
cooperated and had the CIA and other entities not been creating 
some of the programs we had, and had we not worked with the 
justice systems, and had Interpol and the other things that we 
worked with, we never would have done. Americans would have 
died, and they would have been blown up. And but for the 
discovery of the Christmas bomber or the other people, which 
came through these kinds of efforts, we made our country safer.
    So I have to tell you, for the penny on the dollar, I will 
still make this argument anywhere, even though, yes, 
occasionally something gets abused, just as it gets abused in 
some parts of almost every government.
    Senator Paul. One quick question. Yesterday the Chairman of 
the Joint Chiefs of Staff, Gen. Martin Dempsey, stated that he 
was no longer sure that the United States could clearly 
identify the right people in Syria. I am quite concerned with 
this and quite concerned about arming elements of radical jihad 
that ultimately will come back to be our enemies or enemies of 
Israel.
    My question is, is that--you know, there is a million 
Christians in Syria. I do not think they have quite decided 
which side they are on. Two hundred and fifty thousand of those 
Christians came from Iraq because they were not too happy with 
the government that has been installed in Iraq after we win the 
war.
    So the question is, you know, you win the war and radical 
Islam takes over in Syria, or you give weapons to these groups. 
You have your own Joint Chiefs of Staff saying he is not sure 
he knows who the right guys are and who to arm. I really think 
we ought to be careful about getting involved in this civil 
war.
    Secretary Kerry. Well, Senator, your warning is a 
legitimate one, and we are being careful, which is why the 
President has not yet decided whether or not--which is why the 
President has not given lethal aid. He has given nonlethal aid. 
But the President is correct, I believe, in his determination 
that President Assad can no longer represent the people of that 
country, and that Syrian opposition is the broad-based 
international entity that is representative of the real 
aspirations of the Syrian people.
    Now, that is a different determination from actually 
deciding you can protect who is getting what. I have had 
conversations with General Dempsey obviously, and I read his 
quote, and I saw what he said. I think he really said we are 
not certain we can do that yet, but we have to make certain or 
we have to be sure. And that is exactly what we do have to do, 
and that is exactly what we are engaged in. That is why I have 
this meeting that I am going to be in Istanbul on the weekend. 
And a lot of discussion is taking place to be certain of that 
determination.
    I think what he is really saying is be sure before you make 
the decision, and he is right, and that is what we are trying 
to do.
    The Chairman. Thank you. We have a little time left with 
the Secretary, and so we are not going to get through a full 
round of questions. But to the extent that the Secretary has 
been gracious with his time, maybe there will be a couple of 
opportunities here.
    Let me focus a bit for the moment on a place that does not 
get a lot of attention, but that certainly is in the national 
interests and security of the United States. Senator Kaine 
raised it as the chairman of the Western Hemisphere 
Subcommittee, something that I had the privilege of chairing 
before I had the privilege of chairing the full committee, and 
I still have a great passion for.
    And this decrease in the Western Hemisphere levels, this 
has now been a historic reality. And I understand that we have 
in the case of Mexico, your response, Mr. Secretary, and even 
in Colombia a different dynamic. But we have underfunded a 
whole host of other initiatives in the Western Hemisphere in 
our interests.
    And many of the things that we debate in the Congress stem 
from issues within the hemisphere. If you in part want to stem 
the tide of undocumented immigration, you want to make sure 
that people have stability and economic opportunity in their 
native country. They will not flee.
    And so the reality is our lack of moving toward economic 
development creates a push factor. And in addition to that, if 
we have significant narcotics issues throughout the hemisphere 
that still are challenging, particularly growing in the Central 
America and Caribbean region. Our lack, to some degree, of 
investment and engagement in the hemisphere. You talk about 
Iran and Africa. Iran has spent a lot of time in the Western 
Hemisphere. China is spending a lot of time and resources in 
the Western Hemisphere.
    And you find yourselves that in the lack of creating--in 
the process of not having being pushed to Afghanistan and 
Pakistan, Iran, North Korea, the Middle East, that we create a 
vacuum in our own hemisphere, and that vacuum is filled by 
people like Past President Chavez of Venezuela, Edward Morales, 
and a whole host of individuals within the hemisphere who have 
a much different set of values and priorities than we do. You 
have biodiversity issues that are enormous, carbon sink issues 
that are enormous, a thing I know that you have been passionate 
about.
    So while we are facing these challenges, when you have 
instability in the hemisphere, the markets, we have the 
greatest--American products and services are deeply loved 
within the hemisphere. But by the same token, instability and 
lack of economic development creates challenges there.
    So I hope in the midst of all of these global challenges 
that we will look at the Western Hemisphere much more intently 
than we have in the past. And specifically, there is a pressing 
issue which is Venezuela. I applaud the Venezuelan people for 
coming out in significant numbers. I would like to see 
Americans vote at 79 percent of those eligible to vote to come 
out. But that election is so close that for the people of 
Venezuela to have faith in its outcome. I personally believe 
there needs to be an audit.
    So I would like to hear it from you--I think, if I am not 
mistaken, I heard a statement from you that might coincide with 
that. What is our pathway forward in terms of promoting an 
opportunity to ensure that the people of Venezuela's rights are 
preserved? And, of course, working with our OAS partners in 
that regard.
    Secretary Kerry. Well, Mr. Chairman, first of all, thank 
you for making an eloquent argument about the need for a plus-
up in the investment in the Western Hemisphere. And I do not 
disagree with you. I said we have to make tough choices about 
tradeoffs in this budget, and obviously ours is a first cut. 
You get the second, and third, and final cut frankly. And I 
would like to work with you to figure out sort of, you know, if 
there are adjustments or ways that we can do this more 
effectively; we are open to thinking about that.
    I do not disagree with you about the need to change the 
dynamic in the Western Hemisphere. It has too often been viewed 
as a second thought. It should not be. It is our backyard 
neighborhood, as you say. I think there are relationships that 
we could improve frankly in the region that do not have to 
necessarily go down a track where they have been.
    I would leave the hopeful door open that maybe something 
can turn with respect to Venezuela, but right now it is 
obviously not in a great place. I do support the notion that 
there should be--the administration supports accountability for 
this election, and believes that it would be better to have 
that audit and to have the recount so that the people of 
Venezuela are in a such closely divided election, which is so 
important, have confidence that they enough legitimacy that is 
necessary in the government going forward.
    Now, as you know, we have to work with what we have to work 
with. My hope is that doors will not get shut in automatic by 
anybody to start off this next government, whatever happens in 
the days ahead. But our position is that that audit would be an 
important first ingredient to providing confidence to the 
entire community of nations that care about this outcome, that 
it has been fairly arrived at.
    The Chairman. And then very briefly, more a comment than a 
question. I believe that we hopefully can work with you to 
develop the support for bringing the disabilities treaty both 
to hearings and ultimately to a vote. I think that is about 
protecting American citizens abroad, Americans with 
disabilities who travel all over the world and do not have the 
same rights they have here in the United States.
    We already have the highest standards probably in the world 
as it relates to the rights of those who are disabled, and 
creating that right globally for our citizens is an important 
step. So we look forward to working with you on that.
    Secretary Kerry. Mr. Chairman, I really hope, and I hope, 
Ranking Member Corker, I hope we could do that. I will work 
with you and the whole Department will work with you to make 
adjustments if they are needed to address the questions that 
arose about sovereignty or a couple of other questions. I think 
they can be addressed, and if that is what it takes to bring 
some people over to be able to vote for it.
    But it is hard for me to imagine that we cannot find a way 
to provide those rights to our people. This is one of the most 
undemanding of America treaties I think I have ever seen. 
Almost all of the demand is on other countries to come up to 
America's standard without any recourse whatsoever that 
prejudices any American right or citizen.
    So I truly hope we can revisit it, and the Department, the 
administration will work with you in every way possible to 
assist the committee and the Senate in trying to pass this.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. And, Mr. 
Secretary, thank you for the first round of questioning that we 
had and our discussions about North Korea and Syria, northern 
Africa, and other places. And again, I really do believe you 
are off to a very good start, and I have high hopes for the 
major policy issues that you are dealing with coming to 
resolution. I really do.
    The other part of the job, I guess, is running the 
Department, and sometimes that is a lot less fun and glamorous, 
and you do not get a lot of questions about that. But I do 
think it is my responsibility to ask a couple about the more 
mundane, the caring and feeding of the troops, and the running 
of the Department.
    We have an acting inspector general in place and my sense 
is that you do not get a lot of respect when you are an acting 
inspector general, that when you subpoena, you get push back, 
those kinds of things. I just wonder if you would commit to----
    Secretary Kerry. Can I save you time?
    Senator Corker. What is that?
    Secretary Kerry. I will save you time.
    Senator Corker. Good.
    Secretary Kerry. We have a terrific candidate who is being 
sent over to the White House today.
    Senator Corker. Very good. And I know we choreographed this 
in advance. I am just kidding, we did not. [Laughter.]
    Second, you know, we have Americans throughout our country 
who are losing their jobs. It has been a tough environment. We 
all know that. It is the No. 1 issue that all of us really care 
about is making sure that hardworking Americans have 
opportunities for good paying jobs.
    And within the Department, we still have these four 
employees, and I know this happened before you, and I know that 
you have nothing to do with what happened prior to January. But 
we have four employees that are on paid leave. I mean, they are 
sitting at home getting a full paycheck despite some of the 
activities that took place in Libya. And I know there were 
discussions earlier with another Senator about foreign aid and 
accountability and all of that. But this is a place where 
Americans look at this and know that some of these folks 
anyway, had to have some degree of culpability in four 
Americans dying, and yet they are sitting at home getting a 
full paycheck.
    And I just wondered if you might address this. Again, I am 
not one of those folks that goes on a witch hunt, but this does 
seem at this point in time a little bit beyond American values. 
And I just wondered if you might respond.
    Secretary Kerry. Senator Corker, honestly I understand the 
concern. I have asked about that internally, and I expect a 
report that is done in due course of business according to the 
law with respect to the rights of employees and the standards 
that are applied to these kinds of issues administratively. 
That report will be coming to me. I do not know what is in it 
yet. I do not know what recommendations are being made. But I 
will then have to make a decision about options with respect to 
recommendations that are based on that, and I will do that at 
that time.
    Senator Corker. Good. It seemed that when Secretary Clinton 
was up here, there was a standard by which things like this 
were judged, and you had to go way beyond the normal 
circumstances for somebody to actually be held accountable. And 
regardless of what happens, I know you will look at this in a 
judicious way. But it seems to me that we might want to 
establish some different standards as it relates to people who, 
candidly, do not live up to their responsibilities on the job, 
and we end up losing lives. And so I would hope you would also 
look at that. I know she mentioned actually possibly sending up 
some legislation to deal with that.
    And then last, the third question, and again I know this 
was before your time. You were sitting up here when we were 
dealing with this. But in Libya, I know I had met with numbers 
of officials there to try to get them to help us and to help 
find the people that certainly did know what happened in 
Benghazi. And it was very frustrating. I mean, it is almost an 
ungoverned country. I know that you know that.
    But I just wondered if you have had any success, or any of 
the folks who work with you have had any success, pushing the 
Libyan Government who we are helping tremendously and certainly 
play a big role in determining where they are. Have we had any 
success in getting them to cooperate with us on trying to find 
the folks who were involved? And now, some of them have left 
the country, but some of them probably are still there, and I 
just wondered what your activities had been in that regard.
    Secretary Kerry. We have, I believe, had some success. I 
inquired directly of FBI Director Mueller regarding this 
because I was interested personally obviously, and I think the 
State Department has a high level of interest in making sure 
those people are brought to justice. So we are tracking it.
    The discussion I did have with him, he was actually leaving 
to go over to Libya and personally meet with those officials, 
and he felt that we were making a level of progress. Now, it 
has been what, about, I guess, 11 months, something like that. 
It takes time. It is difficult.
    They do have people ID'd, however. They have made some 
progress. They have a number of suspects who are persons of 
interest that they are pursuing in this and building cases on. 
And I am quite confident. I know that, first of all, this is a 
high priority for the FBI. It is high priority for the 
Department, people working in Libya, and I think we are making 
some progress.
    A lot of these people are out in very difficult areas, and 
that is part of the problem in terms of building the case. But 
they are working under those difficult circumstances. And what 
I will do is get the sort of latest update for you and report 
back to you.
    Senator Corker. Thank you.
    The Chairman. Thank you. Senator Kaine, you are going to 
get the last opportunity here.
    Senator Kaine. Thank you, Mr. Chair. And sticking with 
response and aftermath of the tragic attack in Libya, Secretary 
Kerry, the areas in the ARB report that I sort of focused most 
on were both the findings of concern and also the 
recommendations with respect to embassy security. So, you know, 
who is providing security, how is it provided, levels of 
training, et cetera. I visited Quantico where the Marine 
security guards are trained, and that is being expanded. Very 
significant. Looked good.
    But one of the ARB recommendations was in addition a 
foreign affairs security training center that would coordinate 
all efforts of training foreign affairs security. That was an 
ARB recommendation. It was reported to Congress in February 
that that was being fast tracked forward, that there was an EIS 
being prepared to locate that facility in Virginia at Fort 
Picket, which was a BRAC'd army base. It is now a National 
Guard facility in Southside, VA.
    Just recently, Congress was informed that that EIS is now 
on hold for sort of unspecified reasons, and this is something 
we can talk about here or offline if you need to pull more 
information. But when I----
    Secretary Kerry. Who informed you of that?
    Senator Kaine. This has been--State and GSA has informed 
Congress just recently that the earlier statement that we were 
going to do this and that there was going to be the EIS out in 
April is on hold in kind of an unspecified--for unspecified 
reasons for an unspecified time. That causes significant 
concern obviously. I am parochial about it because of the 
Virginia tie, but it does seem to fly in the face of the ARB 
recommendation. And as of 2 months ago, we were full speed 
ahead on the recommendation, and now it seems like we are 
equivocal about it, and I would like to, you know, find out as 
much as I can about it, because I do think the security 
challenges at these embassies are the things that have to be 
solved so that we will all feel comfortable that our folks are 
safe as they are doing their jobs.
    Secretary Kerry. I am getting apparently some input on 
this. I am not aware of it, so I just want to find out.
    Senator Kaine. I am comfortable following up offline on it, 
but I just wanted to raise it as an issue of concern, Mr. 
Chair, and we will follow up offline.
    Secretary Kerry. I am being told that folks are prepared to 
give you a briefing on that. I was not aware of that, but 
obviously we have got to follow up with you and let you know 
what has happened.
    Senator Kaine. Great. I appreciate that. Thanks, Mr. Chair.
    The Chairman. Well, Mr. Secretary, thank you for the 
breadth and scope of not only your answers, but your depth of 
knowledge just confirms once again the tremendous choice the 
President made.
    There are a lot of other things we will hopefully discuss 
in the future continuing in our dialogue of course. We did not 
touch upon Afghanistan and Pakistan which are critical. But 
even issues that do not rise to those levels, issues like child 
care abduction cases and how we get other countries to respond.
    I saw your response to the House committee on Camp Ashraf. 
I actually have different information that I would really like 
to share with the Department. I think there is a different set 
of views about the willingness of people if there is certain 
security. So some are big ticket items. Some maybe do not rise 
to that level, but they are very important to the people who 
are involved.
    I appreciate the willingness and the constant flow of 
information with the Department. It has been excellent. And we 
look forward to continuing to work with you to ensure America's 
interest abroad.
    With that, the record will stay open until close of 
business on Monday.
    The Chairman. And this hearing is adjourned.
    Secretary Kerry. Thank you, Mr. Chairman.
    [Whereupon, at 11:49 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


           Responses of Secretary of State John F. Kerry to 
             Questions Submitted by Senator Robert Menendez

    Question #1. Foreign Assistance Reform.--The need to update and 
reform the Foreign Assistance Act (FAA) is widely recognized. In a 2009 
speech at the Brookings Institution, you highlighted the importance of 
this to our broader foreign policy objectives: ``we need to streamline 
outdated laws . . . The last time the United States Senate authorized 
the FAA was the year I arrived in the Senate in 1985. That bill runs 
over 400 pages long and is full of confusing directives, reporting 
requirements, and procedural roadblocks. We need to ease those burdens 
so that the missions, and those on those missions, can get the job 
done.'' Your proposed Foreign Assistance Revitalization and 
Accountability Act of 2009 as well as your draft Foreign Relations 
Authorization Act for 2010 and 2011 also included a number of elements 
to reform the FAA.

  <bullet> Is it still your opinion that reforming the FAA should be a 
        major administration priority, and are you ready to work with 
        Congress to get this done in the 113th Congress?

    Answer. We welcome efforts to modernize the Foreign Assistance Act 
in a manner that will better enable the U.S. Government to use all its 
tools and capabilities to provide assistance that furthers our foreign 
policy objectives, advances U.S. national security, promotes peace, 
maximizes sustainable development results, and ensures America's 
leadership in the world. The Department of State and USAID stand ready 
to work with Congress on this important endeavor.

    Question #2. Arming the Opposition.--During our hearing last week 
on Syria, we heard from Ambassador Ford that our current policy for 
Syria is to see a political solution. However, we were not able to get 
a clear explanation of what that political solution might be, and I 
remain concerned that there may be no political solution for this 
crisis and that extremists elements, with the help of Iran and al-
Nusra--are filling in the political vacuum.

  <bullet> Can you describe the political solution you are aiming for?
  <bullet> Do you believe it is still realistic? Or has the time come 
        to start looking at more military oriented options such as 
        vetted arming and training the opposition?
  <bullet> What confidence do we have that the assistance we are 
        providing, including the more recently announced nonlethal aid 
        to the armed opposition, is having a material impact on the 
        ground?
  <bullet> Is there specific support that we could be providing that 
        would turn the tide?

    Answer. We believe that the best way to end the Syrian crisis is 
through a negotiated political solution. The regime and its supporters 
will fight to the last person standing. To get to a sustainable peace, 
Syrians need a political solution that assures all citizens of their 
rights.
    The opposition and members of the regime without blood on their 
hands must come together to negotiate a deal like the framework laid 
out in the Geneva communique. This framework--agreed last June by the 
permanent members of the United Nations Security Council, Turkey, and 
Arab League states--calls for a transitional governing body formed on 
the basis of mutual consent of the opposition and the Syrian regime to 
be given full executive powers and guide the country to elections.
    This means that Assad, who has long lost his legitimacy and whom 
the opposition will never accept, will not play any role in that 
transitional governing body. If he is unwilling to decide that he 
should transfer executive authority, we will continue to find ways to 
pressure him to think differently about what lies in the future.
    While this administration continues to take a hard look at every 
available, practical, and responsible means to end the suffering of the 
Syrian people, we do not believe at this time that it is in the United 
States or the Syrian people's best interest to provide lethal support 
to the Syrian opposition. The judgments we make must pass the test of 
making the situation better for the Syrian people and must also take 
into account the long-term human, financial, and political costs for 
us, Syria, and the region. We continue to believe that a political 
solution to the crisis is the best way to save the Syrian people 
further suffering and to avert further destruction of the country, for 
which the regime bears overwhelming responsibility.
    As President Obama told the Syrian people in a recent message, 
``More Syrians are standing up for their dignity. The Assad regime will 
come to an end. The Syrian people will have their chance to forge their 
own future. And they will continue to find a partner in the United 
States of America.''
    We look forward to working with Congress throughout this process as 
we seek to protect the interests of the United States in the region and 
support the needs of the Syrian people in their struggle to create a 
free, stable, and democratic Syria.

    Question #3. No-Fly Zone.--Last week, the committee held a hearing 
on U.S. policy toward Syria. One proposal for more forward-leaning 
engagement was the implementation of a no-fly zone ``light,'' in which 
Patriot missiles would be deployed along the Turkey-Syria border with 
signals to the Assad regime that any Syrian military plane within 50 
miles would be considered a threat and dealt with accordingly.

  <bullet> What are your thoughts on such a plan of action?

    Answer. While this administration continues to take a hard look at 
every available, practical, and responsible means to end the suffering 
of the Syrian people, we do not believe at this time that it is in the 
United States best interest to provide a no-fly zone. The President has 
not ruled out other options, which may be contemplated if the situation 
worsens and the policies we are pursuing now prove insufficient. We are 
conscious, however, of the significant risks and costs that could be 
involved in any military intervention.
    These include: risks to U.S. military personnel; high risk of 
civilian Syrian casualties; U.S. intervention could undermine the unity 
of the opposition and the international community, both of which are 
deeply divided on the question of foreign military intervention; 
limited military actions may not have a decisive impact and could lead 
us down a slippery slope of escalating involvement and greater 
responsibility for the conflict and its aftermath; U.S. military action 
could undermine our efforts toward a negotiated transition and provoke 
a negative response by Russia; U.S. military strikes could invite 
reprisal attacks against U.S. interests or allies in the region.
    Contrary to some assertions made in the press, from a technical 
standpoint, Patriot batteries in Turkey could only provide very limited 
protection to very small areas inside Syria, which would not make a 
significant difference in nonregime controlled areas. Furthermore, the 
NATO deployment of U.S., German, and Dutch Patriot batteries in Turkey 
is for point defense against the threat posed by ballistic missiles; 
the batteries were provided and are configured accordingly. The express 
and sole purpose of this deployment is defensive, to protect Turkey and 
the Turkish people from missile threats.

    Question #4. I remain very concerned about Iran's nuclear ambitions 
and was discouraged to see that Iran came to the most recent round of 
P5+1 talks with no more interest in reaching a real resolution than it 
has previously. The negotiations seem stuck, but Iran's nuclear program 
is moving forward.

  <bullet> What steps is the U.S. Government planning to take to 
        increase the pressure on Iran in response to the failure of the 
        talks?
  <bullet> What is your view of sanctions that would require the 
        acceleration of significant reductions in petroleum purchases 
        by foreign nations or that would limit Iran's access to its 
        foreign currency reserves?

    Answer. The United States will continue to increase the pressure on 
Iran as we seek a diplomatic solution to international concerns over 
Iran's nuclear program. We have built an international coalition to 
increase the economic and diplomatic pressure on Iran, and we will 
continue to use all existing authorities and pursue new measures to 
further isolate Iran.
    We are committed to aggressively enforcing our existing 
authorities, and are considering additional measures that will support 
our ultimate goal of finding a peaceful solution to our concerns about 
Iran's nuclear program.
    We robustly implement all sanctions legislation, and we are taking 
the necessary steps to implement the sanctions under the ``Iran Freedom 
and Counter Proliferation Act'' subtitle of the National Defense 
Authorization Act (NDAA) 2013. These sanctions, which come into effect 
in July, will send a further message to Iran that sanctions will 
intensify without progress at the negotiating table.
    On February 6, 2013, amendments to section 1245 of NDAA 2012 went 
into effect. One aspect of these amendments requires the few remaining 
countries that import Iranian crude oil to keep the payments for those 
imports in bank accounts in the importing country. These countries all 
have significant trade imbalances with Iran, meaning that Iran does not 
have access to a significant amount of hard currency derived from its 
energy sector. Iran's mismanagement of its economy, combined with 
sanctions' impact, has sparked severe inflation in Iran and continues 
to drain its foreign currency reserves. We continue to work with our 
partners around the world to target Iran's access to foreign currency 
and continue to pursue reductions in Iran's crude oil exports.

    Question #5. The budget for assistance to the Western Hemisphere 
decreased by approximately 15 percent from FY12 levels. There are 
countless reasons that we should be investing more in the relationships 
with our neighbors. Some of the nations in the region have among the 
highest homicide rates in the world and the trends of crime, 
insecurity, and narcotics trafficking are shifting and are increasing 
dramatically in Central American and the Caribbean. Insecurity disrupts 
markets in the region with a negative impact on markets in the United 
States.

  <bullet> With these proposed sharp budget reductions, how do you plan 
        to demonstrate that the Western Hemisphere is a priority in our 
        foreign policy?

    Answer. While the foreign assistance budget environment is 
difficult and constrained overall, the FY 2014 budget request aligns 
with our foreign assistance priorities, especially on citizen security, 
which accounts for half the total WHA request.
    Our growing partnerships with increasingly capable regional 
leaders, combined with the hemisphere's economic success over the last 
decade, means that U.S. foreign assistance is not as needed in as many 
places as before.
    In areas where our partners are increasingly capable, including 
Mexico and Colombia, we have been able to reduce our assistance. Most 
of the decrease is due to: nationalization of key programs in Colombia; 
a continued focus on training and other capacity-building assistance in 
Mexico, which tends to be less expensive and have broader impact than 
the donations of aircraft and equipment that characterized the initial 
phases of our programming; and the increased capability of the 
Colombian and Mexican security forces and rule of law institutions.
    At the same time, we have increased assistance for the Central 
America Regional Security Initiative by 20 percent from FY 2012 to 
strengthen Central American capacity to address rule of law challenges. 
Central America is where we see the greatest threats to U.S. and 
regional interests.
    President Obama and I recognize that we share common values and 
global markets with the Western Hemisphere, which includes some of our 
largest trading partners, and we view the region as critical to our 
economic success and prosperity.

    Question #6. Are the U.S. counternarcotics strategies in the 
Western Hemisphere conceptualized in a strategic way--is there an 
administration-wide counternarcotics strategy for the hemisphere?

    Answer. The National Drug Control Strategy \1\, coordinated by the 
Office of National Drug Control Policy, is the United States 
Government's multiyear interagency strategy to address narcotics. Our 
vision for implementing the strategy, as well as the National Strategy 
to Combat Transnational Organized Crime \2\, is to enhance citizen 
security throughout the hemisphere in a coordinated effort to address 
all forms of crime and public insecurity. President Obama has 
recommitted the United States to practical partnerships in the Western 
Hemisphere that advance shared interests and protect U.S. citizens. 
This cooperative approach is based on a growing understanding of both 
emerging and traditional threats to the safety of our citizens. It is 
grounded in the recognition of a shared responsibility for addressing 
such challenges; the critical importance of political will, the rule of 
law, and effective institutions of governance; and common aspirations 
for secure, and prosperous societies.
---------------------------------------------------------------------------
    \1\ http://www.whitehouse.gov/ondcp/2013-national-drug-control-
strategy.
    \2\ http://www.whitehouse.gov/administration/eop/nsc/transnational-
crime.
---------------------------------------------------------------------------
    Transnational threats, which often blur the lines among crime, 
narcotics trafficking, and terrorism, shape the way security is viewed. 
This creates a broader, more integrated view of security, which 
advances citizen safety while simultaneously countering emerging 
transnational threats and narcotics trafficking. This approach 
emphasizes greater reliance on the will, capacity, and cooperation of 
regional partners such as Mexico and Colombia. It also recognizes that 
transnational, local, and white-collar (e.g., corruption) crime are 
interconnected, requiring an integrated approach to combat them.
    Our principal mechanisms for implementing this strategic vision for 
enhancing citizen security, the National Drug Control Strategy, and the 
Strategy to Combat Transnational Organized Crime are our citizen 
security initiatives: the Merida Initiative, Central American Regional 
Security Initiative, Colombian Strategic Development Initiative, and 
the Caribbean Basin Security Initiative. These initiatives are 
developed with our partners and are aimed at protecting citizens and 
strengthening the institutions responsible for ensuring citizen safety.
    One mechanism to help ensure that these initiatives are effectively 
coordinated is the Executive Committee for citizen security in the 
Western Hemisphere. This interagency group is chaired by the WHA 
Principal Deputy Assistant Secretary and includes key interagency 
stakeholders in each of the initiatives, bringing them together 
periodically to discuss lessons learned, opportunities for enhanced 
implementation, and opportunities for coordination across the 
initiatives.

    Question #7. What is the path forward in Venezuela following the 
contested elections? What will the U.S. Government do to ensure that 
democratic process prevails?

    Answer. The close results of the April 14 Presidential elections in 
Venezuela demonstrated an evenly divided electorate and a highly 
polarized society. Given the tightness of the result--just over 1 
percent of votes cast separate the candidates--the opposition 
candidate, Henrique Capriles, and one member of the electoral council 
called for a 100-percent recount of the results and a full 
investigation into alleged electoral irregularities.
    The Venezuelan National Electoral Council (CNE) has the 
responsibility under the Venezuelan Constitution to make declarations 
certifying the results, but the CNE's decision to declare Maduro the 
victor before completing a full audit remains difficult to understand. 
The CNE did not explain its haste to take this decision.
    Acting President Nicolas Maduro previously expressed his support on 
election night for an audit of 100 percent of the paper ballots. Our 
position, shared by the European Union, continues to be that a full 
recount and review of alleged irregularities would be important, 
prudent, and necessary in ensuring that the election met the democratic 
aspirations of the Venezuelan people.
    We have noted the Venezuelan Government's obligation to respect the 
rights of Venezuelan citizens to peaceful assembly and free speech. We 
join others in urging all parties to refrain from violence and other 
measures--including threatened arrests of political leaders and 
journalists--that could raise tensions at this difficult moment.
    We continue to believe that resolving alleged voting irregularities 
and appropriately responding to the several calls for a recount would 
do much to ensure that the Venezuelan people feel included in this 
process and can be confident that their democratic aspirations are 
being met.
    We have consulted and will continue to work with regional partners, 
the EU and multilateral fora, such as the Organization of American 
States, and partners in the Union of South American Nations, to call 
for calm and a rapid and transparent institutional response to the 
current political impasse.

    Question #8. The FY14 budget requests $15 million for democracy 
promotion in Cuba. I note that this is a reduction from historical 
levels of $20 million. Given the significant increase in detentions and 
arrests on the island in the past year, what is the justification for 
decreasing assistance to civil society in Cuba?

    Answer. The U.S. commitment to human rights and democracy in Cuba 
is strong. We will continue our robust program providing humanitarian 
support to political prisoners and their families, building civil 
society and expanding democratic space, and facilitating the 
information flow in, out, and within the island.
    For FY 2014, we are requesting $15 million, the same level of 
assistance we have deemed appropriate for the last three fiscal cycles. 
The request is based on our assessment of needs on the ground, and on-
island and off-island capacity to carry out programs. In addition, the 
combined pipeline (FY09 to FY12) for Department of State and USAID 
implementers is about $44 million, sufficient funding to carry out the 
purposes of the program over the next 3 years.

    Question #9. One of the primary challenges in the Western 
Hemisphere is the erosion of democratic norms in select countries. Does 
the administration have a strategy through which they aim to strengthen 
democratic institutions and uphold rule of law in the Western 
Hemisphere?

    Answer. The administration believes engagement is a vital tool for 
advancing U.S. objectives throughout the world, including in support of 
our efforts to strengthen democratic institutions and uphold the rule 
of law.
    Our commitment to democratic ideals is rooted in the recognition 
that sustainable democracies must do more than just hold elections--now 
the norm throughout the hemisphere. Sustainable democracies demonstrate 
ongoing commitment to democratic institutions, freedoms, meaningful 
public participation in government, and the separation of powers. Some 
countries throughout this region have held open, democratic elections, 
but have subsequently taken steps to undermine the democratic process 
and restrict basic democratic freedoms, such as the freedom of speech 
and judicial independence. We view the situations in each country as 
distinct and separate, and we pursue our relationships with these 
countries on a bilateral basis.
    We employ the full range of diplomatic and U.S. assistance tools 
available to support the rule of law and human rights in the 
hemisphere. We are working with governments to support people-to-people 
efforts to build vibrant civil societies, and promote accountability, 
the rule of law, independent and capable judicial systems, and respect 
for human rights. Our U.S. assistance investments strengthen citizen 
security and bolster democratic institutions in partnership with host 
nations. Our diplomats engage constantly with governments, addressing 
issues of democracy and rule of law both publicly and privately. In 
bilateral and regional meetings, we press all governments to fulfill 
their commitments under the Inter-American Democratic Charter and other 
international conventions and treaties to which they are signatories. 
For example, we have spoken out strongly, both in international fora 
and directly to governments, against corruption, lack of justice, and 
election irregularities in Nicaragua; against severe restrictions on 
civil society and freedom of expression in Venezuela; and in defense of 
press freedom in Ecuador and elsewhere. All of our human rights 
reporting, including certification in Colombia, documentation on human 
rights criteria in Mexico, and our annual country reports, promote the 
rule of law and accountable democratic institutions.
    Weak rule of law institutions will continue to be at the center of 
the citizen security challenges. The inability of governments to uphold 
the rule of law and provide basic services to citizens will slow their 
efforts to improve citizen security, reduce inequality, and foster 
development. We will continue to work with governments as they 
strengthen their institutions and secure their cities, waters, remote 
regions, and vulnerable populations.

    Question #10. The Accountability Review Board made several 
recommendations to help prevent future attacks against our diplomats. 
Secretary Kerry, you committed to full implementation of the ARB's 
recommendations. This budget is a good step toward adequately 
resourcing embassy and diplomatic security in the future. It is 
incumbent upon Congress to provide the necessary resources and 
authorities to support those efforts. Anything less would be a breach 
of faith with our brave and dedicated diplomats and aid workers 
stationed abroad.

  <bullet> Does this budget request funding necessary to fulfill 
        overseas infrastructure needs as identified by the 
        Accountability Review Board?

    Answer. The Department's Capital Security Construction Program 
addresses overseas infrastructure deficiencies by constructing new 
embassy and consulate buildings, and implementing security upgrades. 
The Department has made progress by completing the construction of 
approximately 100 new diplomatic facilities, but the construction 
program is a multiyear effort. There are more posts that will need to 
be addressed.
    The Accountability and Review Board (ARB) recommended a $2.2 
billion level for the Capital Security Construction Program. The FY 
2014 funding request of $2.2 billion addresses needs that can be 
executed during FY 2014. The Department will plan for and include 
future needs in subsequent budget requests.
    The $2.2 billion level recommended by the ARB will ensure the 
Department can continue to construct facilities at a pace equivalent to 
the pace when the program first began. New security enhancements will 
be incorporated into the security upgrade program and executed as 
either stand-alone projects or incorporated into larger projects.

    Question #11. Can you give us an update on the implementation of 
the recommendations of the ARB?

    Answer. The independent Benghazi Accountability Review Board (ARB) 
made 29 recommendations in key areas such as training, fire safety, 
staffing, and threat analysis. To hold ourselves accountable for 
implementation, we divided the recommendations into discrete tasks, and 
then assigned bureaus with these tasks and deadlines.
    To date, the Department has taken action to substantially address 
all of the ARB's recommendations, insofar as resources and staff 
training cycles permit. Some of this work--such as enhancing language 
and security training or constructing facilities--requires a multiyear 
commitment. Others--such as expanding the presence of Marine Security 
Guard--require ongoing interagency cooperation and continued funding. 
In support of these efforts:

      <all>  The Department reviewed our presence and staffing 
            footprint at high-threat posts; and established a High 
            Threat Board to review our presence at high-threat, high-
            risk posts every 6 months.
      <all>  We are improving training for our employees headed to 
            high-threat posts, and have expanded the number of posts 
            where such additional security training is required.
      <all>  We surveyed fire and life safety equipment, and have 
            procured needed equipment for posts.
      <all>  All posts performed a review of tripwires to determine if 
            any had been breached in the past year. The Department 
            developed and issued revised guidance on responding to 
            tripwires, and established a Washington-based ``Tripwires 
            Committee'' to review tripwires upon breach.
      <all>  With congressional support, we are creating 151 new DS 
            positions; 113 are expected to be hired this fiscal year. 
            The remainder will be hired in FY14.
      <all>  The Department is working with the Department of Defense, 
            and the Congress, on increasing the number of Marine 
            Security Guard Detachments deployed to U.S. diplomatic 
            posts overseas.
      <all>  We developed a concept for ``Support Cells'' for opened/
            reopened posts; the process is being incorporated into the 
            Foreign Affairs Handbook (FAH).
      <all>  The Department established a six-person panel to 
            thoroughly review DS's organization and management 
            structure; the panel has developed draft findings.

    The Department will never be ``done'' when it comes to security. 
The stark fact is that we can never truly eliminate the risks that our 
diplomats and development experts face as they advance America's 
national interests abroad. But we must always be working to find ways 
to minimize that risk.
    Following through on our progress will, of course, require 
continued support from the Congress. Your support for our FY 2013 
funding request to enhance embassy security--as recommended by the 
ARB--has been invaluable. To truly address the findings of the ARB, we 
hope Congress will continue to be a partner, in terms of providing 
resources and oversight. The FY 2014 budget requests the resources 
necessary to carry on this important work.

    Question #12. Mr. Secretary, you and the President have traveled to 
Israel and the Palestinian Territories in a renewed effort to build 
momentum toward rekindling the Peace Process. We learned a few days ago 
that Prime Minister Salam Fayyad, a moderate Palestinian politician who 
the United States and Israel consider a valuable partner, submitted his 
resignation after some infighting within the Palestinian Authority.

  <bullet> In your assessment, where are we in terms of prospects for 
        bringing the two parties together in direct bilateral talks?
  <bullet> How concerned are you that the Palestinians might go back to 
        the United 
        Nations or the ICC in the coming months?
  <bullet> Has the message been delivered to them that such a move 
        could have serious consequences?

    Answer. The United States is committed to the goal of two states 
living side by side in peace and security. We remain clear that only 
through direct negotiations without preconditions between the parties 
can the Israelis and Palestinians address all permanent status issues 
and achieve peace that both deserve: two states for two peoples, with a 
sovereign, viable, and independent Palestinian state living side by 
side in peace and security with a Jewish and democratic Israel. That 
remains our goal.
    We will continue to build on the commitment President Obama 
reaffirmed in Jerusalem in March. At President Obama's request, I am 
engaged in personal diplomacy with the leaders on both sides to find an 
opening for renewed direct negotiations. We will not necessarily 
provide the details of every meeting every step of the way, but we are 
still listening--and we will continue to listen--to the issues of 
concern to Israelis and Palestinians.
    I am not aware of any currently pending efforts by the Palestinians 
to seek membership as a state in additional international 
organizations. I am concerned that pursuit of Palestinian membership as 
a state in international organizations will drive the parties further 
apart and risk hard-won progress in building Palestinian institutions. 
There is simply no substitute for direct negotiations.
    The United States will continue to oppose unilateral actions in 
international bodies or treaties that circumvent or prejudge the very 
outcomes that can only be negotiated between the parties. And, we will 
continue to stand up to every effort that seeks to delegitimize Israel 
or undermine its security.
    We will continue to consult closely with our international partners 
to make clear our firm opposition to one-sided actions against Israel 
in international fora. Further, we will continue to urge all parties to 
avoid any provocative actions that circumvent or prejudge outcomes that 
can only be negotiated, including Palestinian statehood.
    The administration is seeking a waiver to allow the discretion 
necessary to continue to provide contributions that enable us to 
maintain our vote and influence within the United Nations and its 
specialized agencies, if the President determines that doing so is 
important to our national interests, and to remove from the 
Palestinians or their allies any ability to force a contribution cutoff 
and diminish our influence within these agencies.
    Without a national interest waiver our ability to conduct 
multilateral diplomacy and pursue U.S. objectives will be eroded, and 
our standing and position in critical U.N. agencies will be harmed. As 
a result, our ability to defend Israel from unfair and biased attacks 
in the United Nations will also be greatly damaged.

    Question #13. The transition to democracy in Egypt is marked by 
significant obstacles, a floundering economy, ongoing political 
protests, and parliamentary elections that keep getting postponed.

  <bullet> What is the current focus of our bilateral engagement with 
        Egypt? Do we need to reevaluate the balance of military and 
        economic assistance to Egypt in an effort to reform it to 
        reflect new realities?

    Answer. Our bilateral engagement with Egypt is focused on serving 
the U.S. national interests of promoting regional peace and security, 
ensuring regional stability, and encouraging economic, democratic, and 
security sector reforms to help shape and advance Egypt's democratic 
transition. It is in our interests to have an economically and 
politically stable and democratic Egypt.
    We have consistently made clear to the Egyptian Government that the 
United States supports the establishment of an inclusive and lasting 
democracy in Egypt that protects the universal rights of all Egyptians, 
including women and religious minorities. We are concerned by the 
ongoing political impasse and we are pressing President Morsy to build 
greater consensus and protect universal human rights, while also 
encouraging the opposition to participate in dialogue and political 
processes. It is also vital that Egypt have a stable economic 
foundation in order to help build democratic institutions and meet the 
economic needs of its growing population. We continue to urge the 
Egyptian Government to implement economic reforms and come to an 
agreement with the IMF.
    The budget request reflects our current military and economic 
assistance needs. Our security assistance has been critical in 
maintaining Egypt's partnership with the United States in advancing the 
cause of Middle East peace, meeting its treaty obligations with Israel, 
implementing critical counterterrorism and nonproliferation 
initiatives, and supporting our regional operations. Our economic 
assistance is a key component of U.S. engagement in support of the 
democratic transition and providing economic opportunities for all 
Egyptians, as demonstrated by the administration's $1 billion 
commitment announced in May 2011. Our robust economic assistance 
programs are already helping to promote democratic principles and civic 
participation, educate Egyptian youth, improve the business climate, 
promote advances in science and agriculture, and achieve key health 
outcomes.

    Question #14. I took my first trip as chairman to Afghanistan and 
Pakistan because I believe this region remains critical to our national 
security interests. The region is in transition with historic elections 
just weeks away in Pakistan and planning for 2014 elections underway in 
Afghanistan. Like you, I believe the political transition in 
Afghanistan is the most important milestone for the region. The results 
of the election will either consolidate the gains we have made the past 
decade or undermine them and threaten future international support.

  <bullet> Please describe the administration's thinking with regard to 
        the elections in both countries and how the United States can 
        best support a successful transition.

    Our relationship with Pakistan has been rocky these past couple of 
years, despite efforts to build a strategic partnership based on mutual 
interests and trust. Efforts such as the historic Kerry-Lugar-Berman 
aid legislation, which you authored, have faced an array of political 
and implementation problems.

  <bullet> What is your vision for improving this relationship, and how 
        can Congress best support this effort given all the challenges 
        we face?
  <bullet> Please describe proposed civilian staffing levels in 
        Afghanistan (both in Kabul and in the field) for FY 2014. How 
        do these levels compare to previous years?
  <bullet> What steps is the Department taking to bolster Embassy 
        security in Afghanistan? How much will be spent on embassy 
        security in FY 2014, and for what purposes?

    Answer. The 2014 Presidential election in Afghanistan will be a 
defining moment in the overall transition process and will set the 
trajectory for Afghanistan's stability and that of the region beyond 
2014. A peaceful transfer of authority will send a strong and 
reassuring signal to Afghans and the region that Afghanistan's 
democratic system and institutions are an enduring reality.
    Ultimately this election belongs to the Afghans. Our role is to 
support a fair and inclusive electoral process and encourage Afghans to 
reach a unifying, widely accepted outcome. The United States will not 
support any particular candidate.
    We are providing significant financial and program assistance to 
help Afghans build credible and independent electoral institutions. We 
emphasize expanded voter participation, particularly for women, and 
ensuring the independence of the election commission, an independent 
complaints commission, and consultative procedures for commissioners. 
We engage intensively with Afghan officials, civil society, and 
political leaders to support their efforts. We coordinate closely with 
the United Nations and other donors on training, public information 
campaigns, fraud mitigation, domestic observation efforts, and improved 
ways to identify eligible voters.
    Afghan Government and election officials, political players, and 
civil society understand that an inclusive electoral process is 
critical to Afghan stability, as well as to sustaining international 
commitments to Afghanistan. Key political leaders from major factions 
have been meeting to seek consensus on how elections should be 
conducted, who should run and on what platform, and how to ensure that 
influential political factions respect the result. We support efforts 
to coalesce around common interests through a political process, to 
preclude conflict that could threaten the viability of Afghanistan's 
young democracy.
    An urgent priority is enacting legislation to lay a lasting 
foundation for a credible electoral process. We are encouraging 
consultations between all stakeholders regarding draft laws currently 
under consideration. We are urging Parliament and President Karzai to 
move quickly on enacting legislation and making key appointments to 
maintain momentum in election preparations.
    Pakistan's national elections in May 2013 were a historic occasion: 
This is the first time since Pakistan's founding in 1947 that a 
civilian government has completed its term and transferred power 
democratically to another civilian government. The National Democratic 
Institute's Election Observation Mission called the election a 
``victory for democracy'' in spite of extremist attempts to disrupt the 
polls. Following the May 11 vote, the Secretary stated that ``these 
national and provincial assembly elections mark a historic step in 
Pakistan's democratic journey. The Pakistani people stood up 
resiliently to threats by violent extremists. We'll be working with the 
new government to advance shared interests including a peaceful, more 
prosperous and stable future for Pakistan and the region.''
    The State Department and USAID provided targeted assistance to 
support an improved election process in Pakistan. The U.S. Government 
funded the National Democratic Institute's observer mission, which 
includes 28 short-term observers and 10 long-term observers. We also 
supported the Free and Fair Election Network, a Pakistani NGO, to train 
up to 40,000 local election observers. Additionally, we supported an 
innovative program on election information management, which included a 
web-based system that allows election monitors to text and track 
polling station results, and to document election irregularities.
    We have made our position clear throughout the election period: The 
United States supports a credible democratic process, and not any 
particular candidate or party. Months of concerted effort has 
effectively repaired our working relations with the Pakistani 
Government, which had sunk to a low point during 2011-2012. Very 
serious challenges immediately confront Pakistan's newly elected 
leadership, and we stand ready to work with the new government to 
continue building our relationship and advance our mutual interests.
    Our civilian staffing levels in Afghanistan are decreasing. Our 
military and civilian field presences are drawing down as our military 
platforms are being closed. Our plan is to consolidate our civilian 
presence at our enduring presence locations; we are awaiting White 
House guidance on what the shape and scale of our civilian mission will 
be.
    The decrease of civilian staffing levels in Afghanistan will reduce 
the challenge of securing our people and facilities, although the 
corresponding decrease in International Security Assistance Forces will 
limit possible U.S. military responses to threats outside the scope of 
the Department's internal security capabilities. The Department uses a 
wide array of security personnel, technical and physical security 
countermeasures, and threat analysis to ensure staff located at 
Department facilities in Afghanistan are well protected. Department 
security measures are continually reviewed at post and in Washington 
based on the threat situation and are upgraded as appropriate.
    The President's FY 2014 budget request includes $643.8 million 
within the Worldwide Security Operations account for security 
operations in Afghanistan. This funding will support local guards, 
movement security teams, physical and technical security operations, 
and support costs for regional security officers serving in 
Afghanistan.
    It should be noted that while this funding will support security 
operations, it is separate from funding appropriated under the 
``Embassy Security, Construction, and Maintenance'' (ESCM) account, 
which is responsible for providing U.S. diplomatic and consular 
missions overseas with secure, safe, and functional facilities to 
assist them in achieving the foreign policy objectives of the United 
States.

    Question #15. I am concerned about the proposed $151 million 
increase in the INCLE account for FY 2014, given the lack of robust 
metrics or assessment tools to measure the success of our justice 
sector programs and problems supporting rule of law in Afghanistan.

  <bullet> Please describe how FY 2014 INCLE funds will be spent and 
        what steps the Department will take to improve evaluation, 
        accountability, and ensure funds are well spent.

    Answer. The FY 2014 request reflects needs across all International 
Narcotics and Law Enforcement (INL) programs in Afghanistan. In FY 
2014, we will continue our range of counternarcotics and corrections 
programs--as well as our engagement with the Afghan justice sector--
including government institutions, civil society, 
and legal education. Our programming will remain focused on 
transforming donor assistance projects into sustainable initiatives led 
by Afghan institutions and organizations.
    The Department recognizes that, in order to effectively manage INL 
programs and evaluate their broader value, we must develop and maintain 
standardized and flexible tools to collect program performance data and 
track how each of these projects contributes to broader INL, 
Department, and U.S. strategic objectives. Even in an extremely complex 
and insecure environment like Afghanistan, we find creative solutions 
for project monitoring that lead to better program performance, such as 
joint project oversight between INL and international organizations.
    Our basic oversight framework requires regular and consistent 
reporting from INL implementing partners, complemented by additional 
monitoring and evaluation tools--such as Performance Management Plans 
(PMPs). Under each PMP, all data requested by INL about a program is 
aligned with broader strategic goals to help program managers regularly 
evaluate if, how, and to what degree our initiatives help achieve core 
U.S. objectives. These PMPs gather a wide range of quantifiable data 
supplemented by qualitative reporting, and will be compared to 
independently gathered impact data. These tools allow us to change our 
programs for the better and ensure their strategic value.
    INL does not implement a ``one size fits all'' approach to program 
management. Instead, the monitoring and evaluation framework varies by 
program. Data collection tools and reporting requirements are tailored 
to the implementing partner's strengths and weaknesses, INL's 
particular information needs, and our desired outcomes. For example, 
for complex initiatives with the societal depth and breadth of the 
Justice Sector Support Program (JSSP) and the Corrections System 
Support Program (CSSP), larger scale research is conducted to craft an 
accurate picture of change. In programs more centered on increasing the 
capacity of individual leaders, such as our LLM and Ph.D. initiative 
for Afghan law faculty, we gather basic data on participation, but we 
rely more heavily on qualitative narrative reporting and interaction 
with Afghan alumni to understand the long-term impact of our support 
and to make nuanced changes to the program design. In our work with 
civil society, we focus not only on the organization's fulfillment of 
project goals, but also on its ability as an organization to function 
effectively now and into the future.
    While it is often challenging in Afghanistan to link program 
activities to broader institutional and societal change, INL 
systematically collects and uses project-specific and impact-level 
trend data through a variety of commissioned and free sources in order 
to achieve this goal. When projects demonstrate sustained and positive 
change, we apply any relevant lessons to other projects. When the data 
indicate that operational problems exist, we modify our programs 
accordingly and intensify our oversight relationship. For example, we 
de-scoped regional legal training work from a contractor-supported 
program when security risks and Afghan laws regarding private security 
companies inhibited our movement. We then entered into an agreement 
with an international organization with a more nimble and province-
based profile to carry on the work and eventually turn it over to the 
Afghan Government. If program performance data indicate that INL is on 
the wrong track, we de-scope the work and either find better 
alternatives for implementation or terminate unsuccessful projects. For 
example, when regular narrative reporting in 2009-2010 by INL's 
implementing partner for the Counter Narcotics Advisory Teams (CNAT) 
demonstrated that the program, as designed, was not effectively 
transferring public outreach and drug supply reduction skills to the 
Afghan Government, INL terminated the contract. All INL programs have 
rigorous reporting requirements.

    Question #16. What is the status of the Mutual Accountability 
Framework that was signed last July in Tokyo? Please describe the 
reforms the Afghan Government has taken since the Tokyo conference to 
meet its commitments and steps that remain.

    Answer. The Tokyo Mutual Accountability Framework (TMAF), as agreed 
at the July 2012 Tokyo Conference on Afghanistan, remains the basis for 
a coordinated effort by the international community to promote 
necessary reforms by the Afghan Government.
    To provide a roadmap for what is expected of the Afghan Government, 
the TMAF is also more explicit than previous documents in specifying 
the goals and indicative Afghan reforms that the government and the 
donors agree should be achieved. These cover five areas: (1) 
Representational Democracy & Elections; (2) Governance, Rule of Law & 
Human Rights; (3) Integrity of Public Finance and Commercial Banking; 
(4) Government Revenues, Budget Execution and Subnational Governance; 
and (5) Inclusive & Sustained Growth and Development.
    In these areas, the TMAF seeks to establish a narrow, prioritized 
set of actions that the Afghan Government agreed to undertake. This set 
of actions draws from the IMF's own ongoing engagement and the many 
Afghan commitments, many of which are still unfulfilled, that were 
included in previous Afghan-donor communiques, such as London and Kabul 
(2010).
    Donors, including the United States, have emphasized the importance 
of implementation of all TMAF goals. However, in the context of the 
ongoing political, security, and economic transitions, we have focused 
in particular on reforms required to support the 2014 elections, combat 
corruption, strengthen domestic revenue collection, and protect the 
rights of women and girls.
    As called for in the TMAF, donors will meet on July 3 in Kabul at 
the level of senior officials to assess progress to date and plan for 
continued constructive cooperation. We expect the Afghan Government to 
produce a progress report for that meeting, which will detail its 
progress thus far on critical reforms. In addition, international 
donors will outline steps to increase the percentage of assistance 
provided through the government's financial systems, as part of the 
mutual accountability framework. We will make this report and other 
outcome documents from the July meeting available to the committee.
    Since last July, Embassy Kabul, in coordination with other key 
donors, has organized a series of engagements with the Afghan 
Government to promote the steps called for in the five areas outlined 
in the TMAF. There has been noticeable progress in some areas, though 
significant work remains.
    To date, we note important progress in some areas, including the 
publication of an elections timeline, as well as the presentation of an 
operations plan by the Independent Elections Commission (IEC) for 
Presidential and Provincial Council elections, released to donors 1 
year prior to the scheduled elections. The IEC has also sent the 
proposed list of polling centers to the securities ministries, 
providing time for security coordination. In addition, the Cabinet has 
approved for submission to Parliament a number of critical draft laws, 
including the Value Added Tax (VAT), the Minerals Law, and the Banking 
Supervision Law.
    The indicators enumerated in the TMAF were not intended to be 
completed in a single year, and were structured to provide evidence of 
Afghan progress toward the larger, agreed goals in each area. After the 
July 3 meeting to assess progress, the TMAF calls for a meeting at the 
ministerial-level following elections in 2014. This post-elections 
meeting will reassess resource requirements moving forward.

    Question #17. There are more than 2.7 million Afghan refugees that 
have fled their war-torn country. When Afghan refugees return to their 
country, 78 percent of returnees do not have access to sustainable 
self-reliance and livelihood activities. The U.N. Consolidated Appeal 
for Afghanistan has received less than half the resources necessary to 
respond to the humanitarian crises.

  <bullet> What is the administration's strategy for dealing with the 
        significant humanitarian needs in Afghanistan?
  <bullet> With the significant decrease in the Migration and Refugee 
        Account in the FY 2014 request, how will you support the needs 
        of the millions of Afghan refugees living in neighboring 
        countries?

    Answer. The United States is the leading donor for humanitarian 
assistance to victims of the Afghan conflict. In FY 2012, this 
assistance included over $89 million from the State Department's Bureau 
of Population, Refugees, and Migration (PRM) to the U.N. High 
Commissioner for Refugees (UNHCR), the International Committee of the 
Red Cross (ICRC), and nongovernmental organizations (NGOs) to support 
Afghan refugees, returnees, and IDPs. State/PRM's obligations to date 
in FY 2013 include over $24 million in assistance to Afghan refugees 
regionally.
    The majority of this assistance is provided through UNHCR, in 
support of the Solutions Strategy for Afghan Refugees (SSAR), which 
seeks to protect existing asylum space in Pakistan and Iran while 
creating the conditions in Afghanistan for successful, sustainable 
returns. PRM provided $47.6 million to UNHCR in FY 2012 in response to 
its regional appeal for Afghan refugees; in FY 2013, PRM's initial 
contribution to UNHCR for its regional appeal for Afghans was $11.92 
million.
    In FY 2012, State/PRM also provided over $16 million to NGOs in 
Afghanistan and Pakistan for programming in areas such as vocational 
training and the creation of sustainable livelihoods, water and 
sanitation, the prevention of gender-based violence, primary education, 
and health care. PRM is concluding the competitive process for FY 2013 
NGO programming, and anticipates continuing to significant support to 
Afghan refugees through our NGO partners this fiscal year.
    As a matter of policy, State/PRM believes that the ability to 
protect and provide services to women and girls among the populations 
we serve is a definitive measure of our effectiveness. PRM is committed 
to strengthening practices and policies that will prevent and respond 
to gender-based violence, both in crises and in protracted situations 
such as in Afghanistan and Pakistan. We will continue to collaborate 
with our international and nongovernmental organization partners in 
that effort.
    In addition to supporting assistance programming, the State 
Department has sought to build the capacity of the Afghan Government to 
effectively deal with humanitarian issues and thus reduce reliance on 
the international community. As such, State/PRM funded the first year 
of a multiyear capacity-building program for the Ministry of Refugees 
and Repatriation (MoRR), implemented through the International 
Organization for Migration (IOM).
    Beyond Afghanistan, we will continue to engage with the Government 
of Pakistan on continued protection and the preservation of asylum 
space for Afghan refugees. In particular, the issue of Proof of 
Registration (POR) cards, which allow Afghan refugees to reside legally 
in Pakistan, will remain a focus of our humanitarian diplomacy efforts 
once Pakistan completes its May 2013 election and a new Pakistani 
Government has been established.

    Question #18. Please provide the committee with an update on the 
Afghanistan Infrastructure Fund (AIF), including sustainability plans 
for all programs.

    Answer. The Department of State, U.S. Agency for International 
Development (USAID), and the Department of Defense continue close 
coordination to ensure the effective and sustainable use of Afghanistan 
Infrastructure Funds. To date Congress has appropriated $1.125 billion 
for the Afghanistan Infrastructure Fund (FY 2011: $400 million, FY 
2012: $400 million, FY 2013: $325 million) to support 10 initiatives, 
comprising 13 individual projects, including efforts to rehabilitate 
and expand the Northeast and Southeast Power Systems (NEPS and SEPS). 
In the coming weeks the Department of Defense, in coordination with the 
Department of State, will request AIF resources for FY 2014 to further 
support the overarching objectives of the AIF, which are to support the 
U.S. counterinsurgency strategy, the Civ-Mil Strategic Framework, and 
the infrastructure priorities outlined in Afghanistan's National 
Priority Programs. The goal of AIF is to lock in the economic and 
stability gains of the last 10 years and provide Afghanistan with a 
foundation for internal economic growth that is less reliant on 
external aid. To date, more than $717 million of the available $800 
million in FY 2011 and FY 2012 AIF funding has been obligated. All FY 
2011 projects are under contract and the two remaining FY 2012 
contracts are expected to be awarded within the next month. Over the 
last year, adjustments were made in response to unforeseen cost 
increases--funds were realigned within the program and several projects 
were split into phases. All changes have been notified to Congress and 
briefed to the appropriate committees.
    We are making every effort to ensure projects supported by the AIF 
are sustainable in the long term. It is worth noting, however, that the 
Kandahar Bridging Solution--which provides short-term stabilization and 
has fueled economic growth in the Kandahar region--was not intended to 
be sustained. It is a temporary counterinsurgency initiative designed 
to improve security and jump-start economic activity until long-term 
sustainable power projects, including the NEPS-SEPS connection and the 
rehabilitation of Kajaki Dam, are complete. Sustainability plans 
include extensive work by USAID to improve the commercial viability of 
the Afghan National Electricity Utility, Da Afghan Breshna Sherkat 
(DABS). USAID recently signed an agreement with DABS for the Power 
Transmission Expansion Connectivity Project, which includes 
commercialization activities and the AIF-funded Kabul to Ghazni 
transmission line. DABS has since issued tenders for these two 
activities; awards expected in late summer. In addition, USAID is 
working with the International Finance Corporation on a design for an 
on-budget management contract under PTEC to improve the revenue 
collection and service delivery of DABS Kandahar. This project is 
funded by ESF but complementary to the AIF-funded projects in Kandahar.

    Question #19. Please explain why the Department and USAID decided 
to turn over the installation of Unit 2 at Kajaki Dam and the Power 
Transmission Expansion and Connectivity Program to the Afghan 
Government as on-budget assistance, given the many difficulties the 
United States has had in completing this project over the past years. 
Are we handing over programs to the Afghans such as this that are 
likely to fail?

    Answer. We made the decision to shift the management of the Kajaki 
turbine installation project to the Afghan Government because we 
believe the relevant Afghan institutions are capable of completing the 
project in a cost effective, sustainable, and timely manner. 
Furthermore, Afghan management of the project will leverage the 
increased capacity of the Afghan Government to take on responsibility 
for its own economic and social development, a critical component to 
the sustainment of the country's development progress. We have not 
changed our plans with regard to the Power Transmission Expansion and 
Connectivity Project since our plan was always to conduct this project 
on-budget. Afghan management of these two projects is a positive 
reflection of Afghan leadership and its increased capacity. Our initial 
assessment is that it will be more effective and efficient to have 
DABS, the Afghan national electric utility, manage this project with 
continued technical and managerial support as needed. We made the 
decision to shift the implementation mechanism of the Kajaki project to 
on-budget assistance through the Afghan Government after it 
successfully completed a number of increasingly complex projects 
including other rehabilitation work on the turbines at the Kajaki dam. 
In addition, DABS has shown impressive progress in both operational and 
managerial capacity: doubling its year-on-year revenues while 
increasing overall power distribution.

    Question #20. Please describe the Department's strategy to address 
rising opium poppy cultivation levels for the third consecutive year. 
Please explain why our counternarcotics programs in Afghanistan are not 
having strategic impact in breaking the links between narcotics and the 
insurgency and significantly reducing the support the insurgency 
receives from the narcotics industry.

    Answer. The Department's counternarcotics programs in Afghanistan 
are focused on achieving long-term, lasting results through a blend of 
sustainable alternative development, demand reduction, eradication, 
public awareness and engagement, and interdiction programs. These 
efforts--along with complementary efforts by other U.S. agencies, the 
Afghan Government, and coalition partners--have contributed to a net 
reduction in opium poppy cultivation of 20 percent since its peak in 
2007. Seventeen of thirty-four Afghan provinces are poppy-free and tens 
of millions of dollars in revenue have been denied to the insurgency. 
Ninety-five percent of poppy cultivation in Afghanistan remains 
concentrated in a small number of provinces where governance, security, 
and development remain broader challenges. Over the past 2 years, 
economic insecurity, high opium prices, credits by traffickers, and low 
yields from previous years have encouraged some farmers to plant more 
poppy. Success in countering poppy cultivation requires a continued 
effort throughout the country. Sustainable reductions in poppy 
cultivation are possible over time with comprehensive efforts to lift 
rural incomes, provide licit alternatives and access to markets, 
increase security, and enforce the law.
    Recognizing the need for a comprehensive evaluation of current 
counternarcotics efforts, the U.S. interagency developed a new U.S. 
Counternarcotics Strategy for Afghanistan, which the National Security 
Staff Deputies Committee approved in January 2013. The strategy has two 
overarching goals--(1) strengthening the Afghan Government's capacity 
to combat the drug trade as a critical element of securing and 
sustaining transition in broader stability and security matters, and 
(2) countering the link between narcotics and the insurgency and 
disrupting drug-related funding to the insurgency through and beyond 
the security transition.
    This strategy focuses on building the capacity of the Ministry of 
Counter Narcotics (MCN), Ministry of Interior (MOI), Ministry of Public 
Health (MOPH), the Attorney General's Office, and other relevant Afghan 
entities to carry out counternarcotics programs. Equally important, the 
U.S. Embassy will continue to raise counternarcotics issues at the 
highest levels with Afghan Government officials and encourage the 
political will to take action at both the national and provincial 
levels, with a concrete objective of integrating counternarcotics 
planning and priorities into all relevant aspects of the Government of 
the Islamic Republic of Afghanistan's (GIROA) National Priority 
Programs.
    The drug trade's negative impact on GIROA's ability to govern 
effectively is a strategic threat to U.S. Government policy and goals 
in Afghanistan. Enabling GIROA to independently combat the narcotics 
trade, with gradually increasing degrees of responsibility and 
ownership, will help foster an enduring United States-Afghan 
partnership for the long term and reinforce broader U.S. security goals 
in the region. This holistic approach is necessary to ensure hard-
fought gains are not reversed and to achieve long-term, sustainable 
results in combating the Afghan narcotics trade.

    Question #21. Given the approximately 14-percent reduction to 
civilian assistance in the FY 2014 request for Pakistan, please provide 
the committee with detailed descriptions of which programs will be cut 
and how the cuts will affect programs?

    Answer. Our FY 2014 request reflects our recognition of budgetary 
and implementation constraints, while maintaining substantial levels 
during a critical period--as we transition out of Afghanistan. Our 
civilian assistance to Pakistan remains focused on five priority 
sectors: energy; economic growth, including agriculture; stabilization; 
education; and health. The 14-percent reduction in civilian assistance 
from FY 2012 factors in reductions to the education, health, economic 
growth, and stabilization sectors.
    The largest reductions are in the education and health sectors, 
resulting in 58 percent and 30 percent decreases from FY 2012, 
respectively. While our assistance in these sectors is important to 
Pakistan's economic growth, health outcomes, and service provision--we 
front-loaded our investments in education and health and narrowed our 
portfolio of programs within each sector to maximize impact. Our 
reductions to the economic growth and stabilization sectors--20 percent 
and 13 percent respectively--reflect efforts to streamline the program, 
while enabling the continuation of critical investments in border 
security, infrastructure, law enforcement, and programs that support 
entrepreneurship and alternative livelihoods.

    Question #22. Please describe proposed civilian staffing levels in 
Pakistan (both in Islamabad and in the field) for FY 2014. How do these 
levels compare to previous years?

    Answer. In 2009 and 2010, Mission Pakistan experienced over 30 
percent growth in authorized positions from the previous year, 
primarily due to growth by the Department of Defense and the U.S. 
Agency for International Development. In 2011 the rate of growth 
declined and by 2012 staffing growth had leveled off.
    There are currently just over 700 authorized positions in Pakistan. 
The Embassy and the Washington interagency are in the process of 
conducting a rightsizing study; initial work on the study seems to 
indicate that we are likely to maintain a substantial presence in the 
coming years, but our rate of growth will be modest.

    Question #23. What steps is the Department taking to bolster 
Embassy security in Pakistan? How much will be spent on embassy 
security in FY 2014, and for what purposes?

    Answer. The Department is bolstering Embassy security in Pakistan 
by augmenting the Regional Security Office with DS Special Protective 
Security personnel who provide protection for personnel under Chief of 
Mission (COM) authority. The Department is also deploying additional 
low-profile armored vehicles for use within the country.
    The President's FY 2014 budget request includes $49.8 million 
within the Worldwide Security Program account for security operations 
in Pakistan. This funding will support local guards, movement security 
teams, physical and technical security operations, and support costs 
for regional security officers serving in Pakistan.
    It should be noted that while this funding will support security 
operations, it is separate from funding appropriated under the 
``Embassy Security, Construction, and Maintenance'' (ESCM) account, 
which is responsible for providing U.S. diplomatic and consular 
missions overseas with secure, safe, and functional facilities to 
assist them in achieving the foreign policy objectives of the United 
States. Physical security upgrades are being constructed in Karachi, 
Lahore, and Peshawar.

    Question #24. How much money will be spent on cross-border programs 
between Afghanistan and Pakistan in the FY 2014 request? Please 
describe the programs.

    Answer. The United States continues to use diplomatic and foreign 
assistance resources to promote a range of constructive cooperation 
between Afghanistan and Pakistan to support the stability and economic 
growth of both countries. Given the importance of regional integration, 
we anticipate substantial civilian assistance resources for cross-
border programs between Afghanistan and Pakistan, including standalone 
projects to promote cooperation and subactivities within broader 
programs such as market access support within agricultural development 
projects. For example, a significant portion of USAID's Trade program 
in Pakistan supported cross-border activities with Afghanistan; this 
program was funded at $6.5 million in FY 2012, and we anticipate 
similar funding in FY 2014. This program and a similar project in 
Afghanistan work to enhance economic integration and trade flows 
between the two countries, including improved implementation of the 
Afghanistan Pakistan Transit Trade Agreement (APTTA) and potential 
expansion of the current agreement to include other countries in the 
region. Funding will also help to finalize customs notifications 
procedures and capitalize on recent progress on issues that were until 
recently the greatest bottlenecks to APTTA implementation: bank 
guarantees for trucks, tracking devices, and customs-to-customs 
information-sharing.
    Funds will be used to improve trade logistics by reducing barriers 
to trade such as informal checkpoints and will provide technical 
support for meetings of South Asian Free Trade Area (SAFTA) and the 
South Asian Association for Regional Cooperation. The United States 
will also help Afghanistan advocate for the expansion of the number of 
items eligible for special rates under these agreements. For FY 2014, 
the United States will also likely continue to assist the Afghan 
Government in processing the ratification of the SAFTA South Asian 
Agreement on Trade in Services and finalizing the service market access 
agreement offers.
    In Pakistan, the United States is funding the construction and 
rehabilitation of roads on the Afghanistan-Pakistan border, which 
contribute substantially to the economic integration of the region; 
these roads also enhance stabilization by facilitating access to border 
areas by Pakistani security forces and civilian law enforcement. To 
date, between USAID and the State Department, U.S. assistance has 
funded 650 km in roads throughout the Federally Administered Tribal 
Areas (FATA) and Khyber Pakhtunkhwa (KP) province. Our assistance is 
currently undertaking reconstruction of the Peshawar-Torkham highway, 
and we hope to fund similar rehabilitation of the Kalat-Quetta-Chaman 
road; the roads are two of the major transit routes between Afghanistan 
and Pakistan. In FY 2012 the United States dedicated $100 million to 
border road construction and we estimate similar funding in the FY 2014 
request.
    In addition, we are exploring the possibility of sponsoring cross-
border financial investigation training to improve Afghan and Pakistani 
capacity to detect and deter illicit financial transaction across their 
borders and improve bilateral coordination.

    Question #25. How much money remains in the pipeline for Pakistan 
for FY 2009 through FY 2013?

    Answer. We acknowledge the large pipeline and are addressing it, as 
reflected in our FY 2014 request, which is a 36-percent reduction from 
FY 2012. We maintain that robust levels of assistance are important for 
our long-term interests in Pakistan and the region, particularly during 
this critical transition period.
    From FY 2009 to FY 2012 we allocated approximately $4.8 billion in 
civilian assistance and $2.6 billion in military assistance to 
Pakistan. As we are currently working on the 653a report for FY 2013, 
we do not yet have country allocations for that fiscal year. 
Approximately 88 percent of civilian assistance allocated has been 
obligated, and of that amount $1.8 billion remains to be expended. 
USAID also recently completed an extensive analysis of its 
implementation mechanisms; total expenditures in the first half of FY 
2013 increased by 40 percent over the prior two quarters in FY 2012, 
and program implementation is expected to accelerate further in FY 
2014. For military assistance, approximately 73 percent has been 
obligated, and of that amount $719 million remains to be expended.

    Question. During your Asia trip last week you mentioned that the 
United States should consider diplomatic engagement with North Korea at 
the ``appropriate moment'' and under appropriate circumstances.

  <bullet> Could you share with us your sense of what might constitute 
        an appropriate moment and the appropriate circumstances?

    Answer. We have made clear our openness to authentic and credible 
negotiations with North Korea, but North Korea must take meaningful 
steps to abide by its commitments and obligations related to the 
denuclearization of the Korean Peninsula. We will not reward North 
Korea simply for the absence of bad behavior nor will we accept North 
Korea as a nuclear state. If North Korea wants to join the 
international community as a responsible member, it needs to refrain 
from actions that threaten the peace and stability of the Korean 
Peninsula and Northeast Asia and comply with its commitments in the 
September 2005 Joint Statement of the Six-Party Talks and its 
obligations under relevant United Nations Security Council resolutions 
to abandon all nuclear weapons and existing nuclear programs.
    North Korea's choice is clear. Concrete steps toward 
denuclearization can lead to a path of peace, prosperity, and improved 
relations with the international community, including the United 
States. As he has said many times, President Obama came to office 
willing to offer his hand to those who would unclench their fists. The 
United States is prepared to sit down with North Korea to negotiate 
terms to implement the commitments that North Korea has made. But if 
Pyongyang instead continues to choose to defy its commitment to 
denuclearization and continues to engage in destabilizing provocations, 
it will face further international isolation.

    Question #27. PEPFAR and our other global health programs have been 
among our most successful foreign policy initiatives in years. They 
have saved and are saving millions of lives. Congress last formally 
reauthorized PEFAR in 2008. The Institute of Medicine recently released 
a report that highlighted the many successes of PEPFAR and, unlike a 
similar assessment in 2007, did not point out the need for statutory 
reforms.

  <bullet> In your opinion, are statutory changes needed to sustain or 
        improve our AIDS, TB, and malaria programs? If so, what are 
        they?
  <bullet> Are there elements that will expire without specific 
        reauthorization that should be continued through some 
        legislative vehicle?

    Answer. The authorities to conduct assistance programs to combat 
HIV/AIDS, tuberculosis and malaria under the Tom Lantos and Henry J. 
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, 
and Malaria Reauthorization Act of 2008 (the Leadership Act), and 
pursuant to the amendments to the Foreign Assistance Act made by the 
Leadership Act, will not lapse in 2013. These authorities remain in 
effect as permanent law, and as long as the annual appropriations act 
appropriates needed funds for assistance, program activities will be 
able to continue unaltered. While a limited number of provisions in the 
Leadership Act will sunset after 2013, this should not affect the 
ability of the Office of the U.S. Global AIDS Coordinator, housed at 
the Department of State, and its implementing agencies to carry out 
assistance related to HIV/AIDS. USAID will also not be affected in its 
ability to carry out assistance to combat tuberculosis and malaria.

    Question #28. In December 2011, the United Nations and the 
Government of Iraq (GOI) signed a Memorandum of Understanding to 
facilitate the safe and orderly transfer of Camp Ashraf residents to 
Camp Liberty. The relocation of the residents has successfully taken 
place, but concerns about their safety remain, especially in light of 
the fatal rocket attacks on Camp Liberty in early February 2013.

  <bullet> How is the U.S. Government engaging the GOI to ensure that 
        it provides a safe and secure environment for the residents at 
        Camp Liberty while they are processed by the U.N. refugee 
        agency and await possible resettlement?

    Answer. Following the February 9 rocket attack targeting Camp 
Hurriya, the Government of Iraq has taken steps to enhance security in 
and around the camp. We continue to urge the government to take all 
possible measures to ensure the safety of Camp Hurriya residents. The 
United Nations Assistance Mission for Iraq (UNAMI) and the GOI are 
trying to work with the MEK camp leadership on security enhancements 
and we continue to firmly support the many efforts of the GOI and UNAMI 
in this endeavor. Since the attack, UNAMI reports that over 250 bunkers 
and nearly 600 small T-walls have been delivered to the camp and other 
security measures have been put into place. As we have seen from other 
terrorist incidents, no amount of physical structures can guarantee the 
safety and security of Camp Hurriya or Camp Ashraf, which clearly 
underscores the urgency of resettlement of residents outside of Iraq.
    We join UNAMI and other nations in urging the permanent 
resettlement of former Ashraf residents outside Iraq. Resettlement is 
the only sustainable solution to ensure the safety of the residents. We 
remain firmly committed to supporting and assisting UNAMI, UNHCR and 
the Government of Iraq in their efforts to facilitate resettlement. The 
resettlement of Camp Hurriya residents outside Iraq requires immediate 
and urgent attention. We have made known to the MEK leadership and Camp 
Hurriya residents that Camp Hurriya remains a target and further delays 
in resettlement jeopardize the safety and security of residents.

    Question #29. What steps is the Department taking to appropriately 
balance demands for security cooperation and upholding respect for 
basic human rights in its relations with Central Asian countries?

    Answer. Our dual-track policy of engaging Central Asian governments 
on security issues while encouraging political liberalization has 
succeeded in advancing our regional security objectives as we maintain 
our strong support for human rights in the region. We have strengthened 
the Northern Distribution Network and bolstered our broader 
relationships with Central Asian militaries and security services. At 
the same time, we use our expanded relationships to continue to 
encourage Central Asian governments at every level to respect 
fundamental human rights, and to allow greater space for civil society, 
peaceful religious practice, and full freedom of expression, including 
media freedom and other fundamental rights. During our comprehensive 
Annual Bilateral Consultations with each of the five Central Asian 
states, human rights are always one of the core issues, and we have 
consistently stressed that human rights are an integral part of our 
broader bilateral relationships. We urge these governments to hold free 
and fair elections and to undertake necessary judicial, law 
enforcement, and media legislation reform to expand rights protections 
and the rule of law. We support a range of civil society organizations, 
many of which operate in extremely difficult environments as they 
advocate for human rights and democracy reforms. We also partner with 
Central Asian states and international organizations to combat 
trafficking in persons and forced labor by facilitating cooperation 
with international monitoring entities, civil society, and law 
enforcement organizations.
    For FY 2012 we provided $26.6 million (not including centrally 
managed accounts such as the Human Rights and Democracy Fund of the 
Bureau of Democracy, Human Rights and Labor) to support democratic 
reforms and human rights in Central Asia; our FY 2014 request would 
increase this support to $28.6 million.

    Question #30. How much money will be spent on cross-border programs 
between Afghanistan and Central Asian countries in the FY 2014 request? 
Please describe the programs.

    Answer. We appreciate the committee's support for cross-border 
programming between Afghanistan and Central Asian countries. This type 
of programming is critical to supporting the development of a ``New 
Silk Road'' linking a stable Afghanistan with a prosperous and peaceful 
region. For the past 2 years, we have aggressively worked to facilitate 
Afghanistan's economic transition by integrating it with the broader 
South and Central Asian region. The foundations for self-sustaining 
growth are taking root through the reduction of regional barriers to 
trade and transit, increased private investment, and the development of 
regional road, rail, energy, and communications linkages.
    Although our assistance to Afghanistan and the Central Asian 
countries is largely delivered bilaterally, we also support regional 
economic integration and security through cross-border programs. For 
the FY 2014 budget, a few examples include:

      <all>  With Afghan bilateral funds, USAID's Trade and Accession 
            Facilitation for Afghanistan Project (soon to be renamed 
            CARAVAN) estimates spending between USD $7.5 and $8.5 
            million annually for FY 2014 and subsequent years, and for 
            the duration of the project on cross-border programming 
            between Afghanistan and Central Asian countries. The 
            project has identified important trade opportunities 
            between Afghanistan and its three immediate northern 
            neighbors of Turkmenistan, Uzbekistan, and Tajikistan.
      <all>  In addition, the Bureau of International Narcotics and Law 
            Enforcement (INL)'s Central Asia Counternarcotics 
            Initiative ($7 million request in FY 2014) fosters cross-
            border counternarcotics intelligence-sharing and 
            strengthens our international partners' ability to monitor 
            goods and people crossing borders. The initiative also 
            provides support to the United Nations Office on Drugs and 
            Crime's (UNODC) programs to promote counternarcotics 
            cooperation in the region, including the Central Asian 
            Regional Information and Coordination Center.
      <all>  The President's FY 2014 budget requests additional 
            resources to promote regional economic integration in South 
            and Central Asia ($18.5 million in FY 2014). These funds 
            will be used to increase trade and investment; improve 
            transit; advance cooperation on energy trade; promote 
            effective management of natural resources across the 
            region; and develop sustainable people-to-people 
            constituencies for regional engagement.

    Afghanistan is central to all of these efforts. Our infrastructure 
investments in Afghanistan are helping provide the linkages to promote 
commerce between Afghanistan and Central Asia. Our capacity-building 
efforts in key Afghan ministries are providing Afghans with the tools 
and skills to negotiate successful transit-trade agreements (or 
implement existing ones) with their regional partners. We have also 
invested heavily in rehabilitating the Afghan electrical grid, 
facilitating the purchase and effective distribution of Central Asian 
electricity throughout Afghanistan. Our cross-border training programs 
in Tajikistan will empower border guards from both Afghanistan and 
Tajikistan to cooperate for the security of both countries.
    Our cross-border programs have made real progress. Our targeted 
assistance has advanced technical understanding of large-scale energy 
projects such as CASA-1000, which would enable Kyrgyzstan and 
Tajikistan to sell their hydropower to Pakistan, via Afghanistan. We 
have facilitated energy trade between Uzbekistan and Afghanistan, and 
between Tajikistan and Afghanistan's northern border region. For 
example, in partnership with the Aga Khan Development Program's Pamir 
Energy project, we have supported the installation of new transmission 
lines which are powering two villages, businesses, and government 
buildings in Afghan Badakhshan. Power links to a third Afghan village 
will be completed this summer. Associated training of engineers to 
maintain the new lines is also taking place. U.S. assistance to small 
and medium-sized enterprise development, agricultural production water 
management, and vocational training are also beginning to expand 
Afghanistan's economic ties with Central and South Asia, which we plan 
to build on with our FY 2014 request.
    Women's economic empowerment, in particular, has been a cross-
cutting priority, and in 2011 we hosted over a hundred dynamic women 
business leaders from across Central Asia at the Women's Economic 
Symposium (WES) in Bishkek, including then Kyrgyz Republic President 
Roza Otunbayeva. The participants developed a roadmap to increase 
women's entrepreneurship and regional trade, and we are now supporting 
a range of follow-on activities, including a Central Asia-Afghanistan 
Women's Business Association, proposed by WES participants. Through 
this diplomatic and programmatic initiative thus far, women have 
started an impressive 141 businesses and expanded 57 existing 
businesses thus far. SCA is currently funding an independent evaluation 
of the WES and will use the results to inform the design of future 
programs, including increasing participation by women in trade and 
building stronger links between women leaders in Central and South 
Asia.
    We understand that our ``New Silk Road'' vision and regional 
integration efforts will only succeed if the countries of the region 
and international development banks take a leading role. Between fiscal 
years 2010 and 2014, estimated outlays from other donors, such as the 
Asia Development Bank and the World Bank, in support of energy 
transmission lines, hydropower plants, and reforms have totaled more 
than $2 billion.

    Question #31. Congress approves money for seven programs that 
benefit the Tibet people, both inside Tibet and in exile. Among these 
are Tibetan language broadcasts by Voice of American and Radio Free 
Asia, which are one of the only sources of information to Tibetans 
living under a smothering Chinese censorship regime.

  <bullet> Do you agree that the relatively small amount spent on Tibet 
        programs reaps a large dividend for Tibetan communities trying 
        to preserve their culture, religion, and identity?

    Answer. U.S. funding for the Voice of America (VOA) and Radio Free 
Asia (RFA) programs supports the mission to inform, engage, and connect 
people around the world. The Broadcasting Board of Governors (BBG), a 
U.S. independent federal agency, oversees the operations of VOA and 
RFA. BBG promotes the broadcasting of accurate, objective, balanced 
news and information about the United States and the world. VOA and RFA 
English and Tibetan language broadcasts reap a large dividend for 
Tibetan communities trying to preserve their culture, religion and 
identity. These broadcasts clearly advance U.S. policy and interests.
    In accordance with the Tibetan Policy Act of 2002, the Department 
of State is continuously working in other ways as well to promote the 
policy of seeking to protect the distinct religious, cultural, and 
linguistic identity of Tibetans. Our various Tibet programs, 
implemented by the bureaus of Educational and Cultural Affairs (ECA), 
Population Refugees and Migration (PRM), Democracy Human Rights and 
Labor (DRL), and by USAID, promote activities that preserve cultural 
traditions, enhance sustainable development, expand economic 
opportunities and support environmental conservation, health care and 
education within Tibetan communities inside Tibet and for Tibetans in 
India, Nepal, and Bhutan. We continue to increase our people-to-people 
exchanges with China, and actively seek to include Tibetans in a 
variety of these exchanges, including the International Visitors 
Leadership Program. The Tibet Scholarship Program supports eligible 
Tibetan refugees residing in India, Nepal, and Bhutan. Our programs 
benefit the Tibetan people, both inside Tibet and in exile, and promote 
the protection of Tibetans' distinct cultural, religious and linguistic 
identity in accordance with U.S. policy.

    Question #32. The FY14 budget for core global climate change 
funding is roughly 2 percent lower than FY12 enacted.

  <bullet> Can you please explain the drop in funding requested for the 
        sustainable landscapes pillar?
  <bullet> Can you also discuss what types of programs the increase in 
        clean energy funding will support?
  <bullet> Please also discuss how the State Department plans to engage 
        and/or leverage the private sector in the programs and efforts 
        undertaken to address global climate change.

    Answer. Sustainable Landscapes (SL) remain a priority for the 
Global Climate Change Initiative (GCCI). The potential for sustainable 
land use to mitigate climate change is enormous: Nearly one-third of 
global greenhouse gas emissions come from the land sector, especially 
from deforestation and agriculture. Just as important, sustainable 
landscapes provide other benefits, including biodiversity conservation, 
regulation of water and nutrient cycles, and livelihoods for billions 
of people.
    The overall portion of funding for each GCC pillar varies from year 
to year for a number of reasons. The FY 2014 request is $123.5 million 
for State and USAID SL programming, compared with the $136.5 million 
figure that was enacted in FY 2012, but this should not be taken as a 
predictor of future requests. Since many SL programs are multiyear, the 
decline in FY 2014 should not affect the ambitious level of work on the 
ground, supporting partners around the world in improving their land 
use, and protecting their forests and other natural resources.
    The FY 2014 request for State and USAID Clean Energy (CE) programs 
is $171.5 million, compared with the $160.5 million figure enacted in 
FY 2012. FY 2014 CE funding will build on, replicate, and extend the 
types of CE activities developed through the GCCI over the past few 
years. These projects are designed with the intention of transforming 
energy markets in order to increase the diffusion of commercially 
driven clean energy technologies and practices. GCCI CE funding serves 
to construct the institutional scaffolding and organizational 
capabilities at the bilateral and plurilateral levels, working in 
collaboration with key public and private sector participants.
    Specific projects seek to introduce policy and regulatory 
structures that have been proven to catalyze private sector financing 
and project development within the United States and other developed 
countries. On the energy demand side, focal areas range from industrial 
energy efficiency and appliance efficiency standards and labels to 
building code design and utility demand-side management. With respect 
to CE supply efforts, State and USAID work on the entire suite of 
renewable energy technologies and the necessary finance, policy and 
regulatory models that will facilitate their diffusion and adoption.
    State and USAID's GCCI FY14 budget request will support programs 
that leverage and mobilize private investment to address climate 
change. The funding will support programs in developing countries that 
aim to build reliable national climate change policies that attract 
private investment in low-carbon, climate-resilient infrastructure; 
support efforts that close the financing gap for renewable energy 
projects in sub-Saharan Africa (helping to get such projects to a 
commercially bankable stage); and support partnerships that foster 
collective innovation and piloting of market-based instruments for GHG 
emissions reduction, that encourage private sector involvement and 
financing.

    Question #33. This past year saw a significant growth in countries 
joining the Climate and Clean Air Coalition, a partnership aimed at 
reducing emissions from pollutants that have significant harmful 
effects on public health and climate change.

  <bullet> Please discuss what steps will be taken this coming year to 
        continue this momentum and how this initiative interacts with 
        related efforts, specifically the U.S. efforts under the 
        Montreal Protocol negotiations and within the Arctic Council.

    Answer. In just over 1 year, the Climate and Clean Air Coalition 
(CCAC) has grown from 6 to 31 countries (with over 60 total partners) 
and raised pledges for funding from 9 countries, totaling over $40 
million. The CCAC is translating this commitment of human capital, 
political will, and financial resources into emissions mitigation 
actions for short-lived climate pollutants (SLCPs) at the national, 
regional, and global level, including through nine sectoral 
initiatives. These initiatives, in areas such as municipal solid waste 
management, heavy-duty diesel engines, oil and gas production, and 
brick kilns, are implementing workplans funded by the CCAC's trust 
fund, staffed by CCAC partners, and designed to achieve the engagement 
and buy-in of key stakeholders in the public and private sectors and 
provide the technical and other resources necessary to effect large-
scale change. The CCAC is also working with countries such as Mexico, 
Ghana, Bangladesh, and Colombia to develop government-endorsed SLCP 
action plans; with the World Bank and other development institutions to 
pursue private sector financing arrangements for SLCP mitigation; and 
to build regional communities of practice in Africa, Asia, and Latin 
America to address SLCPs in ways that integrate their treatment with 
other development priorities.
    The CCAC will continue recruiting additional strategic partners and 
coordinating with important forums such as the Arctic Council and 
Montreal Protocol. In the Arctic context, seven of eight Arctic Council 
countries are CCAC partners, and new efforts in the Council to address 
black carbon and methane are modeled after and consonant with the work 
of the CCAC. As these efforts unfold, the CCAC and the Arctic Council 
will seek to be mutually reinforcing. With relation to the Montreal 
Protocol, the CCAC has a hydrofluorocarbon (HFC) initiative that is 
working on enabling climate-friendly technology in HFC-intensive 
sectors such as refrigeration and air conditioning, areas covered by 
the Montreal Protocol and the proposed HFC phasedown amendment. The 
CCAC HFC initiative is a complementary, voluntary approach that 
supports the Montreal Protocol amendment efforts. The CCAC is also 
seeking to partner with on-the-ground implementers and financiers such 
as the World Bank and regional multilateral development banks to 
broadly target SLCP reduction opportunities in their lending 
portfolios.

    Question #34. The United States and China are the two largest 
emitters of greenhouse gases. Their collaboration and leadership are 
critical for progress in addressing global climate change. As you know, 
the Climate Change Working Group with China is a means to advance 
cooperation between the two countries on technology, research, 
conservation and alternative and renewable energy. In addition, the two 
countries have established an effective relationship through a variety 
of organizations, including the U.N. Framework Convention on Climate 
Change, Major Economies Forum, Clean Energy Ministerial, among others.

  <bullet> How will the Climate Change Working Group build on previous 
        collaborative commitments between the two countries on climate 
        change?
  <bullet> How do you plan to work with private sector, nongovernmental 
        groups, and other key stakeholders in these efforts?

    Answer. The United States-China Joint Statement on Climate Change 
acknowledges the ``significant and mutual benefits of intensified 
action and cooperation on climate change.'' Our existing collaboration 
provides a strong foundation upon which to base new and expanded 
climate action. The Climate Change Working Group therefore has begun 
its task by taking stock of the work already underway between our two 
countries, in order to identify areas where those efforts might be 
effectively scaled up or improved upon. The Group is also working to 
identify potential new areas for cooperation. The recommendations of 
the Working Group will be presented to the fifth U.S.-China Strategic 
and Economic Dialogue in July.
    In developing its recommendations, the Working Group is consulting 
with a variety of stakeholders--from both the private sector and from 
nongovernmental organizations.

    Question #35. In 2012, the United States joined Colombia and other 
Western Hemisphere countries in ``Connect 2022,'' an initiative to 
collaborate on energy access by achieving universal access to 
electricity through enhanced electrical interconnections, power sector 
investment, renewable energy development and cooperation by 2022. 
Connect 2022 aims to provide reliable, clean, and affordable 
electricity to the hemisphere's 30 million people currently without it.

  <bullet> What progress has been made in the 2 years since this 
        initiative's start to 
        increase energy access to this region? What are the challenges 
        to fulfilling this goal?

    Answer. The Connecting the Americas 2022 Initiative (Connect 2022) 
was launched during the Sixth Summit of the Americas in April 2012 by 
Colombia, with support from the United States. Prior to the Initiative 
being launched, the Western Hemisphere had made significant progress to 
integrate power sectors and promote cross-border trade in electricity 
with support from the Inter-American Development Bank (IDB), World 
Bank, Organization of American States (OAS), other donors, and private 
companies. While interconnection efforts have advanced in other regions 
of the Western Hemisphere (detailed below), U.S. Government efforts in 
the first year of Connect 2022 are focused on the Mesoamerican region 
that includes Mexico, Central America, and Colombia.
    Due to the efforts of the Central American Electrical 
Interconnection System (SIEPAC) project, a power line from Guatemala to 
Panama is nearly complete, regional institutions to govern the regional 
electricity market have been established, and political will is growing 
in support of regional electricity trade. However, achieving the full 
benefits of Mesoamerican power sector integration is hindered by the 
lack of a functioning regional electricity market. Electricity demand 
in the region is growing between 5-8 percent annually, which will 
require an estimated $25 billion USD in power sector investment by 
2030, according to the World Bank. Success here benefits both the 
United States and our partners in the region through greater private 
sector investment, economic competition, and renewable energy 
integration. When the region adopts the regulations needed to encourage 
more private investment, U.S. clean energy exporters, power companies, 
and service providers will be ready to play a leading role, and U.S. 
finance agencies are able to support these investments.
    In addition to the Mesoamerican region, high-level policy 
discussions occurred at the subregional level for North America, the 
Andes with Chile, the Southern Cone, and the Caribbean. In North 
America, Canada, Mexico, and the United States already trade power 
through existing electrical interconnections. Colombia leads the 
regional power integration efforts in the Andean region with Chile, an 
effort we and the IDB strongly support. Finally, while the Caribbean 
faces geographic challenges to interconnection, they recognize the 
value of integrating a greater proportion of locally sourced renewable 
energy into their matrix. The Department of State and World Bank 
supported feasibility studies to help inform ongoing dialogues in the 
Caribbean.
    These discussions are essential to identify and address the policy, 
market, and regulatory challenges that currently prevent productive 
interconnection and limit power trade, which if overcome, would help 
attract the more than $1.4 trillion needed (according to the 
International Energy Agency) in private investment by 2035 in the power 
sectors of the Western Hemisphere (excluding the United States) and 
create significant commercial opportunities for U.S. private companies.

    Question #36. The Bureau of Conflict and Stabilization Operations 
(CSO) played significant roles in U.S. support for South Sudan's 
referendum and Kenya's elections. What do you see as the role and 
primary added value of CSO? The Budget Request foresees some half dozen 
high-impact engagements, 10-15 medium-sized technically focused 
engagements, and additional deployments to embassies as resources 
permit.

  <bullet> What factors will guide decisionmaking on the tension 
        between high-impact engagement and being able to contribute in 
        a large number of situations?

    Answer. The Bureau of Conflict and Stabilization Operations (CSO) 
executes the State Department's core mission of conflict prevention and 
crisis response. Through an agile approach, collaboration with local 
and international partners, and a focus on impact, CSO brings coherence 
and effectiveness to U.S. engagement in priority countries. CSO is an 
example of high-impact, low-cost work we do every day to make the world 
safer.
    To focus impact where it is needed most, CSO evaluates potential 
country or regional engagements in light of specific criteria: U.S. 
national security interests, urgency for action, and opportunities for 
impact within 12 to 18 months. We aim to (1) select places that matter 
to the United States; (2) make sure the time is right; and (3) 
determine that CSO can make a difference on one of the two or three 
major challenges in that place.
    For FY 2013, the Bureau is engaged in 1 major crisis (Syria), 3 
large projects (Kenya, Honduras, and Burma) and at least 10 medium-
sized projects. CSO's efforts to help prevent election violence in 
Kenya were concluded successfully on May 1, 2013, and all CSO personnel 
have departed the country. CSO is now in the process of identifying and 
selecting several new major projects for early FY 2014. To do our 
current work in FY 2013 and prepare for additional efforts in outyears, 
CSO leveraged a base operational budget of approximately $46 million 
and roughly $35 million in foreign assistance assembled from 
nonrenewable resources (such as the section 451 and section 1207 
programs).
    While the conflict landscape and CSO's engagement portfolio will 
change, historical patterns leave little doubt that ongoing needs will 
exist. Consequently, we have requested $45 million for a base 
operational budget in FY 2014. If we can make the small, smart 
investments up front, then I believe we avoid more costly conflicts, 
and greater burdens down the road.

    Question #37. Over the last several fiscal years, the 
administration's request for basic education has plummeted. 
Specifically, the administration's FY14 budget proposal was to cut the 
international basic education account by $299 million from fiscal year 
2013-enacted funding levels, a severe 37 percent decrease, and has 
plummeted by nearly half since the enacted level in fiscal year 2010. 
At your swearing in ceremony as Secretary of State, you recognized one 
of the agency's roles to be helping provide quality basic education for 
children in emergencies and for improving access to education for girls 
around the world.

  <bullet> What assurances can you give that the administration will 
        reverse the recent decreases in funding and prioritize 
        resources toward basic education in order for the State 
        Department to fulfill its role?

    Answer.
      <all>  The FY 2014 request for education is $723.3 million, which 
            includes $501.4 million for basic education and $221.9 
            million for higher education.
      <all>  Education is a foundation of human development and 
            critical to broad-based economic growth. Increasing access 
            to education in crisis and conflict environments is a key 
            component of achieving long-term stability.
      <all>  As laid out in the USAID education strategy, issued 
            February 2011, we aim to improve reading skills for 100 
            million children in primary grades and to increase 
            equitable access to education in crisis and conflict 
            environments for 15 million learners by 2015.
      <all>  The decrease in basic education funding in the FY 2014 
            request should not suggest a decrease in our commitment to 
            international education efforts. Rather, the key drivers 
            for the reduction are (1) efforts to concentrate activities 
            in the highest priority areas of USAID's Education Strategy 
            and in a more focused number of countries where we feel 
            U.S. assistance can have the most impact in the education 
            sector; and (2) general reductions in the frontline states.

          <star>  In FY 2012, the Frontline States represented over 26% 
            of the basic education funding. As overall assistance 
            levels for Frontline States decreases in FY 2014, our large 
            requests for basic education funding in these countries 
            also go down.

      <all>  We are firmly committed to using foreign assistance 
            resources in a manner that is strategic and impactful. In 
            today's fiscal environment, we have to make tough tradeoffs 
            to fund programs where we believe U.S. foreign assistance 
            can most contribute to a country's overall development and 
            stability.
      <all>  Broadly speaking, investments in youth are broader than 
            basic education. In FY 2012, U.S. assistance includes an 
            estimated $149 million for youth programming, cutting 
            across areas in education, health, social services, and 
            assistance for especially vulnerable children.

    Question #38. In July 2012, the Azerbaijani State Civil Aviation 
Administration said in a statement that planned flights between 
Stepanakert and Yerevan would represent an invasion of Azeri airspace 
and ``taking corresponding measures in connection with that is 
inevitable.''

  <bullet> What has the United States done to prevent Azerbaijan from 
        committing provocative acts against civil aviation? What 
        consequences would Azerbaijan face if they threatened a 
        civilian aircraft?

    Answer. As a Cochair of the Organization for Security and 
Cooperation in Europe (OSCE) Minsk Group, along with Russia and France, 
the United States remains committed to helping the sides find a 
peaceful solution to the Nagorno-Karabakh conflict. I have discussed 
the issue of civil flights to Nagorno-Karabakh with the governments of 
Armenia and Azerbaijan at the highest levels. The Minsk Group Cochairs 
are working to help the sides find a means of resolving this issue 
diplomatically, and have received assurances from the sides that they 
will reject any threat or use of force against civil aircraft. We 
remain concerned about any action that could fuel tension in the region 
or threatens to damage the peace process.

    Question #39. Members of the international community have 
repeatedly called for the withdrawal of snipers from the Armenian-
Azerbaijani line of contact. What's the status of international efforts 
to accomplish this? Is it true that the Azeri Government has refused?

    Answer. The United States, Russian, and French Cochairs of the OSCE 
Minsk Group are working to help the sides reduce tension in the region, 
and over the years they have proposed a number of confidence-building 
measures that would reduce violence and improve the climate for 
negotiations. Their longstanding proposal to withdraw snipers is one 
such measure; they noted with regret in March 2011 that it had not been 
implemented, and they continue urging the sides to consider such ideas. 
In their June 2012 statement on the Nagorno-Karabakh conflict, the 
Presidents of the United States, the Russian Federation, and France 
reiterated the need for the sides to ``respect the 1994 cease-fire 
agreement, and abstain from hostile rhetoric that increases tension.'' 
We remain committed to helping the sides find a peaceful resolution to 
this conflict, and will continue to pursue measures that could bring 
the sides closer to making this a reality.

    Question #40. The religious freedom of the spiritual head of the 
second-largest Christian Church in the world, Ecumenical Patriarch 
Bartholomew, has been severely constrained by the Government of Turkey. 
Secretary Hillary Clinton put particular effort into urging Turkey to 
allow the Church's seminary at Halki to reopen. On a number of 
occasions during her term as Secretary of State, she was led to believe 
that the seminary was on the verge of being reopened. The Bush 
administration was also led to believe this through public statements 
made by Turkish Government officials.

  <bullet> Will you continue to press Turkish authorities to reopen 
        Halki?

    Answer. The United States fully supports efforts to reopen Halki 
Seminary, a vital institution of spiritual learning for Orthodox 
Christians around the world. We will continue to urge the Government of 
Turkey at the highest levels to reopen the seminary as a symbol of its 
commitment to religious freedom. I raised this issue with Foreign 
Minister Davutoglu during a visit to Istanbul April 21 and met 
separately with Ecumenical Patriarch Bartholomew I to underscore our 
commitment to Halki's reopening and the rights and status of the 
Patriarchate in Turkey. The Ambassador and officers from the U.S. 
Embassy and Consulate General also engage on this issue on a regular 
basis.
    Though incremental, some progress has occurred. The Turkish 
Government's return of property surrounding the Seminary to the Church 
in January was a positive step, and the current constitutional 
redrafting process is encouraging an unprecedented dialogue on 
individual rights and religious freedom. We will continue to encourage 
the Government of Turkey to work cooperatively with the Ecumenical 
Patriarchate to pass legislation and overcome political roadblocks that 
are hindering the reopening of this historic institution. We will also 
encourage Turkey to take additional steps to promote religious freedom, 
such as allowing more religious communities to own property, register 
their places of worship, and train their clergy.

    Question #41. Should American policy stay silent on Turkey's 
transfer of what they claim are hundreds of thousands of Turks to 
Cyprus in an apparent effort to alter the demography of that country?

    Answer. Any comprehensive settlement plan will need to take into 
account issues of citizenship and residency on the island. I believe 
that a settlement plan dealing with these and other questions needs to 
be worked out between the communities, with United Nations support, and 
needs to be acceptable to majorities in both of the island's 
communities. I strongly support the settlement process, which is the 
only practical way to resolve the many critical issues between the 
communities.

    Question #42. The Turkish Foreign Minister recently sent you a 
letter regarding the Cyprus question. During your recent meetings in 
Turkey, Mr. Secretary, did you discuss the Cyprus question with Turkish 
officials? Did you convey that U.S. policy still continues to support 
the solution of a bizonal, bicommunal federation in Cyprus, based on 
U.N. Security Council resolutions?

    Answer. In my recent meetings with Turkish officials, I discussed a 
range of pressing issues, including Cyprus. I expressed my support for 
the reunification of Cyprus as a bizonal, bicommunal federation, which 
has been the longstanding policy of the United States, consistent with 
United Nations Security Council resolutions.

    Question #43. Significant natural gas finds off the coast of the 
Republic of Cyprus could contribute to the European Union's plans for 
energy diversification and future energy security. Do you continue to 
support the right of Cyprus to explore for natural gas in its exclusive 
economic zone (EEZ)? Are you concerned about threats by other countries 
to interfere in such exploration?

    Answer. I support Cyprus' right to explore for energy in its 
offshore areas. Disputes over energy exploration in Cyprus must 
ultimately be resolved through the negotiation process, under U.N. 
auspices, to reunify the island. Such a settlement will help to 
strengthen regional stability as it would facilitate the normalization 
of relations between Cyprus and Turkey. I believe that the island's oil 
and gas resources, like all of its resources, should be equitably 
shared between both communities in the context of an overall 
settlement.

    Question #44. U.S. policy has always supported a solution to the 
Cyprus question that involves a bizonal, bicommunal, reunified Cyprus. 
I am concerned that funds used for bicommunal programs on Cyprus have 
been obligated without appropriate advanced notification to and 
consultation with the Government of the Republic of Cyprus. How can we 
work to address this issue and ensure that USAID funding is working in 
concert with U.S. policy?

    Answer. Every activity implemented with U.S. funding in Cyprus is 
designed to help Greek Cypriots and Turkish Cypriots chart a path to 
peace and reunification in line with the congressional mandate.
    The United States is committed to consultation and transparency 
with the Government of the Republic of Cyprus on our foreign assistance 
program. We have and will continue to be transparent and sensitive to 
issues raised by the Republic of Cyprus. Likewise, we will continue to 
consult with and be sensitive to the concerns of the Turkish Cypriot 
community.
    That said, for the U.S. foreign assistance program to be effective, 
neither side can be allowed to make funding decisions reserved for the 
U.S. Government. Indeed, it would contravene current congressional 
report language directing that the organizations implementing the U.S. 
foreign assistance program, as well as the specific nature of that 
assistance, not be subject to the prior approval of any foreign 
government.

    Question #45. During Secretary Hillary Clinton's final public 
remarks she noted the importance of an effective and up-to-date 
Broadcasting Board of Governors. While broadcast entities like Radio 
Free Asia and Voice of America clearly do important and meaningful work 
on a tight budget, it is also undeniable that the organizational 
structure of the Broadcasting Board of Governors is in need of reform. 
The FY 2014 budget request includes a legislative proposal to establish 
a chief executive officer for all civilian U.S. international media, a 
reform that was also encourage in the Office of Inspector General's 
recent report.

  <bullet> Do you think there is more that should be done to modernize 
        the Broadcasting Board of Governors and enhance the ability of 
        its entities to inform and engage people around the world in 
        support of freedom and democracy?

    Answer. The Department of State fully supports the creation of a 
chief executive officer (CEO) position for United States International 
Broadcasting, as presented in the administration's budget for fiscal 
year 2014. This move to improve the management and efficiency of 
Broadcasting Board of Governor (BBG) operations was unanimously 
supported by the members of the BBG in January 2012, and the Department 
of State's Office of the Inspector General underscored the importance 
of such an action in a report issued this past January.
    Under this plan, the CEO will be chosen by and report to a BBG 
board that is appointed through the White House and confirmed by the 
Senate, with the Secretary of State continuing as an ex-officio member. 
The CEO will provide critically important day-to-day executive 
leadership for U.S. international broadcasting, and will have 
management authority over the Federal and non-Federal elements of U.S. 
international broadcasting. The Broadcasting Board of Governors would 
continue to set the strategic direction of U.S. international 
broadcasting, as well as evaluating its journalistic quality and 
maintaining its journalistic integrity.
    The Broadcasting Board of Governors also needs to be at full 
membership. It has been without a chair for more than a year. A nominee 
for the BBG Board chairman and another Governor are now before the 
Senate, and their confirmation without delay will provide an important 
step in restoring the Board to full strength.
    Our international media operations are an important part of U.S. 
foreign policy. Their mission--to inform, engage, and connect people 
around the world in support of freedom and democracy--remains a 
critical element for achieving our foreign policy and national security 
objectives. I remain committed, both as Secretary and as a member of 
the Broadcasting Board of Governors, to ensuring that our international 
media operations have the leadership, structure, and clear vision 
needed to fulfill their vital mission on behalf of the American people.

    Question #46. The FY 2014 budget request includes $104 million, 
across a number of bureaus, to support State Department's efforts to 
Counter Violent Extremism (CVE).

  <bullet> What mechanisms are in place to ensure that CVE efforts are 
        coordinated across the Department and is there a standardized 
        approach to evaluating and measuring the success of specific 
        programming initiatives?

    Answer. The Quadrennial Diplomacy and Development Review (QDDR) 
gave State's Counterterrorism (CT) Bureau the lead on countering 
violent extremism (CVE) efforts. CT was instrumental in reviewing the 
programmatic attributions that comprised the $104 million level in the 
FY 2014 budget request. CT coordinates closely with other bureaus and 
offices which implement projects with CVE effects. These include the 
Center for Strategic Counterterrorism Communication (CSCC), Bureau of 
Democracy, Human Rights, and Labor (DRL), the Office of the Special 
Representative to Muslim Communities (SRMC), and key regional bureaus, 
primarily through their public diplomacy offices.
    The CT Bureau helps to ensure CVE efforts are coordinated across 
the Department by: (1) meeting frequently with these, and other, 
bureaus and offices to coordinate and collaborate on CVE and CVE-
relevant programming in specific countries or on particular issues; and 
(2) coordinating Department participation in quarterly data calls by 
the National Counterterrorism Center (NCTC), which collects information 
on interagency CT and CVE-relevant programming. CT has played a leading 
coordination role for the Department when it comes to specific CVE 
interagency efforts or guidance from the National Security Staff (NSS).
    More broadly, the Department's new ``J Family''--of which the CT 
Bureau is a part and which reports to the Under Secretary for Civilian 
Security, Democracy, and Human Rights--helps to align CVE-relevant 
efforts when multiple J stakeholders are involved. Also, the Under 
Secretary for Public Diplomacy and Public Affairs leads a biweekly CVE 
communications coordination meeting that includes senior CSCC and CT 
Bureau staff.
    The Department has also implemented a rigorous evaluation policy 
requiring that all large programmatic efforts be evaluated. 
Unclassified evaluation reports will be posted to a new Department Web 
site (under construction) to assure transparency. We will continue to 
prioritize transparency and accountability efforts to ensure U.S. 
taxpayers can have easy access to information showing how U.S. foreign 
assistance funds are spent.
    Within the CT Bureau, the CVE Program has a results-based 
monitoring and evaluation framework to account for projects meeting its 
three objectives: (1) providing positive alternatives to populations 
most at-risk of radicalization and recruitment; (2) countering violent-
extremist narratives and views; and (3) building partner-nation (both 
government and civil-society) CVE capacities. The CVE Program draws on 
broader types of CVE-relevant metrics and tailors them to its specific 
projects. The CT Bureau participates actively in the work of the Global 
Counterterrorism Forum CVE Working Group's work stream on measurement 
and evaluation to define replicable international good practices in CVE 
evaluation and assessment.
    Within the Department, all bureaus and offices provide the Office 
of the Director of Foreign Assistance Resources standardized reporting 
on their programming objectives, progress and results. Last, the CT 
Bureau reviews all CVE program attributions across State and USAID and 
advises the Office of the Director of Foreign Assistance whether these 
programs are being accurately attributed to CVE goals.

    Question #47. Prior to the coup in 2012, Mali was viewed by many as 
a democratic success. Given the events of the past year, was that 
assessment accurate and if not, did the international community miss 
specific signs of impending instability?

    Answer. Mali made substantial progress in democratizing over the 
last 20 years, and power was successfully transferred through national 
elections in 1992 and 2002, but it is still a relatively fragile state 
in a region facing many challenges. Mali is one of the poorest 
countries in the world, and has suffered from repeated humanitarian 
crises. Adding to this vulnerability has been the longstanding conflict 
with the Tuareg and other nonextremist groups in northern Mali with 
legitimate political and socioeconomic grievances. More recently, Mali 
has been affected by the serious instability that emerged from Libya's 
revolution and regional terrorism. We will continue our focus on 
strengthening and deepening democratic institutions, boosting broad-
based economic growth, advancing peace and security, and promoting 
opportunity and development in Mali. It is important to note that 
success in these objectives is critical to our counterterrorism goals 
in the region.

    Question #48. U.S. officials have urged Mali to organize a peace 
process and hold elections as part of the transition to a more 
legitimate government. What is the U.S. Government doing to support the 
preparations for elections and what are the long-term plans for helping 
the Malians build institutional capacity?

    Answer. The transitional Malian Government has pledged its 
commitment to hold inclusive, democratic elections in July. While much 
work remains to ensure adequate preparation for the elections, the 
United States is committed to supporting the Malian Government's 
efforts to hold elections on schedule.
    Working with our international partners, we continue to urge the 
transitional Malian Government to press ahead with its efforts to 
update its voter list, register voters in refugee camps and among 
internally displaced populations, set up polling stations, and address 
the other challenges that remain in organizing elections. Mali is still 
subject to the post-coup legal restriction in section 7008 of the 
Department of State, Foreign Appropriations, and Related Programs 
Appropriations Act for 2012, which restricts assistance to the 
government. This restriction will remain in effect until the Secretary 
determines and certifies to the Committees on Appropriations that a 
democratically elected government has taken office in Mali. In the 
meantime, we have continued democratic elections support programming, 
which is exempt from the legal restriction. We are providing technical 
and other support to elections efforts in Mali, which includes more 
than $6 million in electoral programming that we will provide to 
support progress on key issues such as voter education, technical 
assistance and training to the electoral management bodies, and 
national reconciliation. We are also actively encouraging the 
governments of neighboring countries hosting Malian refugees to 
cooperate fully with the transitional Government of Mali officials as 
they seek, with assistance from relevant international organizations, 
to register voters and establish polling stations in refugee camps to 
ensure that displaced Malians have the opportunity to vote in the 
upcoming elections.

    Question #49. The U.S. State Department's ability to respond to 
urgent, unexpected TIP situations has been described as ``uneven.'' 
Beyond crises, the Department receives frequent requests for assistance 
in drafting antitrafficking legislation, training law enforcement, and 
establishing shelters, often from countries that want to respond to the 
concerns identified in the annual TIP Report but that lack expertise or 
resources to do so. The recent reauthorization of the TVPA includes a 
provision that gives the U.S. State Department J/TIP Office the 
authority to establish a program in order to respond in these urgent 
situations.

  <bullet> How will funding from appropriations be focused on building 
        the ability to respond quickly with core expertise to urgent, 
        unexpected trafficking in persons situations?

    Answer. J/TIP's current programming model includes funds dedicated 
to providing targeted support to governments with identified needs to 
combat trafficking in persons (TIP) but that lack the resources or 
expertise to meet those needs. We currently provide funding to 
organizations with core antitrafficking expertise. For example, we 
support the work of the United Nations Office on Drugs and Crime 
(UNODC), the International Organization for Migration (IOM), and the 
Warnath Group, as part of a program to provide short-term emergency 
training and technical assistance (T/TA) focused on enhancing the 
capacity of governments to combat TIP. The Department works closely 
with U.S. Embassy counterparts and these organizations to ensure that 
the T/TA provided is targeted, tailored, and responsive to actual 
needs. Initial results from these interventions suggest that this type 
of assistance may be an important precursor to more sustained 
government support for longer term bilateral programs. Our T/TA is 
narrowly targeted and usually provided in response to a direct 
government request, and to date has produced the intended results.
    In response to the very high demand for this type of assistance, we 
intend to align our budget to focus more on global training and 
technical assistance awards (particularly in FY 2013 and FY 2014), and 
award fewer longer term bilateral awards. In the meantime, we are 
working with our providers to enhance their ability to respond to 
urgent needs and reduce the turnaround times for service delivery.
    Presently, the demand for training and technical assistance creates 
a particularly significant challenge within the current constrained 
budget environment, and can impede our ability to respond nimbly in 
crisis situations. The success of our work in Haiti, for example, was 
possible through the urgent reprogramming of prior-year funds and the 
receipt of funds from a supplemental appropriation. In creating a 
program to respond to urgent, unexpected trafficking situations, we 
will make every effort to keep funds available to provide swift 
assistance that may save lives and create the conditions for a more 
sustained response to the issue.
    At the same time, the existing T/TA work we are doing is 
establishing frameworks that will enable governments not currently 
faced with crisis situations to better respond when unexpected 
trafficking emergencies arise. This targeted assistance complements 
another program that we operate through IOM to provide emergency direct 
assistance for trafficking victims overseas.
    Aside from enhancing our T/TA program, J/TIP is also working with 
others in the Department to improve strategic planning for implementing 
the 2013 TVPRA provision for meeting urgent human trafficking needs in 
a coordinated and systematic way.

    Question #50. The U.S. State Department is viewed as a global 
leader to combat trafficking in persons, in large part due to the TIP 
Report's ability to positively influence foreign governments to adopt 
and implement antitrafficking initiatives.

  <bullet> Given its limited resources, how does the J/TIP Office plan 
        to utilize its funding to institutionalize antitrafficking 
        policies, procedures, and practices and to ensure that the 
        United States remains a leader on these issues?

    Answer. J/TIP operates in conformity with the Department's goals by 
funding programming that focuses on building institutional capacity and 
sustainability beyond USG intervention. J/TIP leverages support from 
non-USG resources to magnify the impact of our resources and to avoid 
duplication of effort. For example, in Jordan, J/TIP contributed 
funding toward victim care in a cost-sharing agreement that included 
requiring the Government of Jordan to contribute a significant amount 
of funding.
    J/TIP also continues to build the capacity of antitrafficking NGOs 
through monitoring and technical assistance (TA). J/TIP is currently 
funding evaluation experts to provide targeted TA to grantees on data 
collection. For example, in Nepal J/TIP funded the American Bar 
Association to build a database system for the Attorney General's 
office to track and share information on TIP cases.
    In addition, J/TIP prioritizes activities that lead to creating 
self-sustaining antitrafficking programs or that train local staff and 
governments to themselves become trainers. Such efforts have led to 
several programs being sustained beyond 
J/TIP funding.
    Our bilateral assistance strategy is developed in conjunction with 
the Department's regional bureaus and according to funding priorities 
that heavily weigh the tier ranking and assessment of political will of 
a given country. We look for opportunities to use our limited funding 
as leverage points that will spur greater government investment in 
effort and resources to fight the crime and protect trafficking victims 
and to reward bourgeoning government efforts. Most of the projects that 
we fund include an element of direct engagement with governments, 
whether by civil society or multilateral partners.
    Additionally, we award funds to nongovernmental and public 
international organizations for 2-to-3-year projects that include 
measures designed to increase sustainability. We specifically encourage 
the submission of proposals that include strong partnerships involving 
NGOs and multilateral organizations and government agencies that 
promote sustainable institutional development and ongoing structural 
impact. We require that each applicant for funding submit a logical 
framework that describes the relationship between its goals and 
objectives, and establishes performance measurement indicators that 
focus on outcomes over outputs. We take particular note of projects 
that aim to develop and institutionalize training curricula, policies, 
procedures, action plans, and legislation that will improve 
government's response to the issue and result in lasting changes. Where 
needed, J/TIP staff work with selected applicants to strengthen this 
aspect of their project design prior to award to ensure that the 
project goals include sustainability long past the project period.

    Question #51. The U.S. State Department J/TIP Office receives 
recommendations of tier rankings in the annual TIP Report by regional 
bureaus or embassies that often prioritize issues other than the 
eradication of trafficking in persons. Antitrafficking experts have 
raised concerns about ``grade inflation'' in the tier ranking process.

  <bullet> What steps will your Office take to reduce the influence of 
        political concerns on the tier ranking system and to guarantee 
        the tier rankings reflect true antitrafficking efforts?

    Answer. We are aware of the concerns expressed about the TIP 
Report. J/TIP will continue to work collaboratively with other bureaus 
and offices within the Department to ensure the findings of the TIP 
Report are merit-based and in alignment with the requirements of the 
Trafficking Victims Protection Act of 2000 (TVPA), as amended. When 
governments do not produce results in holding those determined to be 
trafficking offenders accountable and providing comprehensive services 
to victims, these areas for improvement are documented in the report. 
Many governments--including some critics of the report--use the 
report's findings as a guide for addressing human trafficking more 
effectively. The overall positive impact and results of this report 
have been well documented.

    Question #52. The administration's budget request includes a 
request for legislation authorizing IMF reforms, including a doubling 
of the U.S. quota and reorganizing the IMF voting structure, while 
preserving the U.S. veto. My understanding is that the net financial 
commitment to the United States is zero.

  <bullet> Please elaborate on this, and please explain the importance 
        of these reforms for ensuring the stability of the 
        international monetary and financial system.

    Answer. The United States worked with its international partners in 
2010 to secure an agreement on quota and governance reforms that would 
expand core quota resources and enhance International Monetary Fund 
(IMF) legitimacy, while requiring no new resources from the United 
States and preserving our unique veto. The proposal will reduce U.S. 
participation in the New Arrangements to Borrow (NAB) by Special 
Drawing Rights 40,871,800,000 (approximately $63 billion) and 
simultaneously increase the size of the U.S. quota in the IMF by an 
equal amount. The President's budget request does not change the net 
U.S. financial participation in the IMF.
    Our investment in the IMF is safe and smart, and it is secured by 
the IMF's rock-solid balance sheet in which total assets exceed total 
credit outstanding. Our participation in the IMF is an exchange of 
equivalent assets. The U.S. reserve position is an interest-bearing and 
liquid asset, held as part of U.S. international reserves and available 
to the United States on demand.
    In order to maintain our veto power and strong leadership position 
at the IMF, it is necessary that we implement the 2010 IMF governance 
reforms and quota changes. The administration looks forward to working 
with you and Congress generally to enact this important legislation.

    Question #53. By responding to financial crises, stabilizing 
monetary and financial markets, fighting global poverty and promoting 
global growth, the IMF plays an important role in protecting U.S. 
markets and preserving American jobs.

  <bullet> Can you expound on the positive impact the IMF and other 
        International 
        Financial Institutions have on our economy and the American 
        people, and further elaborate on the ways in which the IMF 
        supports U.S. global strategic interests?

    Answer. U.S. leadership in the International Monetary Fund (IMF) 
promotes American core interests in three ways: as the first responder 
when financial crises abroad threaten jobs and growth at home, 
strengthening our national security, and designing rules for an open 
global trade and financial system.
    Protecting American Jobs and Growth.--This recovery has shown the 
close links that tie American jobs and growth to financial conditions 
abroad. When financial conflagrations hit beyond our shore, the IMF 
provides firebreaks to limit contagion while helping our trading 
partners stabilize and heal their economies. By sheltering our economy 
from headwinds abroad, the IMF helps us to cushion the impact on U.S. 
jobs, business investment, and household savings for college and 
retirement.
    Strengthening our National Security.--The IMF is an important 
partner in strengthening our national security--building the economic 
foundations for peace. The Fund's work on the ground helps prevent and 
mitigate the economic stresses and conditions that foster instability, 
extremism, and violence.
    Setting Standards for an Open, Resilient International Trade and 
Financial System.--The IMF plays a central role in setting norms and 
standards for the smooth functioning of the market-based system of 
international trade and finance that is at the core of U.S. prosperity 
and stability. When countries join the IMF, they sign up for important 
obligations that help maintain open markets and avoid beggar-thy-
neighbor policies.
    Honoring our commitments will preserve our active leadership 
position and unique veto power and allow us to continue to promote U.S. 
values and interests around the world without any new U.S. financial 
commitment to the IMF.

    Question #54. Is the administration concerned that further delay in 
approving these reforms could lead to a proliferation of side financial 
arrangements--such as the BRIC countries' recent attempt to establish a 
development bank--occurring outside the established global monetary 
system that we have great influence over?

  <bullet> Could this eventually increase global financial risk and 
        reduce the ability of the United States to respond to financial 
        crises?

    Answer. G20 leaders committed to implement the quota and governance 
reforms by October 2012. The vast majority of the IMF membership has 
now acted, and only U.S. approval is necessary for these important 
reforms to go into effect.
    As the world's largest economy, we are the only country with a veto 
to shape major IMF governance and resource decisions. We should 
carefully steward this privilege to shape the rules of the global 
economy, especially as emerging economies, like China, seek greater 
influence in the coming years.
    The 2010 quota and governance reforms involve shifting quota shares 
from smaller countries to emerging market countries, while preserving 
the U.S. veto. U.S. support for the reforms reinforces the central 
position of the IMF at a time when emerging economies explore 
establishing new and parallel financial institutions.
                                 ______
                                 

           Responses of Secretary of State John F. Kerry to 
               Questions Submitted by Senator Bob Corker

    Question #1. Is the leadership of the State Department and of USAID 
OIGs required, formally or informally, to seek approval from anyone 
outside of their respective OIG offices to fill vacancies (other than 
politically appointed positions)? If the Department requires OIG 
leadership to seek any sort of hiring approval, please provide 
additional information about the origins of this policy, and the name 
and position of all non-OIG personnel who are or ever have been 
involved in OIG hiring decisions.

    Answer. The Office of Inspector General (OIG) is not required to 
seek approval from the Department to fill its vacancies. With regard to 
any sort of hiring approval by the Department:

  <bullet> All potential employees who have been offered a position by 
        the OIG must undergo a security background investigation 
        conducted by the State Department's Bureau of Diplomatic 
        Security.
  <bullet> Senior-level employees and other employees going into filing 
        positions who are hired by the OIG must complete legally 
        required Conflict of Interest and financial disclosure 
        paperwork with the Department's Legal Adviser, Office of 
        Ethics.

These procedures are carried out in accordance with Federal laws and 
regulations.

    Question #2. In February, Department officials indicated they were 
consolidating numerous lists used by the agency to prioritize embassy 
construction, and my staff asked for this information in order to match 
that against, past, present, and planned construction projects. Please 
provide the committee with (1) the consolidated overseas post threat 
list with an adequate description explaining the nature of the threat 
and (2) a list of all current and planned construction projects 
including estimated (or actual) cost, location, dates of construction/
improvement initiation, current project status, and planned completion.

    Answer. In March 2013, the Department developed a list of high-
threat, high-risk (HTHR) posts, and the Department is reviewing HTHR 
posts for possible early execution of new building construction. The 
construction of a new Embassy or consulate compound is a complex 
process with long lead times between site acquisition, planning, 
project development, and project execution.
    We would be happy to provide you a briefing on the high-threat 
high-risk list in the appropriate setting.
    A list of current and planned new embassy/consulate construction 
projects is attached. The following acronyms are used in the attached 
list: NEC-New Embassy Compound; NCC-New Consulate Compound 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




            embassy security, construction, and maintenance

    Question #3. During the April 18, 2013, budget hearing before the 
Senate Foreign Relations Committee, you testified that an internal 
report on Department staff culpability in the attack on the U.S. 
mission in Benghazi was forthcoming to you. What is the expected date 
of completion? Will this report be made available, in an unredacted 
form, to committee?

    Answer. I will be briefed on the results of the staff culpability 
review. After that time, I will notify you of the results by letter.

    Question #4. Secretary Kerry, will you commit to providing this 
committee with all State Department Benghazi related materials provided 
to other congressional committees? Specifically, will you commit to 
providing this committee with all State Department materials, including 
cables and e-mails, related to security risks in Libya and approval and 
denial decisions with respect to security for USG facilities in Libya?

    Answer. The Department has a strong record of cooperation with this 
committee and others that are reviewing the facts and circumstances 
surrounding the September 11-12 attacks in Benghazi. As you know, the 
Department has provided access to over 25,000 pages of documents to 
date, including documents relating 
to security matters in Libya prior to the attacks. These documents 
continue to be available for review by a number of congressional 
committees, including this committee.

    Question #5. Secretary Kerry, will you commit to providing this 
committee with a copy of all interagency communications in the 
possession of the State Department related to the Benghazi talking 
points? Specifically, will you commit to providing this committee with 
all communications to and from the State Department regarding those 
talking points?

    Answer. As you know, on May 15 the White House released 100 pages 
of e-mails and other documents related to the preparation of the 
talking points provided both to Congress and to Ambassador Susan E. 
Rice in advance of her September 16, 2012, media appearances. This set 
includes the e-mails and other documents created by State Department 
personnel in connection with their participation in the interagency 
process led by CIA to prepare the talking points in question. In 
addition, on June 7 the Department produced to the House Committee on 
Oversight and Government Reform 97 pages of documents responsive to the 
committee's May 25 subpoena regarding the talking points. We are open 
to also making this set of documents available to the Senate Foreign 
Relations Committee, should the committee so request.

    Question #6. What are the six new positions that would be funded 
via the State Department's FY 2014 Embassy Security, Construction, and 
Maintenance funding request? Please provide details about (a) the 
breakdown between career and noncareer positions, (b) whether any of 
these positions will be Senior Executive Services positions, (c) which 
Bureau would receive these new positions, and (d) any proposed or known 
grade or step information for these positions.

    Answer. The six new positions are all overseas facility managers 
who will provide professional operations and maintenance support at 
Embassies in Seoul, Korea; Jakarta, Indonesia; Sanaa, Yemen; Paris, 
France; Ottawa, Canada; and Dili, Timor-Leste. These are all career 
Foreign Service positions in the Bureau of Overseas Buildings 
Operations (OBO), to be hired at the grade of FP-04 (GS-11 equivalent). 
None of the positions will be Senior Executive Service.

    Question #7. Noting the budget request for embassy construction and 
security resources, does the State Department consider the construction 
of environmentally friendly, or ``green,'' embassies or consulates to 
be of lesser, equal, or greater importance than the physical security 
needs of embassies or consulates?

    Answer. The Department's No.1 priority consideration for embassy 
construction is the safety and security of personnel. The Department 
does not consider environmental sensitivity and physical security 
mutually exclusive; we strive to design and build facilities that meet 
all security standards, incorporate industry best practices, provide 
for sustainability, and reflect the best of American architecture, 
engineering, technology and construction. The decision to use 
sustainable technology includes life-cycle cost analysis which 
considers the overall maintenance and operations cost of a building and 
the return on investment for the American taxpayer over the long run.

    Question #8. Does the State Department consider the construction of 
environmentally friendly, or ``green,'' embassies or consulates to have 
any strategic or security value?

    Answer. The State Department's Greening Initiative is separate from 
initiatives to address physical security overseas. Greening initiatives 
may enhance security as some may reduce or eliminate dependence on 
local utilities. No such initiatives will be undertaken which in any 
way undermine the safety and security of our personnel and facilities 
overseas.

    Question #9. If embassies and consulates can be constructed or 
improved for significantly less money by using resources other than 
``green'' construction materials, technology, or designs, and save 
substantial taxpayers' dollars in the process, will the State 
Department commit to doing so? If not, why not?

    Answer. OBO is committed to using designs, technologies, 
construction methods, and materials that reduce the life cycle cost of 
our buildings over its entire useful life. Sometimes this means 
spending more initially in order to achieve better performance and 
lower expenses long term.

    Question #10. Is all $250 million of the FY 2014 Embassy Security, 
Construction, and Maintenance Overseas Contingency Operations (OCO) 
funding request being dedicated to the construction of the New 
Consulate Compound (NCC) in Erbil, Iraq?

    Answer. Yes, all $250 million in OCO funding requested under the 
Embassy Security, Construction, and Maintenance account is for the 
Erbil NCC project.

    Question #11. If all $250 million of the FY 2014 Embassy Security, 
Construction, and Maintenance OCO funding request is being dedicated to 
the construction of the NCC in Erbil, Iraq, why isn't Erbil NCC funding 
included within the Worldwide Security Upgrades funding amount?

    Answer. The Department's FY 2014 Request for OCO funding reflects 
the requirements necessary to achieve key national security goals, 
which includes supporting a stable, unified Iraq. The Erbil NCC was 
identified as a priority project that facilitates the transition 
efforts and demonstrates the Department's commitment to the region. The 
request to fund the Erbil NCC with OCO is consistent with previous 
facility projects in Iraq.
    The Department recognizes that this requirement needs to be 
addressed outside of the Capital Security Cost Sharing program, which 
is funded through ESCM's enduring appropriation for Worldwide Security 
Upgrades. The Erbil NCC is analogous to projects previously funded 
under Supplemental or OCO appropriations. The request falls within the 
``Ongoing Operations'' component of the ESCM OCO appropriation to 
clarify that it is not a cost-shared project, avoiding potential 
confusion with other agencies and congressional committees. Operation 
of the current facility in Erbil is funded through D&CP OCO.
    The Department would be happy to discuss this project with you in 
the future should you need any additional information or have further 
questions on this matter.

    Question #12. If all $250 million of the FY 2014 Embassy Security, 
Construction, and Maintenance OCO funding request is not being 
dedicated to the construction of the NCC in Erbil, Iraq, what are the 
plans for the balance of the funding?

    Answer. All $250 million in OCO funding requested under the Embassy 
Security, Construction, and Maintenance account is for the Erbil NCC 
project.

    Question #13. What appropriations categories in the FY 2014 budget, 
other than the Diplomatic and Consular Programs category authorize use 
of funds for the following: (1) additional State Department-employed 
security personnel; (2) non-State Department security personnel, such 
as nongovernmental security contractors or other temporary security 
personnel; and (3) procurement of security vehicles and equipment?

    Answer. The Bureau of Diplomatic Security (DS) receives 
appropriations noted below to fund State Department-employed security 
personnel; non-State Department security personnel such as domestic and 
post local guards, personal service contractors, and other third-party 
contractor security support personnel; and the procurement of security 
vehicles and equipment.

1. Diplomatic and Consular Programs:

          a. Worldwide Security Protection (WSP): WSP no-year funding 
        supports 1,900 security-related positions across 14 bureaus and 
        at 285 locations. It supports the worldwide local guard 
        program, high-threat protection, security technology, armored 
        vehicles, cyber security, information security, facility 
        protection, and diplomatic couriers. WSP funding also supports 
        emergency preparedness programs; internal and interagency 
        collaborations and information-sharing; and medical emergencies 
        planning in the event of mass casualties from a biological/
        chemical attack.
          b. Diplomatic Security: Two-year funding supports American 
        salaries and covers a portion of DS ICASS payments.
          c. Iraq Operations: Two-year enduring funding supports 
        armored vehicles, movement security, static guards, physical 
        and technical security, regional security operations, training, 
        and equipment in Baghdad.
          d. Office of Foreign Missions (OFM): Funding supports 
        American salaries and other support costs associated with OFM.
          e. Overseas Contingency Operations (OCO):

                  i. Iraq: Two-year OCO funding supports armored 
                vehicles, movement 
                security, static guards, physical and technical 
                security, regional security operations, training, and 
                equipment in Iraq.
                  ii. Afghanistan: No-year OCO funding supports armored 
                vehicles, movement security, static guards, physical 
                and technical security, regional security operations, 
                training, and equipment throughout Afghanistan.
                  iii. Pakistan: No-year OCO funding supports armored 
                vehicles, movement security, static guards, physical 
                and technical security, regional security operations, 
                training, and equipment throughout Pakistan.

2. Border Security Program:

          a. Machine Readable Visas (MRV): No-year funding supports 
        salaries for DS field agents investigating visa passport fraud 
        and all related support costs.
          b. H1B Visas (H&L): No-year funding supports salaries for 
        Assistant Regional Security Officer/Investigators overseas and 
        all related support costs.

3. Protection of Foreign Missions:

          Funding supports reimbursement to New York and other States 
        that qualify for the extraordinary protection of international 
        organizations, foreign missions and officials, and foreign 
        dignitaries (under certain circumstances) throughout the United 
        States. Covers events such as U.N. General Assembly, G8, etc.

4. Working Capital Fund:
          No-year funding provided to DS for the overseas Local Guard 
        Program as part of ICASS.

In addition to funding for DS, some of our foreign assistance accounts, 
such as the International Narcotics and Law Enforcement account, fund 
not only program costs but also life support costs for personnel in the 
field, including direct hires and contractors. Life support costs 
include security.

    Question #14. Diplomatic and Consular Programs.--What amount (if 
any) of Diplomatic and Consular Programs funding could be applied for 
payment of the following: (1) domestic, non-security-related State 
Department personnel salaries, (2) domestic, non-security-related State 
Department facility construction, (3) domestic, non-security-related 
State Department vehicles and equipment? Please express these amounts 
in both dollars and a percentage of overall Diplomatic and Consular 
Programs spending.

    Answer. Approximately $1.1 billion is included in the Diplomatic 
and Consular Programs (D&CP) appropriation that could be applied for 
domestic, non-security-related salaries. This represents roughly 15 
percent of the overall D&CP spending. This amount includes all bureaus 
included in the D&CP appropriation except the amounts allocated to the 
following: Bureau of Counterterrorism, Bureau of Diplomatic Security, 
Bureau of International Security and Nonproliferation, Bureau of Arms 
Control, Verification and Compliance, Bureau of Political Military 
Affairs, Office of Foreign Missions, Iraq Operations, Afghanistan 
Operations, Pakistan Diplomatic Surge, and the Worldwide Security 
Protection program.
    The Department does not have any funding included in the FY 2014 
D&CP request for domestic, non-security-related State Department 
facility construction. The Department has allocated D&CP funding in 
prior years to the Bureau of Administration for domestic, non-security-
related State Department facility construction.
    Approximately $3 million included in the D&CP allocation for the 
Bureau of Administration may be applied to domestic, non-security-
related State Department vehicles. This represents roughly 0.4 percent 
of the overall D&CP spending.
    Approximately $55 million included in the D&CP allocation for all 
bureaus using the supplies and material budget category, except amounts 
allocated to the following: Bureau of Counterterrorism, Bureau of 
Diplomatic Security, Bureau of International Security and 
Nonproliferation, Bureau of Arms Control, Verification and Compliance, 
Bureau of Political Military Affairs, Office of Foreign Missions, Iraq 
Operations, Afghanistan Operations, Pakistan Diplomatic Surge, and the 
Worldwide Security Protection Program, may be applied to domestic, non-
security-related State Department equipment. This represents roughly 
0.8 percent of the overall D&CP spending.

    Question #15. How does the State Department's budget reflect the 
administration's Asia-Pacific rebalancing initiative? Specifically, 
where has the administration increased, decreased and/or shifted 
resources to achieve its stated objectives to provide more geographic 
balance to ``the projection and focus of U.S. power'' in the Asia-
Pacific?

    Answer. President Obama made a strategic decision at the outset of 
his administration to increase focus on the Asia-Pacific and rebalance 
U.S. engagements, activities, and resources toward and within this 
vital region. Even as we face budget constraints within the Department 
of State and USAID, the fiscal year 2014 budget request reflects this 
strategic priority, sustaining key investments made throughout the 
President's first term and investing in new initiatives to expand and 
deepen a government-wide commitment across the region.
    The FY 2014 budget request for the State Department and USAID 
provides $1.2 billion in funding for East Asia and the Pacific, which 
reflects a 7.1-percent increase from FY 2012 in recognition of the 
rebalance. This request directly supports our core regional objectives, 
including strengthening ties with our allies, deepening our engagement 
with new partners and emerging powers such as China, shaping a robust 
regional architecture, expanding trade and investment, and promoting 
democratic values.
    The FY 2014 Foreign Assistance request expands funding to the East 
Asia-Pacific region to $768.3 million, from $715 million in FY 2012, 
reflecting a $53.3 million overall increase. This request focuses 
assistance to the region in six key areas aligned with core objectives: 
(1) regional security cooperation; (2) economic integration and trade; 
(3) expanded development in the Lower Mekong region; (4) transnational 
health and environmental challenges; (5) democratic development; and 
(6) addressing war legacies.
    For example, the FY 2014 Foreign Assistance request increases 
Foreign Military Financing funding to the Philippines to $50 million, 
reflecting an increase of $23 million, to support regional maritime 
security. The budget request also provides $31 million to deepen our 
support for Burma's political and economic transition, including 
support for the key 2015 elections, $5 million for Vietnam in support 
of the Trans-Pacific Partnership, and $13 million in new funds to 
expand regional economic and development programs including in 
cooperation with multilateral bodies such as the Association of 
Southeast Asian Nations (ASEAN), Asia-Pacific Economic Cooperation 
(APEC), the Lower Mekong Initiative, and the Pacific Islands Forum.
    The FY 2014 request also provides an additional $25.9 million in 
State Operations to expand our diplomatic platform and PD programs in 
the region, including funding to add 24 new domestic and overseas 
positions to our existing 1,008 EAP positions in order to fill critical 
positions at our embassies and in our regional bureau offices. Ten of 
these positions will be Washington-based, while the remaining 14 will 
be overseas. The overseas positions are for Burma (three positions), 
Australia (three positions), Korea (two positions), Jakarta (ASEAN--two 
positions), and one position each in Timor Leste, Vietnam, Brunei, and 
New Zealand. In addition, Public Diplomacy will add a position in 
Jakarta for the ASEAN Office.
    An additional $10 million in public diplomacy funds for the Asia-
Pacific region will expand alumni engagement, English Language teaching 
and training, academic advising, and journalist training and journalist 
tours. Additional funding would also be used to strengthen digital 
outreach with youth audiences in tech-savvy Asia.

    Question #16. Does the State Department have the lead for 
coordinating all the tools--military, diplomatic, security--of the 
Asia-Pacific rebalance? If so, how has the State Department 
reprioritized its resources to execute this responsibility?

    Answer. Working closely with the White House, the Department of 
State coordinates foreign policy for the Asia-Pacific region with 
executive branch agencies involved in U.S. foreign affairs, including 
the Departments of Defense, Homeland Security, Commerce, and others. In 
the Asia-Pacific region, we also enjoy a close, cooperative 
relationship with Pacific Command (PACOM), and the Bureau for East 
Asian and Pacific Affairs participates in PACOM planning, exercises, 
and other events. We closely coordinate our regional strategies with 
agencies such as Homeland Security, the Office of the U.S. Trade 
Representative, and the Treasury Department. The Department has taken a 
number of actions to align resources with demands associated with its 
coordinating function and the broader U.S. rebalance to the Asia-
Pacific region, including the creation of a new Deputy Assistant 
Secretary position for Strategy and Multilateral Affairs in 2012. The 
FY 2014 State Operations request provides additional resources that 
support the Department's expanded coordination role, including new 
domestic positions that will provide increased capacity in cyber 
security, support for the region's multilateral institutions including 
ASEAN, coordination on force posture initiatives, and evaluation of 
diplomatic and assistance programs.

    Question #17. Do you believe any new interagency structures are 
necessary to ensure a strategic ``whole of government'' approach to 
achieving U.S. goals and objectives in the Asia-Pacific?

    Answer. I do not see a need for new interagency structures to 
achieve our goals in the Asia-Pacific region. There is currently a 
strong interagency collaboration and ``whole of government'' effort in 
Washington in support of the administration's Asia-Pacific policy. This 
collaboration extends to our overseas missions, where our interagency 
country teams, under Chief of Mission authority and leadership, 
coordinate U.S. Government efforts. Our whole of government approach is 
aligned with the U.S. commitment to the East Asia and Pacific region 
and our multifaceted strategy that utilizes the major pillars of our 
foreign policy: diplomacy, development, and defense.

    Question #18. What new initiatives is the administration planning 
to upgrade U.S. diplomatic visibility and presence in the Asia-Pacific?

    Answer. We are significantly increasing the United States 
diplomatic engagement throughout the entire region. My predecessor 
began this process and I plan to continue to increase our diplomatic 
presence in Asia-Pacific through expanded strategic dialogues, public 
diplomacy programs, and the establishment of new positions and offices 
at our embassies in the region.
    I want to reiterate that this reflects the Obama administration's 
policy and is reinforced at the senior levels. In July, I will 
participate in the Association of Southeast Asian Nations (ASEAN) 
Regional Forum ministerial meetings in Brunei, demonstrating U.S. 
support for strengthened regional institutions. At the fifth meeting of 
the U.S.-China Strategic and Economic Dialogue (S&ED) in Washington in 
July, Treasury Secretary Lew and I will be joined by our Chinese 
counterparts for a discussion of challenges and opportunities on a 
range of bilateral, regional, and global issues. In August, I will host 
the fourth meeting of the U.S.-China Consultation on People-to-People 
Exchange (CPE). In October, President Obama plans to attend the APEC 
summit in Bali, his third East Asia summit in Brunei, and the Global 
Entrepreneurship summit in Kuala Lumpur, all of which showcase our 
commitment to comprehensive regional engagement.
    We have increased our people-to-people engagement with the region 
by expanding our educational and cultural exchanges. We have launched 
the U.S.-China CPE, the TOMODACHI initiative with Japan, and the 
Brunei-U.S. English Language Enrichment Project for ASEAN. With 
increased FY 2014 public diplomacy funds we would expand alumni 
engagement within the region, English-language teaching and training, 
academic advising, and journalist training. Additional funding would 
also be used to strengthen digital outreach with youth audiences in 
tech-savvy Asia.
    We are also increasing our physical presence in the Asia-Pacific 
region. In June 2010, the United States became the first non-ASEAN 
country to establish a dedicated mission to ASEAN in Jakarta. That 
office has expanded to around a dozen U.S. direct hire employees and 
locally engaged staff, led by U.S. Ambassador David Carden, whose 
mission is to promote U.S. objectives in issues as broad as disaster 
relief, maritime security, nonproliferation, and economic cooperation. 
This nascent presence allows us to affect and influence policies in 
this region of 600 million people. We are committed to maintaining an 
embedded presence within both APEC and ASEAN Secretariats to provide 
technical assistance to their membership. Last year, we elevated our 
diplomatic ties with Burma by exchanging ambassadors. We also 
reestablished our USAID mission in Rangoon, reaffirming the United 
States commitment to the people of Burma.
    The State Department and USAID have expanded development assistance 
in a number of areas, setting aside $21 million in FY 2014 as part of a 
3-year, $50 million commitment to expand programs supporting the Lower 
Mekong Initiative. In FY 2014, the United States also will provide $7 
million as part of a 5-year, $32.4 million commitment to programs 
focused on climate change adaptation, humanitarian demining, economic 
growth, and education in the Pacific Islands. In the Philippines, we 
are sponsoring the 5-year Partnership for Growth Program to support 
sustained and broad-based economic growth.
    In short, the State Department is committed to aligning actions and 
resources with our strategic approach toward the Asia-Pacific. As such, 
the FY 2014 budget request also provides an additional $25.9 million in 
State Operations, which includes funding to add 24 new EAP domestic and 
overseas positions to fill critical positions at our embassies and in 
our regional bureau offices. The overseas positions are for Burma 
(three positions), Australia (three positions), Korea (two positions), 
Jakarta (ASEAN--two positions), and one position each in Timor-Leste, 
Vietnam, Brunei, Indonesia, and New Zealand. This increase will enhance 
our diplomatic platform in the region to tackle key challenges such as 
transnational crime and terrorism, North Korea, and supporting human 
rights and good governance throughout Asia and the Pacific.

    Question #19. Please provide specific details on resources for the 
East Asia and Pacific (EAP) Bureau, including staffing at State 
Department headquarters and diplomatic posts as well as funds allocated 
for bilateral dialogues and multilateral meetings.

    Answer. The FY 2014 budget request for the State Department and 
USAID provides $1.1 billion in funding for EAP which reflects a 6-
percent increase for EAP from FY 2012.
    Increased U.S. Government engagement in the Asia-Pacific region has 
resulted in a sharp increase in workforce demands: dealing with the 
nuclear threat from North Korea; engaging a rising China; supporting 
the historic political and economic transition in Burma; participating 
in the East Asia summit; advancing the reposturing of U.S. Forces in 
Asia; and expanding U.S. economic and commercial interests. Beyond 
these ongoing challenges, EAP has seen a dramatic expansion of visa 
demand in China requiring sizable increases in visa operations and the 
conversion of the American Presence Post in Wuhan to a full-service 
consulate opening in 2014.
    To provide the resources necessary to support the Department of 
State's rebalance of diplomatic activity to the Asia-Pacific region, 
the FY 2014 request for EAP provides an additional $15.7 million in 
State Operations funds over FY 2012 to expand our diplomatic platform 
and public diplomacy programs, including funding to add 24 new 
positions to our existing 1,002 EAP positions. Ten of these positions 
will be Washington-based, while the remaining 14 will be overseas. The 
overseas positions are for Burma (three positions), Australia (three 
positions), Jakarta (ASEAN--two positions), South Korea (two 
positions), and one position each in Timor Leste, Vietnam, Brunei, and 
New Zealand.
    EAP's Washington-based staff levels must be augmented to support 
expanding U.S. activity in Asia. With a new mission to the Association 
of South East Asian Nations (ASEAN) in Jakarta, an upgrade of U.S. 
relations with Burma, and the rotational deployment of U.S. military 
forces to Australia, EAP requires additional staff to manage and 
coordinate State Department policies with embassies and other U.S. 
Government agencies.
    The requested increase in State Operations funds for Diplomatic and 
Consular Affairs and Public Diplomacy programs includes an additional 
$8.2 million for current operating cost increases. $1.3 million is 
requested to support security-driven New Embassy Compound/Consulate/
Annex (NEC) projects and opening the new consulate in Wuhan, China. 
These increases are offset, in part, by a $2.5 million reduction in 
administrative costs.
    EAP spends approximately $1.3 million annually to support 
participation in bilateral dialogues and multilateral meetings in the 
EAP region.

    Question #20. The administration has undertaken efforts to upgrade 
our alliances and partnerships in the Asia-Pacific. What new 
initiatives does the administration envision in the security and 
economic spheres in the coming years?

    Answer. The United States is an Asia-Pacific nation, and our 
presence has underpinned peace and security in the region for 
centuries. As the region's importance grows, we must lock in our 
investment--diplomatic, economic, strategic, and otherwise--in both the 
Asia-Pacific and our future. At the core of our approach is an 
understanding that diplomatic, security, and economic relationships in 
the Asia-Pacific region cannot be neatly compartmentalized--economic 
statecraft, traditional diplomacy, and security engagement go hand in 
hand.
    Our five treaty alliances--with Japan, the Republic of Korea (ROK), 
Australia, the Philippines, and Thailand--are the cornerstone of our 
presence and leadership in Asia. These alliances have safeguarded 
regional peace and security for the past half century and support the 
region's remarkable economic growth. In the case of Japan, we are 
advancing our force realignment initiatives, including a reduced U.S. 
Marine Corps presence in Okinawa and operational buildup in Guam, as 
laid out in the June 2011 and April 2012 2+2 statements. As part of 
this process, the Department of Defense recently released a plan for 
the consolidation of our military facilities in Okinawa, and the 
Japanese Government took important steps toward construction of the 
Futenma Replacement Facility (FRF). By replacing the Marine Corps Air 
Station Futenma, the FRF will ease the burden on local communities in 
Okinawa. We are also expanding our missile defense cooperation with 
Japan by working together to establish a second X-band radar site in 
Japan to counter missile threats from the Democratic People's Republic 
of Korea (DPRK). Additionally, we continue to advance security alliance 
coordination in the emerging areas of cyber security and space.
    This year marks the 60th anniversary of our alliance with the 
Republic of Korea. Our cooperation has evolved over the years into a 
truly global partnership, and we are working together in places such as 
Afghanistan, South Sudan, and off the coast of Somalia. The United 
States is committed to the defense of the ROK, and both governments 
fully support the modernization of our alliance. Over the next 12 
months, we are continuing preparations under the U.S.-ROK Strategic 
Alliance 2015 plan to advance efforts to transfer to the ROK wartime 
operational control of our joint South Korean forces. Strengthening our 
alliance includes both preparing for and deterring North Korean 
aggression.
    Over the course of the next year, we will also deepen the U.S.-
Australia alliance through continued implementation of our force 
posture initiatives, including by gradually augmenting the U.S. Marine 
rotational force in northern Australia and increasing U.S. aircraft 
rotations and exercises. Additionally, we intend to enhance existing 
trilateral engagement with partners such as Japan and expand 
cooperation in the Indian Ocean. Building on our successful 
counterterrorism partnership with the Philippines, we are expanding our 
security engagement to focus on building the Philippines' military and 
law enforcement agencies' indigenous capacity in order to address areas 
of common interest in maritime security, disaster relief, and 
nonproliferation.
    As we renew our alliances to meet new demands, we are also working 
to build new partnerships throughout the region that can help solve 
shared challenges, including with emerging powers like China, India, 
and Indonesia. Building a positive, comprehensive, and cooperative 
partnership with China is a key component of our Asia-Pacific strategy. 
We are advancing capacity-building activities over the next year that 
aim to strengthen the United States ability to operate with armed 
forces and civilian law enforcement in the Philippines, Thailand, 
Vietnam, Singapore, Malaysia, and other key partner countries in the 
region with a strategic focus on maritime security, disaster relief and 
humanitarian response, countering the trafficking of people and illicit 
goods, and combating terrorism and violent extremism. Over fiscal years 
2012 and 2013, the U.S. Government will also provide $170 million to 
support the political and economic transition in Burma.
    The Asia-Pacific region is linked primarily by its maritime 
environment, which has enabled the region's dynamic growth and 
facilitated greater connectivity. We recognize that challenges 
including territorial and maritime disputes, piracy, trafficking in 
illicit materials and natural disasters can threaten regional peace, 
stability, and prosperity. Supporting maritime security in the region 
therefore represents an enduring interest for the United States. The 
United States has consistently worked with its partners in the Asia-
Pacific region to build capacity and promote cooperation on maritime 
security issues. In November last year, President Obama announced the 
U.S. intention to accede to the Regional Cooperation Agreement on 
Combating Piracy and Armed Robbery Against Ships in Asia (RECAAP), the 
first government-to-government agreement to promote and enhance 
cooperation against piracy and armed robbery in Asia. We also continue 
to strongly support the Expanded ASEAN Maritime Forum (EAMF), 
established in 2012, to provide a platform for coordination among EAS 
countries on a range of maritime issues including marine environment, 
resource management, piracy, and capacity-building.
    An important initiative that originated from the EAMF is the U.S.-
led Expanded ASEAN Seafarers' Training initiative (EAST), which was 
announced by the President and endorsed by leaders at the November 2012 
East Asia summit in Phnom Penh, Cambodia. The State Department is 
working closely with the Department of Transportion, the lead agency, 
to implement this initiative, which will seek to enhance counterpiracy 
training and education for seafarers in the region, specifically 
focusing on topics that address seafarer safety and welfare, such as 
surviving captivity, ransom negotiations, post-capture and release 
issues, treatment of post-traumatic stress disorder, and awareness of 
cultural and criminal aspects of piracy.
    We are also taking steps to elevate our economic engagement in the 
region. At the East Asia summit last November, President Obama 
announced a new Expanded Economic Engagement initiative with ASEAN as a 
complement to our existing Trade and Investment Framework Arrangement. 
As a key element of this initiative, the State Department will host a 
visit from ASEAN economic ministers to the United States this year to 
build capacity around the key areas of focus for E3, which include 
business ethics and anticorruption, trade facilitation, investment 
principles, and information and communications technology.
    The President also announced last November an initiative called the 
U.S.-Asia-Pacific Comprehensive Energy Partnership, which cuts across 
ASEAN, APEC, and other Asian regional fora to promote sustainable 
energy policy and, working with the private sector, to facilitate the 
deployment of clean energy technologies in the region. In the coming 12 
months, the Partnership's focus will be on completing capacity-building 
activities in the areas of markets and interconnectivity, emerging role 
of natural gas, renewable and cleaner energy, and sustainable 
development.

    Question #21. What role do you envision for the State Department in 
paving the way for Japanese entry into the Trans-Pacific Partnership? 
The administration has set a target date for conclusion of the 
negotiations of October 2013. Will Japan's entry delay that target 
date?

    Answer. Japan's entry into this important negotiation will help to 
deliver significant economic benefits for the United States, Japan, and 
the Asia-Pacific region. With Japan's entry, Trans-Pacific Partnership 
(TPP) countries will account for nearly 40 percent of global GDP and 
about one-third of all world trade, increasing the agreement's economic 
significance and its promise as a pathway toward a Free Trade Area of 
the Asia Pacific.
    The United States and its TPP partners are determined to 
expeditiously complete a comprehensive, next-generation agreement. Our 
negotiating team worked hard in bilateral consultations with Japan, 
which concluded on April 12, to confirm Japan's readiness to pursue the 
high-standard, comprehensive objectives that the TPP countries are 
seeking. The administration also focused in these consultations on 
ensuring that Japan's participation would not slow down the 
negotiations. In response, and in full recognition of the goal shared 
among the current TPP countries to conclude the negotiations this year, 
Japan has confirmed that it will participate positively and 
constructively in the negotiations.
    The State Department will continue to play an active role in the 
TPP negotiations and in integrating Japan into the regional trade 
talks. Officers from U.S. Embassies in member countries and from 
Washington participate in formal negotiations, intersessional meetings, 
a variety of bilateral side meetings, and the U.S. Trade Policy Staff 
Committee to support and complement the work of USTR negotiators by 
sharing their country, regional, and technical expertise.
    The State Department has personnel with institutional experience on 
trade issues and subject matter experts who have spent years working on 
World Trade Organization (WTO) issues and other plurilateral and 
bilateral negotiations. The Department can provide context on topics 
that relate to the larger foreign policy agenda such as state 
capitalism, state-owned enterprises (SOEs), labor, the environment, and 
anticorruption. The Department's lawyers can also provide key guidance 
on general international law issues.
    Japan is preparing a large negotiating team to take part in TPP 
negotiations. State Department officials, particularly those based at 
U.S. Embassy Tokyo, will seek to build contacts with this team at the 
working and senior levels in order to help U.S. decisionmakers 
understand Japan's negotiating priorities and flexibilities, how Japan 
incorporates TPP membership into its broader economic reform plans, and 
Japan's efforts to address public concerns regarding sensitive sectors.

    Question #22. As you know, China has engaged in aggressive maritime 
behavior in the East and South China Seas. While the United States 
takes no position on the issues of territorial sovereignty, the 
administration has made clear in the past that the United States will 
abide by its security commitments. In January, then-Secretary Clinton 
made a clear statement on U.S. policy with regard to the Senkaku 
Islands, stating ``we oppose any unilateral actions that would seek to 
undermine Japanese administration.''

  <bullet> Can you reaffirm for the record U.S. support for Japan's 
        administrative control of the Senkaku Islands?

    Answer. The United States urges all parties to avoid actions that 
could raise tensions or result in miscalculations that would undermine 
peace, security, and economic growth in this vital part of the world. 
Our position on this issue is longstanding--we do not take a position 
on the question of ultimate sovereignty over the islands and call on 
all parties to manage their differences through peaceful means.
    The Senkaku Islands have been under Japanese administration since 
the reversion of Okinawa in 1972. As I reiterated in Tokyo in April, we 
oppose any unilateral or coercive actions that would seek to undermine 
Japanese administration.
    I would also state, as administration officials have said numerous 
times, the Senkakus fall within the scope of article 5 of the 1960 
U.S.-Japan Treaty of Mutual Cooperation and Security.

    Question #23. There is an unprecedented level of exchanges and 
dialogues between the United States and China; however, there are 
several irritants and challenges in strengthening our bilateral 
relationship. Serious obstacles remain on the economic front, including 
market access and intellectual property rights.

  <bullet> How can we more effectively harness the framework of the 
        U.S.-China Strategic and Economic Dialogue (S&ED) to make 
        progress on these issues?

    Answer. The week of July 8-12, Treasury Secretary Lew and I will be 
chairing the U.S. side of the Strategic and Economic Dialogue (S&ED), 
along with State Councilor Yang Jiechi and Vice Premier Wang Yang on 
the Chinese side. The S&ED enables the United States and China to 
expand our collaboration on important strategic and economic issues 
while providing a key platform for raising our concerns, such as the 
need for progress on economic issues, regional challenges, and human 
rights, in a candid and direct manner with China's senior officials.
    The United States utilizes bilateral engagement with China, 
including through the S&ED, to enhance communication on areas of 
concern in the bilateral relationship. For example, the Strategic 
Security Dialogue (SSD) established at the 2011 S&ED, has for the first 
time provided the United States and China a forum for civilian and 
military representatives to discuss strategically sensitive issues in 
the relationship, such as cyber security and maritime security. 
Building on discussions of cyber policy at the 2012 SSD, the United 
States and China have made progress in addressing that issue. When I 
visited Beijing, we announced the opening of a new channel for 
communication on cyber policy--the Cyber Working Group, under the SSD.
    Through the S&ED's economic track, the United States is expanding 
opportunities for American firms to export to China by increasing 
market access, leveling the playing field, and pressing for greater 
transparency. Through the S&ED, the United States is encouraging 
China's shift toward consumption-led growth and is seeking economic and 
regulatory reform in China aimed at a more open Chinese market for U.S. 
goods and services. The S&ED provides an important platform for 
strengthening U.S.-China economic and financial cooperation and 
understanding so that we can tackle bilateral issues as well as improve 
our coordination in addressing global challenges in international fora.

    Question #24. The administration has devoted considerable resources 
to supporting the political transition in Burma, with significant 
congressional support for easing restrictions in response to positive 
steps by the Burmese Government. However, there is growing concern here 
in Congress that the administration has eased the pressure on the 
Burmese Government to demonstrate continued progress on political 
reforms, including engaging in a meaningful political dialogue with the 
marginalized ethnic groups.

  <bullet> Is the administration still committed to implementing the 
        ``action for action'' model with respect to further engagement 
        with the Burmese Government and continued easing of 
        restrictions?

    Answer. The United States remains committed to a policy of 
calibrated engagement with the Burmese Government with the aim of 
ensuring further progress on political, economic, and social reforms. 
While we assess that the Burmese Government's commitment to reform is 
genuine and that the country has made remarkable progress over the past 
2 years, we continue to have serious concerns about human rights, the 
role of the military, progress toward national reconciliation, and rule 
of law and accountability. We continue to emphasize to the Burmese 
Government the need to reach a cease-fire in Kachin State, advance 
political discussions with ethnic minority groups, and resolve tensions 
and prevent violence in Rakhine State, and the importance of promoting 
values of tolerance, diversity, and peaceful coexistence.
    The United States engagement with Burma includes steps to match 
action with action, recognizing the reforms Burma has undertaken to 
date and incentivizing further progress. The guiding principles of the 
action-for-action policy have been to support reforms and promote 
national reconciliation; build government transparency, accountability; 
empower local communities and civil society; and promote value-based 
standards for international engagement.
    The administration continues to promote these policies and 
principles as the fundamentals of Burma's reform. The President's trip 
in November 2012 demonstrated the United States resolve to support 
Burma in its political and economic reform efforts. On the eve of his 
visit, the Burmese Government articulated its commitment to 11 specific 
issues covering human rights, political prisoners, ethnic 
reconciliation, nonproliferation, good governance, and human 
trafficking. These commitments include forming a committee to review 
the remaining political prisoner cases; pursuing peace talks with 
ethnic minorities; meeting humanitarian needs in Rakhine State and 
other conflict affected areas; allowing the U.N. High Commissioner for 
Human Rights to open an office in Burma; and facilitating access for 
the International Committee of the Red Cross to resume prisoner visits.
    The Burmese Government has made notable progress on many of these 
commitments. We will continue to press for further progress to ensure 
that the Burmese Government upholds its commitments to protect and 
promote human dignity and strengthen democratic governance.

    Question #s 25-26. Strategic Nuclear Arsenal Reduction.--The 
administration has indicated that it is interested in pursuing further 
reductions in our strategic nuclear arsenal with Russia later this 
year. Section 2573 of Title 22 of the U.S. Code states the following: 
``(b) Prohibition: No action shall be taken pursuant to this chapter or 
any other Act that would obligate the United States to reduce or limit 
the Armed Forces or armaments of the United States in a militarily 
significant manner, except pursuant to the treaty-making power of the 
President set forth in Article II, Section 2, Clause 2 of the 
Constitution or unless authorized by the enactment of further 
affirmative legislation by the Congress of the United States.''

  <bullet> Can you assure us that you will honor the law and that any 
        agreement, formal or informal, with Russia in the field of arms 
        control based on ``reciprocal unilateral measures'' or 
        multilateral nontreaty agreements will be submitted to the 
        Senate? Can you further assure us that it remains 
        administration policy that the United States will not negotiate 
        any limitations to our missile defense? Can you assure us that 
        the Obama administration will not take unilateral action to 
        reduce the strategic arms or missile defenses of the United 
        States without consultation and approval from Congress?
  <bullet> What value does the administration place on treaty 
        compliance? Do you believe that violators should be held 
        accountable? Is the United States holding violators 
        accountable? Under what conditions should the United States 
        engage in ongoing negotiations with parties we know to be in 
        violation of more than one treaty?

    Answer. Having served proudly in the U.S. Senate for 28 years, I 
have the utmost respect for the Senate's role in the treaty process. I 
am mindful of the language in the Arms Control and Disarmament Act, and 
similar language in other legislation. As always, the administration 
will follow the Constitution and laws of the United States. The 
Department of State will continue its consultations with the Congress 
on arms control and missile defense-related issues.
    With respect to missile defense limitations, the President has 
consistently made clear that the United States will not accept any 
obligations that would limit U.S. missile defense capabilities. As 
ballistic missile threats continue to evolve, we cannot place limits or 
constraints on our ability to defend ourselves, our allies, and our 
partners.
    The United States places a very high priority upon verifying 
compliance with, and detecting violations of, arms control agreements. 
We carefully monitor compliance with arms control agreements in order 
to detect and respond to any such violations in an appropriate manner. 
Treaty compliance is essential for creating the stability and 
predictability that aids international security efforts.
    Our national security interests have been and will continue to be 
the primary consideration in any future arms control negotiations. 
Given the large number of pressing international security issues on the 
agenda, it is important to look at the current arms control regimes and 
our national security interests comprehensively when considering future 
negotiations.
          reform to consolidate business and trade promotion 
                        into a single department

    Question #27. Please explain why the consolidation of business and 
trade-promotion entities, as outlined in your budget request, is 
necessary? Are these agencies underperforming in the administration's 
view? Could a robust interagency decisionmaking and accountability 
process akin to that of PEPFAR serve the same function? If not, why 
not?

    Answer. This matter is not within the purview of the Department of 
State. The Department defers to the Department of Commerce.

    Question #28. Do you have any concerns that lumping them all 
together could have the unintended effect of undermining their 
effectiveness? Can you provide data or assumptions that demonstrate a 
gain in effectiveness by a combined department?

    Answer. This matter is not within the purview of the Department of 
State. The Department defers to the Department of Commerce.

    Question #29. The Budget request assumes that ``these changes could 
generate approximately $3 billion in savings over the next 10 years, 
with roughly half of the savings coming from reducing overhead and 
consolidating offices and support functions.'' How did you arrive at 
this number? Given the challenges that have been confronted at the 
Department of Homeland Security in doing something similar, do you have 
any concerns that, given the different missions of these agencies, you 
may in fact end up unnecessarily growing the bureaucracy by merging 
them together?

    Answer. The specific consolidation activities referenced in your 
question are with regard to the President's proposal to consolidate all 
Business and Trade Promotion into a single Federal Department solely 
focused on domestic economic growth, which, as currently proposed, does 
not directly involve shifting or consolidating Department of State 
bureaus and offices.
    However, in the spirit of this consolidation activity, the 
Department of State is committed to identifying areas of overlap and 
duplication and implementing programs and policies designed to save 
American taxpayer dollars.
    In accordance with Executive Order 13589, ``Promoting Efficient 
Spending,'' in FY 2013 the Department is working toward targeted 
spending reductions of $182 million less than that spent in FY 2010 on 
travel, supplies, IT devices, printing and reproduction, executive 
fleet, and promotional items. Leadership at all of our overseas posts 
has been directed to comply with governmentwide mandates to reduce 
cost, scrutinize travel, review service contract requests, and hasten 
adoption of the top eight savings initiatives for the Department, which 
include: Warehousing, Voucher Processing, Utilities, TDY ICASS Cost 
Management, Regionalization of Support Services, Furniture Pool, 
Expendable Supplies and Local Transportation.

    Question #30. In its budget submission, MCC highlighted the 
challenge that rising State Department International Cooperative 
Administrative Support Services costs have on program support and 
implementation in country.

  <bullet> Are increased ICASS costing negatively affecting MCC's 
        ability to accomplish its goals? Is a similar impact observed 
        by other agencies, and what processes does the Department have 
        in place to assess the affect its policies are having in this 
        area?

    Answer. The Millennium Challenge Corporation (MCC) currently has a 
presence in 18 countries, up from 4 in its first year of operation in 
2006. The size of its staff at each MCC post has grown as well, from an 
average of 3 staff per post in 2006 to about 5 staff per MCC office 
today. MCC has 32 U.S. direct hire employees and about 50 Foreign 
Service Nationals (FSNs) located in the 18 countries where they have a 
presence.
    The total International Cooperative Administrative Support Services 
(ICASS) invoice for MCC in 2013 is projected at $3.9 million, up from 
$374,000 the first year. As the GAO noted in its recent review of 
ICASS, in order to determine if ICASS costs are reasonable, it would be 
necessary to compare the actual known cost of ICASS support to the cost 
of a hypothetical alternative support platform that a particular agency 
would have to fund if the ICASS shared services platform did not exist. 
Even where agencies asserted that they could provide services more 
cheaply than they pay under ICASS, none of those agencies was able to 
supply the GAO with data on the actual cost of such alternative 
operations to support this claim.
    The Department continues to work with other agency ICASS partners 
to promote efficiency and focus on cost savings. Using ICASS governance 
mechanisms at both the Executive and working levels, agencies are 
invited to provide input on these concerns and are provided an active 
role in identifying the size of ICASS operating budgets each year. 
Beginning with the Forward Planning process that provides budget 
projections to agencies 2 years in advance of each operating year to 
enable them to include this information in their own budget 
submissions, the Department provides a venue for two-way communications 
on both the cost of operations and the impact of these costs on agency 
missions. Continuing that engagement, before the start of each fiscal 
year, agencies engage with the Department in a process that identifies 
the actual ICASS operating funding levels for each mission overseas. 
The Department's Bureau of Budget & Planning factors agency concerns 
into funding determinations, and weighs their affordability along with 
the Department's into recommended funding levels. Also factored into 
funding levels are savings from initiatives the Department has launched 
to control the growth of costs, initiatives that regionalize, right-
size and further consolidate the overseas management platform. The 
final ICASS funding level for each overseas mission each year is 
approved by the ICASS Interagency Working Group (IWG) in Washington.
    While the cost of management support competes with program 
operations for the same scarce dollars, all agencies want assurance 
that support for the diplomatic mission is successful. So, in addition 
to providing agencies with an active voice in determining ICASS funding 
levels, an annual survey is conducted worldwide to assess the opinion 
of ICASS customers overseas in its ability to support their missions. 
That survey invites customers overseas to rate services on a 5-point 
scale, with 5 being the highest rating. This year, more than 54,000 
customers: Americans, dependents, and Foreign Service Nationals took 
the survey and scored overall services at 4.09 out of 5. The Department 
takes the governance aspect of ICASS very seriously, and will continue 
to ensure that processes are in place to ensure agency input is 
incorporated into the system.

    Question #31. Please provide to the committee an explanation of how 
ICASS costing is calculated.

    Answer. International Cooperative Administrative Support Services 
(ICASS) costs are calculated and shared through a Cost Distribution 
system. In practice, the cost of ICASS operations is spread to all 
customer agencies based on their share of consumption of services as 
measured using cost distribution factors. These factors include 
headcounts for American personnel, their dependents, and locally 
engaged staff, space occupied in embassies and consulates, and unit 
counts such as the number of kilometers driven in the motor pool, or 
the number of procurement documents processed. Each agency's percentage 
share of those factors, on an annual basis, drives the percentage share 
of ICASS cost that they pay on their invoices. Using this system, the 
share of costs agencies pay relates directly to their relative 
consumption of services provided.

    Question #32. Please explain how FY14 budget request tracks with 
the recent PPD and explain the coherence of this budget request with 
other elements of the overall strategy for sub-Saharan Africa. This 
should include the interrelation of CIPA, MCA, and other economic and 
governance programs as well as those of other U.S. agencies and 
international organization budgets.

    Answer. The FY 2014 request closely aligns with the Presidential 
Policy Directive on sub-Saharan Africa (PPD), which identifies four 
pillars of U.S. strategy toward the region: strengthening democratic 
institutions; spurring economic growth, trade, and investment; 
advancing peace and security; and promoting opportunity and 
development. The request identifies the diplomatic and development 
resources needed to make meaningful progress in these four key areas. 
The PPD underscores the fact that strong, accountable, and democratic 
institutions grounded in the rule of law meet with greater success in 
generating prosperity and long-term stability, and the request includes 
a 12-percent increase over FY 2012 levels in resources committed to 
programs that promote and strengthen just and democratic governance.
    The U.S. Strategy Toward Sub-Saharan Africa reflects the importance 
of fostering broad-based, sustainable economic growth through a variety 
of measures, including trade and investment. Accordingly, substantial 
resources ($884 million) are requested in FY 2014 to support economic 
growth, including activities to spur greater agricultural productivity, 
expand and revitalize key infrastructure, and boost trade and 
investment, among other priorities.
    American and African people alike are put at risk by instability 
and violent conflict on the continent, as are our diplomatic and 
development programs and investments. In line with the PPD's emphasis 
on advancing peace and security, roughly 7 percent of the budget 
request will support efforts to prevent and mitigate conflict, to 
counter terrorism and violent extremism, and to build African security 
capacity while promoting healthy civil-military relations and adherence 
to democratic norms. In addition, our efforts to advance peace and 
security are supported by the Contributions for International 
Peacekeeping Activities (CIPA) account, of which over $1.61 billion is 
requested in FY 2014 to fund the U.S. share of assessed contributions 
for U.N. peacekeeping operations working to address conflicts or post-
conflict situations in Liberia, Cote d'Ivoire, the Democratic Republic 
of the Congo, Somalia, Darfur, Southern Sudan, and the Abyei region. 
Since the FY 2014 budget request hearings, the U.N. Security Council 
has approved a new U.N. peacekeeping operation for Mali, for which 
there is no currently identified source of funding.
    As in years past, the request also includes significant resources 
to support the Global Health, Feed the Future, and Global Climate 
Change Presidential Initiatives that seek to promote opportunity and 
development by transforming Africa's public health systems, 
strengthening its food and nutrition security, and facilitating 
climate-resilient development and better management of natural 
resources.
    The FY 2014 request is a result of close collaboration within the 
foreign affairs interagency community. Initial input for the request 
comes from our missions in the field and reflects on-the-ground 
coordination of all U.S. Government partners under Chief of Mission 
authority, including Millennium Challenge Corporation (MCC) resident 
country representatives. From the initiation of budget planning in the 
field to the completion of the President's budget request, the Africa 
bureaus at State and USAID work hand-in-hand and seek input from and 
review by other U.S. Government partners, as appropriate.
    The U.S. Government's efforts to address the HIV/AIDS pandemic are 
a prime example of this degree of coordination. Through the President's 
Emergency Plan for HIV/AIDS Relief (PEPFAR), the cornerstone of the 
Global Health Initiative, State's Office of the Global AIDS Coordinator 
leads an interagency process--including USAID, the Department of Health 
and Human Services, the Department of Defense, and the U.S. Peace 
Corps--in planning and implementing a comprehensive response to HIV/
AIDS in sub-Saharan Africa.
    Additionally, with respect specifically to the Millennium Challenge 
Corporation (MCC), the Secretary of State serves as the organization's 
chairperson. The USAID Administrator, along with other principals from 
the interagency community, including the Secretary of the Treasury, the 
U.S. Trade Representative, and others, serve as MCC board members. This 
kind of collaboration and participation ensures that interagency 
partners' respective resources are brought to bear in order to advance 
common objectives and broader U.S. national interests while increasing 
the impact and optimizing the effective stewardship of funds.

    Question #33. What is the driving interest of the United States in 
its engagement with the continent? How is that strategy affected by the 
prioritization of programs that constitute a significant percentage of 
the aid to Africa, such as the Global Health Initiative, Feed the 
Future, and Global Climate Change funding?

    Answer. The driving interests of U.S. engagement in sub-Saharan 
Africa are multifaceted and interrelated. They include a desire for 
shared peace, prosperity, and development; the advancement of universal 
values; and efforts to counter threats to the United States and the 
international order. As described in the U.S. Strategy Toward Sub-
Saharan Africa, the United States seeks to advance these interests by 
prioritizing strong democratic institutions; broad-based economic 
growth, including through increased trade and investment; peace and 
security; and opportunity and development. The FY 2014 request 
identifies the diplomatic and development resources, and associated 
programs, needed to make meaningful progress toward all of the 
Strategy's goals and the United States broader interests. A majority of 
the overall request for sub-Saharan Africa supports Presidential 
Initiatives: Global Health, Feed the Future, and Global Climate Change. 
These initiatives address critical issues on the continent and are 
inherently more resource intensive than programs that advance other 
elements of U.S. strategy toward sub-Saharan Africa. Funding for 
programs that advance peace and security and democratic governance 
continue to be high priorities, as these are important pillars of the 
U.S. Strategy. The requested 12-percent increase over FY 2012 levels 
for programs that strengthen democratic institutions is indicative of 
the importance placed on that priority in line with the U.S. Strategy.

    Question #34. What are the central points of agreement regarding 
economic growth across Africa and how has the United States adjusted 
its economic development and trade policy to achieve improvements in 
sub-Saharan Africa? How would you assess the impact of existing 
programs such as AGOA, MCA, OPIC/EXIM in enabling greater U.S. 
investment and trade with Africa?

    Answer. The International Monetary Fund (IMF) forecasts sub-Saharan 
Africa will experience growth rates over 5 percent in 2013 and that 7 
of the world's 10 fastest-growing economies through 2015 will be in 
Africa. Africa's growth and its rising middle class offer the U.S. 
private sector a new market for its goods and services.
    Existing U.S. programs to foster U.S. investment and trade with 
Africa have achieved notable results, and we are exploring new 
initiatives to further strengthen our trade and investment relationship 
with the continent. The Africa Growth and Opportunity Act (AGOA) has 
helped eligible countries grow and diversify their exports to the 
United States, create jobs in the United States and Africa, and attract 
investment with support from USAID's regional Trade Hubs. Last year, 
the Overseas Private Investment Corporation (OPIC) supported a record 
amount of private sector investments in Africa, more than $1.7 billion. 
And in partnership with the Export-Import Bank (Ex-Im) and the U.S. 
Trade and Development Agency (USTDA), OPIC recently opened an office in 
South Africa to promote U.S. private sector investment in clean energy 
projects across the continent. The Millennium Challenge Corporation 
(MCC) has also strengthened economic growth and opportunities for U.S. 
businesses, notably through a focus on improving infrastructure and 
regulatory environments, as well as opportunities for U.S. investors 
and exporters.
    MCC considers $3.2 billion, or 35 percent of its overall assistance 
to partner countries, as ``aid for trade.'' While each country's grant 
program is different, many MCC partner countries place a high priority 
on increasing competiveness and facilitating domestic commerce as well 
as regional and international trade. In Africa, MCC has partnered with 
14 countries, totaling over $5 billion in compacts, to improve their 
capacity for trade by removing internal barriers to trade; building 
institutional capacity in areas such as customs and national standards; 
developing business skills; and building the transportation, energy, 
and other infrastructure needed to enable trade and business expansion 
that can propel economic growth.
    The 2012 Presidential Policy Directive for sub-Saharan Africa 
spurred creation of a new ``Doing Business in Africa'' (DBIA) campaign 
to provide support for U.S. companies interested in doing business in 
Africa, and it highlights an emerging partnership with the East Africa 
Community to support Africa's regional integration and increase U.S. 
trade and investment with the region. The DBIA campaign will include 
expanding targeted trade missions to Africa and efforts to bring more 
African buyer delegations to the United States.
    In 2012, State launched the Direct Line Program for U.S. 
Ambassadors to provide on-the-ground information about a country's 
business climate and opportunities to U.S. companies. U.S. embassies in 
sub-Saharan Africa have hosted 13 Direct Line calls to-date. In the 
coming months, State will roll out a new online database where U.S. 
companies can find timely leads on foreign government procurement 
opportunities, including large infrastructure projects.
    State and USTR are also continuing efforts to expand the number of 
Bilateral Investment Treaties (BITs) with sub-Saharan Africa, to 
encourage U.S. investment by improving the investment climates, 
promoting economic reforms, and strengthening the rule of law. The 
United States currently has 6 BITs in force in sub-Saharan Africa out 
of a total of 40 worldwide, including the U.S.-Rwanda BIT--the most 
recent signed. Negotiations are underway with Mauritius, and 
exploratory discussions are being held with Ghana and Gabon as well as 
with the East African Community for a regional investment agreement as 
noted above under the rubric of the U.S.-EAC Trade and Investment 
Partnership.

    Question #35. What are the specific metrics for the TSCTP and 
PREACT programs and how have they been applied over the last 3-5 years? 
What has changed since the most recent Mali experience?

    Answer. While Africans in general have not been receptive to al-
Qaeda ideology or tactics, al-Qaeda and other violent extremist groups 
actively seek to exploit 
weak governance, inadequate service delivery, poor security capacity, 
and large ungoverned spaces in West and East Africa. The U.S. 
counterterrorism strategy 
in Africa focuses on building and sustaining the long-term capacity of 
regional partners through the Trans-Sahara Counterterrorism Partnership 
(TSCTP) and the Partnership for Regional East Africa Counterterrorism 
(PREACT). TSCTP and PREACT are the U.S. Government's multiyear, 
multisector programs to help regional partners engage populations at-
risk of extremism, address drivers of radicalization, strengthen border 
and customs systems, enhance financial controls, and build law 
enforcement and security sector capacity.
    Metrics for TSCTP and PREACT programs include output measures such 
as the number of host-government officials trained in specific 
counterterrorism capabilities and the number of countering violent 
extremism programs implemented in a particular country by civil society 
and partner governments. We also apply more outcome-oriented 
evaluations such as the extent to which those officials demonstrably 
operationalize those capabilities and the overall professionalism and 
readiness of the host-nation security sector in response to terrorist 
threats. U.S. embassies and other U.S. agencies carry out periodic 
assessments and site visits to evaluate how effectively partner nations 
are utilizing and institutionalizing U.S. counterterrorism training and 
equipment. Our embassies and various U.S. agencies also carry out 
periodic assessments and surveys to identify drivers of radicalization 
and determine the effectiveness of U.S. programs to counter violent 
extremism. These assessments help to identify vulnerabilities and best 
practices that shape future programming decisions.
    With regard to the recent Mali experience, we believe our TSCTP 
programming generally has helped our African partners to confront the 
threat presented by 
Al Qaeda in the Islamic Maghreb (AQIM) and to prevent AQIM from 
establishing a permanent safe haven in northern Mali or the broader 
Sahel region. France and select African countries, which received 
training and equipment through TSCTP, have dealt significant blows to 
AQIM and pushed it out of key strongholds in northern Mali. In order to 
consolidate these positive trends, it is essential that Mali restore 
democratic governance and address the core economic and political 
grievances that AQIM seeks to exploit. We continue to look for ways to 
enhance TSCTP programming to better address the evolving threat 
environment and establish effective, accountable, democratic security 
institutions.

    Question #36. What funding sources and programming are TSCTP or 
PREACT-specific? What other specific funding mechanisms and programs 
are utilized to fund TSCTP and PREACT?

    Answer. To ensure a comprehensive, multisector approach, the 
Department and USAID use different funding streams to advance the 
Trans-Sahara Counterterrorism Partnership (TSCTP) and Partnership for 
Regional East Africa Counterterrorism (PREACT) strategic objectives. 
The President's Fiscal Year 2014 budget request includes dedicated 
funding for TSCTP and PREACT from the following foreign assistance 
accounts: (1) Development Assistance; (2) Economic Support Funds (ESF); 
(3) Foreign Military Financing (FMF); (4) International Narcotics 
Control and Law Enforcement (INCLE); (5) Nonproliferation, 
Antiterrorism, Demining and Related Programs (NADR); and (6) 
Peacekeeping Operations (PKO). In addition to these specific funding 
allocations, TSCTP and PREACT may also benefit from other global 
counterterrorism funding, for example NADR antiterrorism funds support 
regional-focused counterterrorism projects developed by the Bureau of 
Counterterrorism's 
Regional Strategic Initiative (RSI) program. Department of Defense 
section 1206 funding may also be used to train and equip foreign 
military forces.

    Question #37. Why have GAO recommendations from a 2008 report on 
TSCTP been accepted by State Department but no action taken to make 
improvements? What if any U.S. or partner constraints are there to more 
effective programs?

    Answer. The Trans-Sahara Counterterrorism Partnership (TSCTP) 
remains the U.S. Government's primary program to support the long-term 
capabilities of the countries in West, Central, and North Africa to 
address the threat posed by Al Qaeda in the Islamic Maghreb (AQIM) and 
other violent extremist groups. The challenges in this region are 
great, and we believe it is critical that TSCTP employ a multifaceted 
approach to build partner capacity, strengthen regional cooperation, 
and counter violent extremism across the region. The 2008 Government 
Accountability Office (GAO) report recommended that the U.S. Government 
develop a comprehensive strategy for TSCTP with clear goals, 
objectives, and milestones, and seek to enhance interagency 
coordination. We have made progress in implementing the GAO report's 
recommendations. We continue to refine TSCTP's strategy based on 
lessons learned and our analysis of the evolving threat environment.
    There is strong coordination between interagency partners, program 
managers, U.S. Africa Command (AFRICOM), and our embassies in the field 
to better ensure an integrated approach. We have put in place multiple 
coordination mechanisms for TSCTP, including an annual TSCTP 
conference, periodic field visits, and regular video-teleconference 
calls. The first line of coordination and oversight takes place at our 
embassies. While various assessments and inputs from throughout the 
interagency inform decisions regarding TSCTP programming, chiefs of 
mission must concur with all proposed activities.
    Individual TSCTP programs are closely monitored and assessed in the 
field and in Washington. U.S. embassies and various U.S. agencies carry 
out periodic assessments and site visits to evaluate how effectively 
partner nations are utilizing and institutionalizing U.S. 
counterterrorism training and equipment. As noted in the referenced GAO 
report, establishing institutional metrics for success with our 
counterterrorism programming is challenging. Nevertheless, the 
interagency continues to explore ways to update our performance 
indicators and identify best practices. Our embassies and various U.S. 
agencies also carry out periodic assessments and surveys to identify 
drivers of radicalization and determine the effectiveness of U.S. 
programs to counter violent extremism.
    There continue to be considerable challenges to designing and 
implementing effective programming. Many members of TSCTP are counted 
among the poorest countries in the world and currently lack basic 
capabilities to secure their borders, respond to crisis situations, and 
respond to aggrieved populations. However, these countries have 
demonstrated the essential political will to take responsibility for 
their own defense and have sought out long-term engagement with the 
United States to build up their capabilities. To the extent possible, 
we seek to ensure that TSCTP assistance packages are tailored to fit 
the priorities and needs of individual countries. At the same time, we 
support regional and subregional initiatives that can strengthen 
cooperation and interoperability.
    Despite the challenges, the TSCTP approach has proven successful in 
Mauritania, Niger, Chad, and Burkina Faso, where willing partners have 
intensified their efforts to confront the AQIM threat. Due in part to 
TSCTP engagements, these countries have increased their limited 
capabilities to more effectively monitor, control, and defend their 
territories against transnational threats, including terrorism. In 
Mauritania, for example, U.S. assistance has enabled military and law 
enforcement to deploy and sustain units on its eastern border, in the 
extremely austere frontier. Utilizing U.S.-supplied aircraft and 
equipment, these units have increased Mauritania's border security and 
interdicted terrorists. Similarly, Niger has benefited from U.S. 
training and equipment to bolster its efforts to protect its borders 
and interdict terrorists attempting to transit through its territory.
    In addition to initiatives to bolster the capacities of regional 
military and law enforcement, several TSCTP programs aim to enhance 
individual and community resilience to the risk of violent extremism. 
For example, TSCTP supports educational and training courses in Algeria 
and Morocco, and extensive youth employment and outreach programs, 
community development and media activities in Mauritania, Senegal, 
Niger, and Chad. These programs continue to demonstrate a measurable 
effect on factors that correlate to the drivers of violent extremism 
such as levels of civic engagement, individual sense of identity, and 
perceptions of the use of violence. We continue to look for ways to 
make these programs more effective and targeted.

    Question #38. The Global Peace Operations Initiative was intended 
to create an Africa peacekeeping capacity that would provide responsive 
and effective African peacekeepers in 5 subregional formations.

  <bullet> What is the current commitment for FY14 to the GPOI ACOTA 
        program and what are the longer term goals of sustaining such 
        train and equip efforts? What is the status of each of the 
        intended subregional peacekeeping contingents? How have other 
        nations contributed to this train-and-equip program? To what 
        extent does this program fail to meet requirements on the 
        continent? Why?

    Answer. The Global Peace Operations Initiative (GPOI) was 
established in 2005 to strengthen international peacekeeping 
capabilities, with a focus on Africa. Though we have trained African 
peacekeepers across the continent, our training has not focused on the 
African Union's subregional contingents, which comprise the AU's 
Standby Force. The FY 2014 request for the GPOI program is $75M, which 
is consistent with the FY 2013 request of $75M. Approximately 60-65 
percent of GPOI's annual budget supports peacekeeping capacity-building 
activities in African partner countries, with a significant portion of 
the remaining funds supporting the deployment of peacekeepers from 
other regions to peacekeeping missions on the African Continent.
    The long-term goal of our training is African partner militaries 
that can excel at critical peacekeeping tasks on the continent. Since 
2005, we have established ACOTA partnerships with 25 African countries, 
18 with which we are actively engaged in training for peacekeeping 
missions and the deployment of the African-Led International Military 
Force in Mali (AFISMA) point to the development of this capacity.
    Like-minded international donors, including the European Union, 
United Kingdom, France, Germany, Denmark, Canada, and Japan provide 
individual and unit training, equipment, and advisory assistance for 
African military, police, and civilian peacekeepers, as well as support 
enhancements to peacekeeping training facilities. The Government of the 
Netherlands (GON) has provided the ACOTA program with over $35 million 
since 2007.
    Challenges to the effectiveness of our training in meeting the 
needs of the continent include the increasing demand for peacekeepers 
in light of shrinking budgets and the lack of developed institutional 
capacity.

    Question #39. The U.S. Africa Command is approaching 5 years of 
full operational capability and its leadership has been tested in 
coordinating for combat in North Africa. It has also expended a great 
deal of effort in bilateral security cooperation across the continent.

  <bullet> Assess the degree of coordination and collaboration between 
        State Department and AFRICOM as it relates to the overall U.S. 
        bilateral relationships in Africa. What specific 
        institutionalized venues or policy vehicles exist for such 
        coordination and collaboration and at what levels? What is 
        lacking that would improve such coordination and collaboration?

    Answer. To ensure a high degree of ongoing coordination and 
collaboration between AFRICOM, Office of the Secretary of Defense/Joint 
Staff, and the State Department, AFRICOM and subordinate command have 
hosted annual security cooperation planning conferences in addition to 
annual planning meetings which take place in the host-nation with host-
nation input. Ambassadors and Deputy Chiefs of Mission, in coordination 
with Senior Defense Officials stationed at the embassies and with 
AFRICOM staff members, ensure that all military activity (e.g., 
military senior leader visits, military exercises) supports overarching 
bilateral political objectives. Interagency working groups have 
addressed specific topics (i.e, Mali, Global Security Contingency 
Fund).
    To improve upon the effectiveness of AFRICOM/State Department 
coordination and collaboration, interagency planning needs to continue 
to focus on establishing enduring, sustainable programs with long-term 
effects that address areas of mutual interest and concern. Host-nations 
and U.S. embassies have a finite capacity to absorb military activity; 
thus, all the more reason to ensure the effectiveness of AFRICOM 
programs.

    Question #40. Who is responsible for AFRICOM activities in a given 
mission? How is the Chief of Mission informed of AFRICOM activities and 
plans?

    Answer. The Ambassador, or chief of mission, is responsible for 
approving all AFRICOM activities in his/her country of assignment. A 
full-time senior defense official, posted to most embassies, keeps the 
chief of mission informed of planned activities and the effects of past 
activities. The senior defense is responsible for implementing 
activities in close coordination with the interagency embassy country 
team.

    Question #41. What are the greatest concerns and what are 
considered most valuable in relation to AFRICOM activities by the State 
Department, USAID, Chief of Mission, and host country officials?

    Answer. AFRICOM is an important partner in advancing our strategic 
objectives and partnerships in Africa, including building the capacity 
of our partner nation militaries, reinforcing norms like respect for 
human rights and civilian control of the military, and reinforcing our 
relationships and cooperative efforts with international and regional 
institutions in Africa. Both the Department of State and USAID work 
closely with AFRICOM as it plans and develops its new initiatives and 
programs. In doing so, we seek to ensure that as we implement the 
administration's Africa policy, we properly balance the use of 
diplomatic, development, and security assistance tools to achieve our 
national objectives and assist our African partners to increase and 
maintain peace and stability in Africa.
    AFRICOM's most valuable role on the continent is helping to build 
more professional, effective defense institutions that respect human 
rights and civilian control of the military. For instance, AFRICOM has 
played a critical role in the efforts to build professional defense 
institutions in post-conflict states like Liberia. AFRICOM participates 
in the Department of State's Africa Contingency Operations Training and 
Assistance program through the provision of military mentors and 
trainers, and has provided specialized counterterrorism training and 
equipment to peacekeepers deploying to Somalia under the section 1206 
authority. AFRICOM has also provided a critical role in training troops 
in the Sahel region to address the threat posed by Al Qaeda in the 
Islamic Maghreb as part of the Trans Sahara Counterterrorism 
Partnership program. AFRICOM also has provided advice and assistance to 
Ugandan and regional African forces pursuing the Lord's Resistance 
Army. Finally, AFRICOM is also helping to build the capacity of African 
states to secure their maritime domains through programs like Africa 
Partnership Station, which furthers important U.S. strategic interests 
like Freedom of Navigation, protecting free trade routes, and 
inhibiting piracy and other crimes at sea.

    Question #42. The United Kingdom recently conducted a study and 
found that a number of U.N. organizations were providing poor value for 
money. In light of this study, what are the top three U.N. 
organizations the United States currently funds that provide the least 
value for our investment? Is this funding a result of a congressional 
earmark or does State provide the funding voluntarily?

    Answer. The Department receives two appropriations for 
International Organizations through two budget accounts: (1) 
Contributions to International Organizations (CIO) and (2) 
International Organizations and Programs (IO&P). The CIO account 
provides funds for U.S.-assessed contributions to 45 international 
organizations. The IO&P account provides for voluntary contributions to 
a limited number of international organizations to accomplish 
transnational goals (e.g., safeguarding international air traffic) or 
to multiply the effect of U.S. assistance through support for 
international programs.
    The CIO account funds U.S. obligations to international 
organizations pursuant to a treaty, convention, or U.S. law. As part of 
the preparation of our annual budget process, the Department reviews 
how U.S. participation furthers one or more of the strategic goals 
outlined in the ``Quadrennial Diplomacy and Development Review'' (see 
FY 2014 Congressional Budget Justification at http://www.state.gov/s/d/
rm/c6112.htm). Comparing the relative value of each organization is 
problematic, given the variety of evaluative criteria that would apply 
across this diverse set of organizations. Further, U.S. participation 
in each of these organizations has strong support from numerous U.S. 
Federal agencies and private sector entities that rely on these 
organizations to advance U.S. objectives abroad. The Department 
addressed this challenge as part of its Report to Congress on the 
``Review of U.S. Membership in International Organizations,'' submitted 
in June 2012. We have attached the report for your review and 
consideration (see attachment below).
    The United States uses the provision of voluntary contributions, 
via the IO&P account, to seize opportunities to take a leadership role 
in areas of critical interest to the United States, such as gender 
issues, environmental issues, and humanitarian aid. In this way, the 
United States can multiply the influence and effectiveness of its 
support in targeted areas.
    Further, under the United Nations Transparency and Accountability 
Initiative (UNTAI), the Department targets areas where member states 
can increase oversight and accountability and ensure that contributions 
are utilized efficiently and effectively. The United States has long 
led the charge on U.N. management reform, and we will continue to 
advocate for budget discipline, program prioritization and efficiency, 
and oversight.

ATTACHMENT TO ABOVE RESPONSE

                           Report to Congress

        review of u.s. membership in international organizations
    This report was prepared and is being submitted in accordance with 
the joint explanatory statement (H. Rept. 112-331) accompanying the 
Department of State Foreign Operations, and Related Programs 
Appropriations Act, 2012 (Div. I, P.L. 112-74), which requests that the 
Department of State ``conduct a review of United States membership in 
each international organization supported by [the Contributions to 
International Organizations] account and prioritize the United States 
participation in, and funding for, each organization in accordance with 
United States policy goals. The review should also include any recent 
reforms the organizations have taken to increase transparency and 
accountability'' and provide the results of the review.
    Funding for the Contributions to International Organizations (CIO) 
account currently enables U.S. participation in 44 international 
organizations (IO) that advance U.S. foreign policy objectives in every 
region of the world. International organizations facilitate collective 
action by the world community. By combining resources and expertise, 
international organizations can undertake coordinated multilateral 
efforts and be an effective alternative to acting unilaterally or 
bilaterally, especially in the areas of providing humanitarian 
assistance, eradicating disease, setting food and transportation safety 
standards, addressing nuclear proliferation and reaching agreement to 
impose sanctions on rogue states and actors.
    The Administration's commitment to strengthening and working 
through international organizations to jointly address shared 
challenges is laid out in the National Security Strategy as a vital 
instrument of diplomacy and foreign policy.
Prioritization
    Participation in IOs has strong support from U.S. federal agencies, 
Congress and private sector entities that rely on these IOs to advance 
their objectives abroad. The justification for continued membership in 
each IO is the product of a collaborative effort between the U.S. 
Department of State and other agencies that send delegations to 
represent the United States in these bodies and otherwise take 
advantage of opportunities to promote U.S. interests at these 
organizations. The agencies that participate in these IOs include the 
Departments of Defense, Homeland Security, Treasury, Commerce, 
Agriculture, Transportation, Labor, Education, Interior, and Health and 
Human Services, among others.
    Each IO advances one or more of the following strategic goals (SG) 
outlined by the Secretary of State in the Quadrennial Diplomacy and 
Development Review:

  <bullet> SG 1--Counter threats to the United States and the 
        international order, and advance civilian security around the 
        world.
  <bullet> SG 2--Effectively manage transitions in the frontline 
        states.
  <bullet> SG 3--Expand and sustain the ranks of prosperous, stable and 
        democratic states by promoting effective, accountable, 
        democratic governance; respect for human rights; sustainable, 
        broad-based economic growth; and well-being.
  <bullet> SG 4--Provide humanitarian assistance and support disaster 
        mitigation.
  <bullet> SG 5--Support American prosperity through economic 
        diplomacy.
  <bullet> SG 6--Advance U.S. interests and universal values through 
        public diplomacy and programs that connect the United States 
        and Americans to the world.

    As part of the preparation of our annual budget request for the CIO 
account, the Department reviews how U.S. participation in each IO 
furthers U.S. policy goals. Specifically, in our FY 2013 Congressional 
Budget Justification (CBJ) (http:// www. 
state.gov/documents/organization/156215.pdf), we describe how each IO 
is linked to the Department's strategic goals. Continued participation 
in each of these 44 IOs has been determined to be in the national 
interest and contributes to U.S. strategic priorities.
    U.S. membership and participation in, as well as contribution to, 
any individual international organization varies by size, scope, and 
mission. Because of these various factors, conducting a comparison of 
the relative value of each organization is subjective. For example, the 
U.S. assessed contribution to the World Health Organization (WHO), 
which works to eradicate diseases and address health issues, is $109 
million. ln contrast, the U.S. assessed contribution to the 
International Tropical Timber Organization (ITTO), which focuses on 
sustainable development of tropical forests with a far-reaching impact 
on sustaining the U.S. wood products industry, biological diversity, 
and conservation of a dwindling resource, is about $300 thousand. 
Although the U.S. contributions to these two international 
organizations are markedly different, U.S. participation in them 
remains a priority.
    It should be noted that over the years, the United States has 
withdrawn from membership in IOs for a variety of reasons and after 
consultation with stakeholders and partners. As recently as last year, 
the United States withdrew its membership in the International Rubber 
Study Group (IRSG), in which the United States had been a member since 
its inception in 1946. ln assessing impact of possible U.S. withdrawal 
from the IRSG, in 2009 and 2010, the Departments of State and Commerce 
sought views from agencies with potential interests in maintaining our 
participation. None of the agency partners expressed concern over 
withdrawal. The Department of Commerce also sought views from industry 
and trade associations that participated in the IRSG and did not 
receive broad expressions of support for maintaining U.S. membership in 
the Group. Going back further, the U.S. withdrew our membership in the 
International Office of the Vine and Wine in 2001 and in the Inter-
American Indian Institute in 2000. The United States withdrew from 
these IOs either because of an unclear purpose and function or waning 
ability to address U.S. concerns.
Reforms
    The Department of State has spearheaded reforms to improve 
efficiency and responsiveness at the U.N. and other IOs through the 
U.S.-sponsored United Nations Transparency and Accountability 
Initiative (UNTAI). Phase I of UNTAI was launched in 2007 for the 
purpose of extending reforms already in place at the U.N. Secretariat 
to the rest of the U.N. system. As a result, many U.N. organizations 
have strengthened internal oversight and transparency, established 
ethics offices, made more information publicly available online, and 
updated financial systems.
    In 2011, the Department of State worked with the U.N. to launch 
UNTAI Phase II (UNTAI-II) to target further areas where member states 
can increase oversight and accountability and ensure that contributions 
are utilized efficiently and effectively. Specifically, UNTAI-II seeks 
to make reforms in the following areas: 
(1) effective oversight arrangements; (2) independent internal 
evaluation function; (3) independent and effective ethics function; (4) 
credible whistleblower protections; (5) conflicts of interest program; 
(6) efficient and transparent procurement; (7) enterprise risk 
management; and (8) transparent financial management.
    The Department of State assesses IOs' progress annually. Initial 
assessments under UNTAI-II took place in late 2011 and show that most 
U.N. organizations continue to make progress on oversight and ethics 
reforms. These assessments also indicate that reforms of internal 
evaluation, procurement, and risk management, which are new goals under 
Phase II, are still in their early stages, but work is ongoing. 
Specific examples are as follows:
    The U.N. is implementing the following management reforms to 
promote accountability and transparency: (1) adoption of International 
Public Sector Accounting Standards (IPSAS); (2) strengthening of 
internal controls related to the U.N's procurement systems; (3) 
improvement in the training program for procurement officers; and (4) 
establishment of an independent bid protest system.
    The Food and Agriculture Organization (FAO) is in the process of 
implementing the recommendations of the Independent External Evaluation 
(IEE), released in 2007 and approved by FAO's members in 2008. In terms 
of management, the IEE recommended reform of human resources, ethics, 
finance, reporting structures, and organizational cultural change.
    In 2011, the International Atomic Energy Agency (IAEA) implemented 
the first phase of a new Enterprise Resource Planning (ERP) system, 
partly financed with extra budgetary contributions from the United 
States. The organization's first IPSAS compliant financial statements 
were issued in December 2011.
    International Civil Aviation Organization ICAO is implementing key 
budget and management reforms, including adopting an ethics framework 
with whistleblower protections fully implementing International Public 
Sector Accounting Standard (IPSAS); and drafting risk registers related 
to Enterprise Risk Management.
    International Labor Organization (ILO) introduced a new pilot 
procedure to rigorously track evaluation recommendations, a system of 
follow-up audits to vetify management action to implement 
recommendations, and new procurement rules and procedures to bring ILO 
closer in line with other U.N. organizations. ILO is also establishing 
the Independent Oversight Advisory Committee as a permanent advisory 
committee to the ILO governing body and updating its terms of reference 
in the process.
    The International Maritime Organization (IMO) Council recently 
adopted an internal audit disclosure policy by which member states can 
request access to internal audit reports from the Head of Internal 
Oversight Services.
    International Telecommunication Union (ITU) recently implemented 
several management reforms, including establishing an independent audit 
committee; adopting policies on financial disclosure and whistleblower 
protections; and adopting results-based budgeting to link resources to 
operational plans.
    The U.N. Educational, Scientific and Cultural Organization (UNESCO) 
received approval from the General Conference to begin implementing the 
first phase of the decentralization strategy, which aims to streamline 
the field network and encourage greater collaboration among field 
offices. UNESCO has also begun to implement a new human resources 
management strategy for 2011-2016: which is comprised of three core 
objectives: improve the delivery capacity of UNESCO, strengthen the 
field presence, and human resources planning.
    In 2011, the Universal Postal Union (UPU) Council of Administration 
(CA) adopted proposals to outsource the functions of the UPU 
Secretariat's ethics officer to another U.N. specialized agency and the 
work of its internal auditor to a multinational accounting firm and 
approved plans by the Secretariat to seek the services of an ombudsman 
from an outside source. The Secretariat produced administrative 
instructions on whistleblower protection and harassment prevention.
    WHO convened a special session of the Executive Board to address 
organization-wide reform, including streamlining of recruitment/
selection processes, improving performance management processes, 
implementing a mobility and rotation framework and enhancing staff 
development. WHO developed a comprehensive and integrated risk 
management approach for its administrative functions.
    The World Meteorological Organization (WMO) implemented IPSAS, 
adopted an independent audit committee, approved a risk management 
policy, and developed a new integrated budget model. WMO is requiring 
financial disclosure by all senior officials with fiduciary 
reponsibilities; formalizing a process to select an External Auditor; 
filling the role of ethics officer; and implementing a program 
monitoring and evaluation plan.
    Organization of American States (OAS) established a working group 
on the review of OAS programs to assess its programs, general standards 
budget, income sources, and mandates. OAS is continuing its work to 
institute a results-based budget based on a thorough review of Member 
States' priorities to demonstrate results; modify the indirect cost 
recovery policy; address building repairs, fundraising and increasing 
transparency in hiring/promoting staff; and strengthen the inspector 
general functions.
    The Pan American Health Organization (PAHO) focused on 
strengthening its ethics office, which also acts as the coordinator for 
PAHO's Integrity and Conflict Management System, oversees the ethics 
help line, and serves on the Standing Committee on Asset Protection and 
Loss Prevention. ln addition, the Director has initiated changes to the 
criteria for selecting a chair for the Board of Appeal, which resulted 
from a comprehensive review of PABO's Integrity and Conflict Management 
System.
    Also, in our FY 2013 Congressional Budget Justification, the 
Department included details about recent accomplishments, priorities 
and reforms for each of the 44 IOs funded by the CIO account, along 
with the principal partners and benefits of each organization.

    Question #43. Over the past 10 years, the U.N.'s International 
Civil Service Commission (ICSC) has recommended salary increases for 
New York-based U.N. employees above the margin for which they are 
calculated.

  <bullet> Considering member states, including the United States, have 
        had to freeze salaries for civil service employees, what action 
        has the administration taken to oppose increases in U.N. 
        employees' salaries? Additionally, what action has the 
        administration taken to urge the ICSC to clarify and publish 
        the assumptions regarding how salary adjustments are calculated 
        for the purposes of transparency and accountability?

    Answer. The United States has led a vigorous effort to control 
staff salaries at the United Nations. Due to lobbying by the U.S. 
Mission to the United Nations (USUN), the Fifth Committee approved the 
first-ever pay freeze for New York-based U.N. professional staff from 
August 1, 2012-January 31, 2013, despite intense opposition by some 
countries.
    The United States has also led the charge to clarify the complex 
methodology that the United Nations uses to set and adjust U.N. 
salaries and benefits. Due to lobbying by USUN and other member states, 
the Fifth Committee requested the International Civil Service 
Commission to conduct a comprehensive review of the U.N. compensation 
package and the underlying methodology behind it. The intent of this 
review is to recommend to the General Assembly what is needed to 
attract and retain talent while taking into account that U.N. 
organizations face financial constraints and will recommend ways to 
streamline the methodology to make it more clear and accountable to 
member state oversight.

    Question #44. What is the total request for funding for global 
climate change programs in the Function 150 Account? What is the 
breakdown by agency?

    Answer. The President's FY 2014 Budget requests $836.6 million for 
the Global Climate Change Initiative (GCCI), of which $481 million 
would be programmed through the Department of State and USAID and 
$355.6 million would be programmed through the Department of Treasury.

    Question #45. In what ways are the Department of State and USAID 
conducting climate change programs or initiatives that are duplicated 
by multilateral organization to which we contribute, including the 
United Nations and its affiliated agencies? Please provide a 
description of each multilateral program to which we contribute for 
these purposes, the U.S. funding level, and the percentage of total 
funding that the U.S. contribution comprised.

    Answer. The United States provides support to multilateral 
organizations to accomplish goals where solutions to problems can best 
be addressed globally. Climate change is one of these areas. U.S. 
support to multilateral organizations for climate change work advances 
U.S. strategic goals by increasing coordination with and leveraging 
resources from other countries. The Department of State, USAID, and the 
Department of Treasury coordinate closely to ensure the coherence of 
international climate programming. Working together through the Global 
Climate Change Initiative (GCCI) enhances our ability to design 
bilateral, plurilateral, and multilateral programs that are 
complementary to and nonduplicative of efforts underway through 
multilateral channels. Both the Department of State and the Department 
of Treasury fund climate work through multilateral organizations.
                          department of state
    The Department of State provides funding to the following 
multilateral programs in support of U.S. climate change objectives:
1. Least Developed Countries Fund (LDCF) and Special Climate Change 
        Fund (SCCF)
    For FY 2014, the Department of State plans to use the $34 million 
requested for Adaptation for the Bureau of Oceans and International 
Environmental and Scientific Affairs (OES) to maintain support for 
climate adaptation through the Least Developed Countries Fund (LDCF) 
and the Special Climate Change Fund (SCCF). The Global Environment 
Facility (GEF) operates the LDCF, with the World Bank as Trustee for 
the fund. The GEF develops its projects through 10 implementing 
agencies: the U.N. Development Program (UNDP), the U.N. Environment 
Program (UNEP), the World Bank, the African Development Bank, the Asian 
Development Bank, the European Bank for Reconstruction and Development, 
the Inter-American Development Bank, the International Fund for 
Agricultural Development, the U.N. Food and Agriculture Organization, 
and the U.N. Industrial Development Organization. The LDCF supports the 
49 least-developed countries, which are especially vulnerable to the 
adverse impacts of climate change, in responding to urgent adaptation 
needs in key development sectors. The SCCF also assists countries in 
implementing adaptation measures that increase the resilience of key 
development sectors to the adverse impacts of climate change; however, 
the SCCF is accessible to all developing countries, including non-LDC 
small island developing states and glacier-dependent countries.
    Both funds have concentrated on sectors that are particularly 
vulnerable to the impacts of climate change, such as agriculture and 
water. U.S. support for these funds helps increase the number of 
projects funded and enables countries to integrate adaptation into 
larger development programs that address multiple sectors and are 
therefore anticipated to result in more substantial and long-lasting 
resilience to severe climate risks. Depending upon the performance and 
speed of disbursements by these two funds and other needs, some portion 
of this request may support other adaptation programs.
    Since FY 2010, the United States has contributed $55 million to the 
LDCF or nearly 11 percent of the total and $30 million to the SCCF or 
nearly 14 percent of the total.
2. Incentivizing Sustainable Landscapes
    The Department of State also plans to provide a portion of the $10 
million requested in FY 2014 for Sustainable Landscapes funding 
implemented through the World Bank for OES to a multilateral fund to 
support reducing emissions from deforestation and forest degradation in 
developing countries (REDD+). World Bank funds that may be considered 
for U.S. assistance include the BioCarbon Fund, the Forest Carbon 
Partnership Facility (FCPF), or the Forest Investment Program (FIP).
    The BioCarbon Fund supports projects that sequester or conserve 
carbon in sustainable forest and agroecosystems. The FCPF provides 
incentives to developing countries to reduce emissions through forest 
conservation and restoration as part of REDD+. The FIP supports 
developing country efforts to reduce deforestation and forest 
degradation and promote sustainable forest management as part of REDD+ 
implementation. All three funds focus on programs that generate 
significant additional benefits, including water resource protection, 
biodiversity conservation, and livelihood generation.
    Multilateral sustainable landscapes programming complements 
bilateral efforts and enables the United States to leverage significant 
additional funding from other donors, facilitate larger programs, 
generate access to additional expertise, and support critical fora for 
capacity-building for policymakers, stakeholders, and practitioners 
working to implement sustainable land use programs on the ground.
3. Intergovernmental Panel on Climate Change (IPCC) and U.N. Framework 
        Convention on Climate Change (UNFCCC)
    The FY 2014 request also includes $13 million for the 
Intergovernmental Panel on Climate Change (IPCC) and the U.N. Framework 
Convention on Climate Change (UNFCCC). The IPCC reviews and assesses 
the most recent scientific, technical, and socioeconomic information 
relevant to the understanding of climate change. It does not conduct 
any research nor does it monitor climate related data or parameters. 
The U.S. contribution to the IPCC in 2012 amounted to approximately $2 
million or 22 percent of the total. The UNFCCC Secretariat is charged 
with supporting the operation of the international climate treaty 
framework. U.S. support includes contributions to the work of the 
Adaptation Committee. The United States contributed nearly $6.9 million 
to the UNFCCC in 2012. This figure is 21 percent of the total. 
Department of State funding also will support efforts to unlock low-
carbon energy investments in developing countries and to enhance 
coordination and cooperation among countries and international programs 
to advance low-carbon growth. Funding for the IPCC, the UNFCCC and 
related bodies supports diplomatic and scientific efforts necessary for 
international consensus and action.
4. Montreal Protocol Multilateral Fund
    The FY 2014 request includes $25.5 million for the Montreal 
Protocol Multilateral Fund. The Montreal Protocol Multilateral Fund is 
an effective mechanism for large-scale reductions of the world's most 
potent greenhouse gases. The main objective of the fund is to assist 
certain developing country parties to the Montreal Protocol in 
complying with the control measures of the Montreal Protocol, which 
aims to reverse the deterioration of the ozone layer. As at November 
30, 2012, U.S. contributions for 2011 to the Montreal Protocol 
Multilateral Fund amounted to $29.3 million or nearly 22 percent of the 
total.
                         department of treasury
    The Department of Treasury provides funding to the following 
multilateral programs in support of U.S. climate change objectives:
1. Global Environment Facility (GEF)
    Department of State assistance is complemented by the Treasury 
Department request for support of sustainable landscapes and clean 
energy activities through the Global Environment Facility (GEF). The 
GEF is the largest funder of projects to benefit the global 
environment, providing grants to address issues of biodiversity, clean 
energy, sustainable landscapes, oceans, land degradation, and 
chemicals. The GEF supports innovative, cost-effective investments that 
can be replicated and scaled up by the public and private sectors. The 
FY 2014 request by the Department of Treasury includes approximately 
$143.8 million for the GEF, of which 50 percent--or approximately $71.9 
million--is attributable to the Global Climate Change Initiative.
    Since 1991, the GEF has allocated $10.5 billion, supplemented by 
more than $51 billion in cofinancing, to fund more than 2,900 projects 
in 168 developing countries. The United States pledged $575 million 
over 4 years for the Fifth Replenishment of the GEF. Our cumulative 
unpaid commitments to the GEF totaled $229 million at the end of FY 
2012, the largest of any donor.
2. Climate Investment Funds (CIFs)
    Department of State support for multilateral organizations is also 
complemented by the Department of Treasury's support for the CIFs. The 
United States has pledged a total of $2 billion to the CIFs, which 
include the Clean Technology Fund (CTF) and the Strategic Climate Fund 
(SCF). The World Bank serves as trustee for the CTF and the SCF. The FY 
2014 request by the Department of Treasury includes $215.7 million for 
the CTF and $68 million for the SCF.

<bullet> A. Clean Technology Fund (CTF)

    The CTF targets 18 emerging market countries with rapidly growing 
energy demand, including Mexico, Turkey, India, and South Africa. The 
CTF supports U.S. economic, national security, and environmental 
objectives by incentivizing countries to deploy renewable energy and 
clean transport and to increase energy efficiency throughout the 
economy by reducing greenhouse gas emissions, enhancing energy 
security, and opening up new markets for green technologies. The CTF 
trustee reports that, as of December 2012, nine donors had pledged a 
total of $4.9 billion to the CTF. FY13 appropriations of $175.3 million 
will shortly be transferred to the CTF, bringing cumulative U.S. CTF 
payments to approximately $889 million (or 21 percent of the total 
payments). The United States is the only donor that has not yet 
contributed its full pledge amount.

<bullet> B. Strategic Climate Fund (SCF)

    The SCF is funded by donor pledges of $2.4 billion and is comprised 
of three programs: The Pilot Program for Climate Resilience (PPCR) 
works with 19 countries to increase their resilience to the 
environmental drivers of instability; the Program for Scaling-Up 
Renewable Energy in Low-Income Countries (SREP) helps eight countries 
use renewable energy to expand energy access, stimulate economic 
growth, and reduce vulnerability to energy shocks; and the Forest 
Investment Program works with national governments, the private sector, 
indigenous people, and local communities in eight countries to reduce 
deforestation and forest degradation. SCF funds benefit the United 
States by providing a single channel to promote diverse solutions to 
myriad challenges faced by 33 countries that struggle to balance 
economic growth and environmental pressures. The SCF trustee reports 
that, as of December 2012, 13 donors had pledged approximately $2.3 
billion to the SCF. FY 2013 appropriations of approximately $47.4 
million will shortly be transferred to the SCF, bringing cumulative 
U.S. SCF payments to approximately $247 million or 12 percent of total 
payments. The United States is the only donor that has not yet 
contributed its full pledge amount.

    Question #46. What appropriations categories in the FY 2014 budget, 
other than the Educational and Cultural Exchange Programs category, 
authorize any use of funds for education programs or opportunities, 
including (but not limited to) the following: (1) Programs that cover 
the expenses of visiting foreign nationals or other cultural exchange 
programs, and (2) U.S. citizen or foreign national scholarships? What 
is the Department doing to reduce or eliminate the duplication of 
effort for these activities in other Departments and consolidate this 
activity to reduce cost and eliminate waste?

    Answer. Educational programs for visiting foreign nationals, as 
distinct from cultural exchange programs, can be funded with a number 
of different appropriations categories in the FY 2014 budget, including 
Development Assistance (DA), Economic Support Fund (ESF), International 
Narcotics Control and Law Enforcement (INCLE), and Nonproliferation, 
Anti-Terrorism, Demining and Related Activities (NADR). In all such 
cases, the visiting foreign nationals would be participating in an 
educational program designed to accomplish a specific foreign 
assistance goal authorized by the appropriation used. Unlike programs 
providing an educational benefit in support of a foreign assistance 
program, cultural exchange programs are funded exclusively from the 
Educational and Cultural Exchange Programs account.
    Scholarships for foreign nationals can be funded from an 
appropriate foreign assistance account. ESF and DA funds can be used to 
fund the education of foreign nationals at universities or community 
colleges, either in their home countries, third-countries, or in the 
United States. In addition, INCLE funds might be used to fund a study 
tour for foreign prison officials to learn best practices in prison 
management. In such cases, the educational advancement of the foreign 
national supports the broader educational goals for the foreign 
country. Scholarships for U.S. citizens to study in a foreign country 
would be funded with Educational and Cultural Exchange funds, as 
scholarships for U.S. citizens do not generally support a foreign 
assistance goal. In limited circumstances, when it has been determined 
that a U.S. citizen's activities would be directly contributing toward 
a foreign assistance goal in the foreign country during his or her 
tenure there, Economic Support Funds have been used to provide 
fellowships or other funding to U.S. citizens who may receive some type 
of academic credit for their overseas activities.
    Bureaus and embassies interested in providing educational programs 
in the United States for foreign nationals to further a foreign 
assistance purpose frequently coordinate their efforts with the 
Educational and Cultural Affairs Bureau in order to capitalize on that 
Bureau's expertise in exchanges.

    Question #47. What percentage of Educational and Cultural Exchange 
Programs funding is disbursed directly to foreign governments or 
international nongovernmental organizations to distribute for 
educational or cultural purposes? Please provide a list of each 
disbursement for the past 5 years including recipient's name, total 
funding, purpose of the funding, performance targets and baselines, and 
whether or not the targets were met.

    Answer. The Bureau of Educational and Cultural Affairs (ECA) does 
not disburse Educational and Cultural Exchange Programs funding 
directly to foreign governments or international nongovernmental 
organizations to distribute for educational and cultural purposes. ECA 
awards grants and cooperative agreements only to U.S. public and 
private nonprofit organizations meeting the provisions described in 
Internal Revenue Code section 26 U.S.C. 501( c )(3) to support 
educational and cultural exchanges.

    Question #48. Can the State Department use any other 
appropriations, other than those provided via the Educational and 
Cultural Exchange Programs category, to fund any domestic or 
international educational and cultural exchange programs? If the answer 
is yes, please identify the source(s) and then provide the amount(s) 
both in dollars and as a percentage.

    Answer. Educational exchange programs for visiting foreign 
nationals, as distinct from cultural exchange programs, can be funded 
with a number of different appropriations categories in the FY 2014 
budget in addition to the Educational and Cultural Exchange Programs 
account, including Development Assistance (DA), Economic Support Fund 
(ESF), International Narcotics Control and Law Enforcement (INCLE), and 
Nonproliferation, Anti-Terrorism, Demining and Related Activities 
(NADR). In all such cases, the visiting foreign nationals must be 
participating in an educational program designed to accomplish a 
specific foreign assistance goal authorized by the appropriation used. 
ESF and DA funds can also be used to fund the education of foreign 
nationals at universities or community colleges, either in their home 
countries, third countries, or in the United States. Unlike programs 
providing an educational benefit in support of a foreign assistance 
program, cultural exchange programs are funded exclusively from the 
Educational and Cultural Exchange Programs account.
    In FY 2014, we are requesting $221.9 million for higher education 
activities via the DA, ESF and the Middle East and North Africa--
Incentive Fund (MENA-IF) accounts. These programs are essential to our 
efforts to foster and improve the quality, contributions and 
accessibility of higher education in developing countries. I am happy 
to have my staff talk to your staff in more detail about what types of 
programs that funding supports.

    Question #49. Are any current Educational and Cultural Exchange 
Programs funds being used to fund scholarships or provide other 
financial benefits for individuals who are illegally present in the 
United States? Does the Department vet participants according to their 
legal status in the United States?

    Answer. No Educational and Cultural Exchange Programs funds are 
used to provide scholarships or other benefits to individuals who are 
illegally present in the United States. U.S.-based participants are 
required to obtain valid travel documents in advance of their exchange 
programs, which individuals illegally present in the United States 
cannot do.

    Question #50. What appropriations categories in the FY 2014 budget, 
other than the International Narcotics Control and Law Enforcement 
category, authorize use of funds for the following: International drug 
enforcement efforts (including related training); non-drug-related 
international law enforcement support (including related training); for 
international judicial system support and development (including 
related training); international anticrime efforts (including related 
training); and international drug enforcement efforts (including 
related training)?

    Answer. The International Narcotics Control and Law Enforcement 
(INCLE) account is authorized to fund assistance for counternarcotics 
and other anticrime programs. In addition, however, other foreign 
assistance accounts may have broad mandates that would allow those 
funds to be used for certain of these types of activities. Thus, 
accounts such as Development Assistance (DA) funds and Economic Support 
Funds (ESF) can also be used to provide assistance to develop foreign 
government capacities, including in the area of rule of law, judicial 
system support, and certain, limited law enforcement activities (such 
as community policing programs). The Antiterrorism Assistance (ATA) 
program funded under the Nonproliferation, Antiterrorism, Demining and 
Related Programs (NADR) account is authorized to provide assistance to 
enhance the capacity of foreign law enforcement forces to combat 
terrorism.
    Question #51. What amount (if any) of International Narcotics 
Control and Law Enforcement funding will be dedicated specifically to 
the following: non-drug-related international law enforcement support 
(including related training), international drug enforcement efforts 
(including related training), international judicial system support and 
development (including related training), and international anticrime 
efforts (including related training)? Please express this amount in 
both dollars 
and a percentage of overall International Narcotics Control and Law 
Enforcement spending.

    Answer. The total FY 2014 International Narcotics Control and Law 
Enforcement (INCLE) request is $1.47 billion. Of this amount, $582 
million, or 40 percent of the request, is related to international 
judicial system support and development (with Afghanistan accounting 
for $337 million or 58 percent of this portion of the request, 
specifically in the area of rule of law and human rights); $472 
million, or 32 percent, is related to international drug enforcement 
efforts; $331 million, or 23 percent, is related to non-drug-related 
international law enforcement support; $67 million, or 5 percent, is 
related to international anticrime efforts. All training related to 
each category is included in these estimates.

    Question #52. Are any of the nongovernmental organizations that 
receive International Narcotics Control and Law Enforcement funding 
required to submit performance metrics or other performance data to the 
State Department or any other Federal agency in order to continue to be 
eligible for subsequent funding?

    Answer. Yes, nongovernmental organizations (NGOs) that receive 
International Narcotics and Law Enforcement (INL) funding are required 
to submit performance metrics or other performance data. These 
reporting requirements are outlined in the grant with an NGO or 
indirectly through interagency agreements (IAAs). Under such an 
agreement, the IAA partner may fund an NGO for services to implement 
the interagency agreement. Submission of required reports and 
performance metrics are key factors in the determination of whether or 
not to continue the grant or agreement.

    Question #53. What is the State Department's position with respect 
to preserving more traditional forms of broadcasting, such as shortwave 
radio transmissions, given that many of the poorest parts of the world 
that are most in need of freedom broadcasting rely on shortwave 
technology and may not have access to Internet technology or social 
media resources?

    Answer. We believe that the U.S. international media effort needs 
to utilize a range of communication technologies in order to most 
effectively inform and engage foreign audiences. Shortwave radio 
transmission should be considered as one option where appropriate, 
along with other radio broadcasting techniques, television broadcasts, 
and digital engagement via the Internet and social media channels.
    The FY 2014 budget proposal for the Broadcasting Board of Governors 
(BBG) maintains shortwave service to high-priority target areas where 
shortwave transmissions will continue to be important to satisfy BBG 
mission requirements. Shortwave radio broadcasts would continue in many 
regions that lack access to digital technologies, including North 
Korea, Darfur, and Tibet. The BBG budget proposal also builds upon the 
agency's efforts to evolve international broadcasts in places where 
shortwave is no longer popular, by converting to digital tools 
(satellite and Internet radio, mobile phone technologies, and Internet-
based social media) that are increasingly utilized by certain 
audiences.

    Question #54. Does the State Department agree or disagree with the 
Broadcasting Board of Governors that there should be a chief executive 
officer (CEO) position to run top-level functions, and that this CEO 
should both be chosen by the Board and answerable only to the Board?

    Answer. The Department of State fully supports the creation of a 
chief executive officer (CEO) position for United State International 
Broadcasting, as presented in the administration's budget for fiscal 
year 2014. This move to improve the management and efficiency of 
Broadcasting Board of Governor (BBG) operations was unanimously 
supported by the members of the BBG in January 2012, and the Department 
of State's Office of the Inspector General underscored the importance 
of such an action in a report issued this past January.
    Under this plan, the CEO will be chosen by, and report to, a BBG 
board that is appointed through the White House and confirmed by the 
Senate, with the Secretary of State continuing as an ex-officio member. 
The CEO will provide critically important day-to-day executive 
leadership for U.S. international broadcasting, and will have 
management authority over the Federal and non-Federal elements of U.S. 
international broadcasting. The Broadcasting Board of Governors would 
continue to set the strategic direction of U.S. international 
broadcasting, as well as evaluating its journalistic quality and 
maintaining its journalistic integrity.

    Question #55. On Thursday, April 18, 2013, in testimony before this 
committee, you indicated that the State Department would evaluate 
complaints that foreign governments or foreign officials were illegally 
or inappropriately using foreign assistance funds. Does the Department 
already possess any reports or assessments of foreign governments or 
foreign officials illegally or inappropriately using foreign assistance 
funds?

    Answer. For all forms of assistance, including direct government 
assistance, the Department and USAID rely on internal monitoring and 
evaluation teams to identify any misuse of funds. When permitted by 
security and geographic conditions, monitors are sent into the field to 
ensure programs are being implemented for their intended purposes and 
achieving results. We also rely on our inspector generals (IGs), 
special IGs, and the Government Accountability Office to identify 
illegal or inappropriate use of foreign assistance by foreign 
governments.
    Unfortunately, there have been instances where the illegal or 
inappropriate use of foreign assistance funds has been identified. In 
these cases, we have immediately taken the steps necessary to prevent 
further fraudulent use of funds.

    Question #56. If the State Department already possesses such 
reports or assessments, has the Department used that information in any 
way to adjust foreign assistance funds to violating countries?

    Answer. The Department and USAID are committed to taking the steps 
necessary to protect against illegal or inappropriate use of foreign 
assistance funds. These include thorough reviews of any agency 
receiving funds to ensure they are capable of tracking the funds, 
establishment of separate dollar accounts for U.S. funds where 
appropriate, and careful monitoring of the use of funds once 
transferred.
    In situations where official corruption has been identified, we 
review our assistance mechanisms and take actions to prevent the 
diversion of our assistance, including ceasing assistance through a 
particular ministry or organization if necessary. A significant portion 
of our assistance is implemented through contractors and grantees who 
provide a variety of services, such as training, commodities, and 
technical assistance, directly to the people of the benefiting country 
rather than government officials.
    There are several examples where we have become aware of the 
inappropriate use of funds through investigations by USAID or State 
Inspectors General, Special Inspectors General for Iraq Reconstruction, 
the Special Inspector General for Afghanistan Reconstruction, or the 
Government Accountability Office. In each case, we have taken the steps 
necessary to protect the funds from improper use.

    Question #57. Would the State Department be willing to dramatically 
reduce or eliminate altogether foreign assistance funds if it can be 
clearly demonstrated, via legal judgment or some other fact-based 
determination, that foreign governments or foreign officials are in 
fact using foreign assistance funds illegally or inappropriately?

    Answer. The Department and USAID take the necessary measures to 
prevent officials from misusing U.S. funds. When providing assistance 
directly to foreign governments, the Department and USAID work to 
ensure funds are used for their intended purpose, and on the rare 
occasion when funds are determined to have been used improperly, we 
immediately take steps to address the problem.
    As required by the FY 2012 Appropriations Act and carried forward 
by the FY 2013 Continuing Resolution, the Department and USAID do not 
provide assistance to countries that do not meet the minimal standards 
of fiscal transparency unless the Secretary determines it is in the 
national interest to do so. In those cases, the Department puts forward 
recommendations on how the particular country can take steps to improve 
its fiscal transparency and tracks a country's actions on the path to 
improved fiscal transparency.
    In addition, as required by the FY 2012 Appropriations Act, the 
Department and USAID only provide direct government-to-government 
assistance if each implementing agency or ministry to receive 
assistance has been assessed and is considered capable to manage such 
funds; has adopted competitive procurement policies; and has effective 
monitoring and evaluation systems in place. State and USAID also enter 
into agreements with the government of the recipient country on the 
objectives of any such assistance.
    The law also calls for the USAID Administrator or the Secretary of 
State to suspend any such assistance if the Administrator or the 
Secretary has credible information of material misuse of such 
assistance.

    Question #58. The administration's budget requests the Congress 
pass legislation to implement the 2010 IMF governance reforms and quota 
changes. The FY 2014 Budget Request Justification for Appropriations, 
U.S. Department of the Treasury, International Programs, states that 
``the net cost of the proposed IMF legislation is zero, both in terms 
of budget authority and outlays.'' Please explain in more detail why 
moving these funds from the New Arrangements to Borrow (NAB) to the 
quota system will have no cost?

    Answer. At the height of the global crisis in 2009, Congress 
provided critical leadership by approving the administration's request 
for a permanent increase in U.S. participation in the International 
Monetary Fund's (IMF) New Arrangement to Borrow (NAB)--a standing 
backstop to safeguard the stability of the international monetary 
system. This strategy worked: it arrested a steep fall in trade and a 
sharp reversal of capital flows in many emerging markets.
    As global financial conditions eased, we worked with our 
international partners in 2010 to secure an agreement on IMF quota and 
governance reforms. We found a solution that would expand core quota 
resources and enhance IMF legitimacy, while requiring no new resources 
from the United States and preserving our unique veto.
    The proposed legislation will reduce U.S. participation in the NAB 
by Special Drawing Rights 40,871,800,000 (approximately $63 billion) 
and simultaneously increase the size of the U.S. quota in the IMF by an 
equal amount. Thus, the U.S. quota increase would be offset by a 1:1 
reduction in U.S. participation in the NAB. The President's budget 
request includes this commitment in a way that is fully offset and does 
not change the net U.S. financial participation in the IMF.
    I defer any further questions on the 2010 IMF Quota Reform to the 
U.S. Treasury.

    Question #59. In Egypt, has the Department of State officially 
raised the matter of renationalization with the Morsy government? If 
so, were any solutions proposed for stemming the outflow of foreign 
capital caused by these local court cases?

    Answer. I conveyed U.S. concern about renationalization directly to 
President Morsy when we met in Cairo on March 3. I said that any 
renationalization serves as a disincentive to international investment 
in Egypt. I told President Morsy that fair and equitable reconciliation 
arrangements with key Egyptian and foreign investors are necessary and 
in his country's best interests. Ambassador Patterson had raised the 
same issues previously at senior ministerial levels.

    Question #60. E.U. member states' ambassadors to Egypt have 
expressed concern about the deteriorating business environment in 
Egypt, specifically due process violations in court cases that have 
been brought against past privatizations of state-owned companies. Do 
you share these concerns about the risks of renationalization of 
companies currently owned by foreign investors? If so, what steps are 
you taking to ensure a fair adjudication process for protecting the 
rights of foreign investors?

    Answer. I registered U.S. concern about the renationalizations with 
top officials in both Europe and the Middle East. We view the 
renationalizations as a disincentive to international investment in 
Egypt. Ambassador Patterson and her team in Embassy Cairo have raised 
cases of due process violations, and State Department officials have 
met with U.S. companies who may be subject to such renationalizations. 
The Embassy monitors civil suits filed by Egyptians alleging damages 
due to privatizations and continues to make clear to the Egyptian 
Government that fair and equitable reconciliations with key domestic 
and foreign investors are essential and in Egypt's best interests.

    Question #61. Noting your testimony that the President is committed 
to completing the Transatlantic Trade and Investment Partnership, and 
with the understanding that USTR will play the lead agency role in 
these talks, please describe the role the State Department will be 
playing in these negotiations. Specifically, how will your State 
Department team be adding value in these negotiations?

    Answer. The United States Trade Representative (USTR) will lead a 
broad interagency team, on which the State Department will play a 
prominent role. The Department will provide substantial contributions 
to the talks, building on its extensive network of diplomatic, 
business, consumer, academic, and other contacts in Brussels and 
throughout the European Union, to advocate U.S. views and to engage 
with the EU public. The Department also has technical expertise in the 
areas covered by the negotiations, including trade, investment, and 
related issues such as international environmental matters, labor 
standards, state-owned enterprises, and other elements of the 
ambitious, comprehensive, and high-standard agreement we are seeking to 
conclude. Our subject matter experts have spent years working on these 
issues at the World Trade Organization as well as in many other 
multilateral and bilateral negotiations.

    Question #62. In response to questions I submitted for the record 
during your nomination hearing process regarding PEPFAR and PMI, you 
responded that the administration would continue consult with Congress 
as to whether to pursue reauthorization of the Tom Lantos and Henry J. 
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, 
and Malaria Reauthorization Act of 2008 this year. You also noted that 
``If Congress chooses to pursue reauthorization of the Tom Lantos and 
Henry J. Hyde United States Global Leadership Against HIV/AIDS, 
Tuberculosis, and Malaria Reauthorization Act of 2008 . . . '' This 
wording seems to indicate that the administration does not intend to 
ask Congress to renew the law or otherwise reauthorize the programs.
    Does the administration intend to pursue reauthorization of PEPFAR 
and PMI, in part or in full? If not, why not? If so, would you please 
give some indication of your plans and timing.

    Answer. The State Department and USAID will continue the dialogue 
within the administration and with the U.S. Congress regarding the 
reauthorization of the Tom Lantos and Henry J. Hyde United States 
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act. The 
administration strongly supports the President's Emergency Plan For 
AIDS Relief, President's Malaria Initiative, and Tuberculosis TB 
programs and will work with Congress on our shared priorities for the 
continued operation of our U.S. global health programs.

    Question #63. If the Tom Lantos and Henry J. Hyde United States 
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria 
Reauthorization Act of 2008 is not renewed, what specific authorities 
would lapse or otherwise expire? How would expiration affect existing 
programs, and what are the specific changes you are planning in the way 
the administration implements HIV/AIDS, malaria, and tuberculosis 
programs?

    Answer. The authorities to conduct assistance programs to combat 
HIV/AIDS, tuberculosis and malaria under the Tom Lantos and Henry J. 
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, 
and Malaria Reauthorization Act of 2008 (the Leadership Act), and 
pursuant to the amendments to the Foreign Assistance Act made by the 
Leadership Act, will not lapse in 2013. These authorities remain in 
effect as permanent law, and as long as the annual appropriations act 
appropriates needed funds for assistance, program activities will be 
able to continue unaltered. While a limited number of provisions in the 
Leadership Act will sunset after 2013, this should not affect the 
ability of the Office of the U.S. Global AIDS Coordinator, housed at 
the Department of State, and its implementing agencies to carry out 
assistance related to HIV/AIDS. USAID will also not be affected in its 
ability to carry out assistance to combat tuberculosis and malaria.

    Question #64. Does the administration intend to observe the cap on 
U.S. contributions to the Global Fund at one-third of the total 
contributions for the Global Fund ``replenishment'' process for 2014-
2016, either on an annual basis or otherwise?

    Answer. We will continue to ensure that the U.S. contribution to 
the Global Fund to Fight AIDS, Tuberculosis and Malaria (Global Fund) 
represents no more than one-third of the cumulative donations to the 
Global Fund. The FY 2014 budget, with a request of $1.65 billion, 
maintains our strong commitment to the Global Fund and recognizes the 
crucial role that the Fund plays in the success of global health 
strategy. U.S. funding requests for the Global Fund beyond FY 2014 will 
depend in large part upon (1) other donors stepping up to match the 
U.S. investment 2 to 1 that no more than one-third of the total 
donations are from the United States, and (2) the Fund's continuing 
implementation of its ambitious reform agenda.
    U.S. Global Health programs and Global Fund financed programs are, 
to an even greater extent than ever before, complementary and deeply 
intertwined. Better program coordination, decreased costs, and greater 
efficiencies between Global Fund and U.S. Global Health investments are 
helping to increase coverage of essential services and save more lives.
    We are pleased with the Fund's progress in undertaking a needed 
reform process, which was spurred in part by the leadership of the 
United States. We are excited by the potential of the new funding model 
to maximize the impact of Global Fund dollars and look forward to 
seeing the reforms as they start to positively impact programs on the 
ground.

    Question #65. What is the goal of the administration in coming 
years in terms of the proportion of global HIV/AIDS funding that will 
be programmed bilaterally versus that programmed multilaterally, 
especially through the Global Fund? Does this shift from bilateral to 
multilateral provide savings to the United States? If so, could you 
please identify those savings and provide the analysis or assumptions 
behind any projected savings?

    Answer. The U.S. Government's bilateral and multilateral 
investments are mutually supportive, increasingly integrated, and 
programmatically interdependent. Together, these investments save lives 
and build country ownership and capacity to lead and manage national 
responses over the long term. The U.S. contribution to multilateral 
programs, including the Global Fund, helps us achieve the objectives of 
our bilateral programs, while reaching more people with quality 
services, leveraging contributions from other donors, expanding the 
geographic reach of bilateral U.S. investments, and leading the way to 
promote a shared responsibility among donors and implementers. The 
distribution of health funding between bilateral and multilateral 
programs is reviewed annually. In order to maximize results and 
coverage, decisions are made across the President's Malaria Initiative, 
the U.S. President's Emergency Plan for AIDS Relief (PEPFAR), and 
Tuberculosis programs based on country strategies for each of the three 
diseases as well as contributions from both government and other 
donors.
    We're working more closely with the Global Fund to ensure that we 
are providing complementary services and not duplicating efforts. 
PEPFAR and other U.S. Government health agencies have entered a new era 
of cooperation with the Global Fund, which institutionalizes joint 
planning and implementation in countries where both organizations are 
making investments. Increasing program coordination and creating 
efficiencies between Global Fund and U.S. investments will help to 
increase coverage and save more lives.

    Question #66. Would the administration support legislation that 
would seek to provide the necessary authorities and structures to 
implement the President's Global Health Initiative, which was last year 
effectively scrapped?

    Answer. We appreciate the strong interest in and support for our 
global health programs. No new authorities are needed to implement the 
principles of the administration's Global Health Initiative.
                                 ______
                                 

      Responses of Secretary of State John F. Kerry to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. As we approach the political and security transition in 
Afghanistan, 
preserving the gains made by Afghan women and girls is paramount to 
long-term stability and democracy in Afghanistan. I am pleased to see 
that this budget request would create a new fund for women's 
initiatives, but I do not want us to lose sight of integrating the 
security of women and girls into our security assistance and training 
to the Afghan National Security Forces.

  <bullet> What role does the State Department play in working to 
        ensure that women's rights are protected as part of ANSF 
        training?

    Answer. With the tireless efforts of Afghan women and consistent 
support from the international community, Afghanistan has made 
significant progress toward realizing the potential of women and girls 
in all aspects of society. Girls now make up more than a third of 
enrolled students throughout the country, and women are represented in 
Parliament and on provincial councils. Businesswomen and female 
entrepreneurs are playing a key role in the economic development of 
their country, and life expectancy for women has risen from 44 years in 
2001 to 64 years today. Female activists are actively advocating for 
social justice and seeking a peaceful resolution to the Afghan 
conflict. However, the progress that has been made is fragile and 
challenges still remain.
    Given the importance of this issue, the United States has made 
consistent and concerted efforts to integrate women's rights into its 
overall policies and strategy in Afghanistan. Our concerns about Afghan 
women's rights have not only been at the top of the agenda for our own 
policies and programs, but we have consistently encouraged President 
Karzai and Afghanistan's civilian and military leaders to promote 
women's rights and to incorporate gender issues into all aspects of 
their government's policies. U.S. Embassy Kabul recently adopted a new 
``Gender Strategy'' that highlights the need to mainstream gender 
issues into all of our policies and programs through transition and the 
transformation decade. The gender strategy focuses missionwide 
resources on five key areas: health, education, economic development, 
leadership opportunities, and security and access to justice, all of 
which are consistent with the five cross-cutting priorities of UNSCR 
1325 on Women, Peace, and Security. In implementing the strategy, we 
not only measure the effectiveness of U.S. Government programs in these 
areas, but also track overall progress and/or backsliding in key 
priority areas. Implementation of this strategy will also help to 
ensure that women are not disproportionately affected by any decreases 
in U.S. funding in Afghanistan.
    While the Department of State and USAID administer the majority of 
women's initiatives in Afghanistan, DOD has the lead for women's issues 
related to Afghan National Security Forces (ANSF) development. However, 
the State Department is working closely with DOD to ensure that the 
ANSF has adequate training on gender issues, the Elimination of 
Violence Against Women (EVAW) law, and that security institutions are 
equipped to ensure women's rights are protected. An immediate priority 
is improving the recruitment of women into the ANSF, their status and 
treatment within the ANSF, and the ANSF's treatment of female civilians 
across Afghanistan. ISAF, the Afghan Ministry of Defense (MOD) and 
Ministry of Interior (MOI) have a large number of programs aimed at 
protecting women's rights and promoting women in the ANSF. For example, 
the MOD recently stood up the Human Rights and Gender Integration 
Directorate, which will coordinate an enhanced Afghan National Army 
(ANA) recruiting plan for women and will provide better oversight of 
female integration issues within the MOD. Support from Afghan 
leadership is essential, and we will continue to press forward with 
high level and working level diplomacy to encourage the Afghan 
Government to make progress in this critical area.
    We are also working very closely with our Department of Defense 
colleagues to provide you a detailed report on our efforts to promote 
women's security as required by the Afghan Women and Girls Security 
Promotion Act (AWGSPA). The United States will continue to prioritize 
promoting Afghan women's rights to ensure that the positive gains made 
since 2001 are not reversed.

    Question. I am deeply concerned about the humanitarian crisis 
resulting from the ongoing conflict in Syria and am pleased that the 
administration has already provided $385 million to respond to the 
crisis. My bill, the Syria Democratic Transition Act, would authorize 
the administration to do more.

  <bullet> How will additional assistance, like the MENA Incentive 
        Fund, be used to support the Syrian opposition and increase 
        their ability to govern in liberated Syria?
  <bullet> Will you route a greater proportion of assistance to 
        organizations working across Syria's borders, instead of 
        through the United Nations, which is hampered by the lack of a 
        mandate to operate across Syrian borders?

    Answer. Syria remains a tremendous challenge. We are strengthening 
our nonlethal support to the opposition and making inroads with local 
organizations responding to the needs of their communities and laying 
the foundation for transition in areas from which the regime has 
retreated in whole or in part. We must be ready in FY 2014 for the 
transition in Syria to a post-Assad government deserving of our 
support, but cannot now predict what support may be required. The 
potential of an extremely challenging transition in Syria has informed 
our Middle East and North Africa Incentive Fund (MENA IF) request 
level, particularly for contingency resources.
    No bilateral foreign assistance is included in our FY 2014 request; 
the request assumes other sources, including global contingency 
resources such as the humanitarian assistance accounts and MENA IF, 
will be tapped for future needs. The MENA IF will give the U.S. 
Government critical tools to respond both to contingency and 
stabilization needs, including support to interim governments and 
emerging civil society; and short-term economic stabilization, support 
for elections, humanitarian assistance, short-term security sector 
support, weapons abatement, and deployment of additional staff. It also 
makes resources available to support long-term political, economic, and 
security sector reform efforts.

    Question. U.N. High Commissioner for Refugees Guterres projected 
that refugee flows into Turkey, Lebanon, and Jordan could exceed 1 
million in each country by the end of 2013. How are the State 
Department and USAID planning to address this contingency, which could 
have disastrous effects on the host nations?

    Answer. We are closely following refugee outflows into the 
neighboring countries and the repercussions for local host communities. 
The pace at which numbers of Syrians have become refugees is alarming--
the numbers have risen from 66,000 a year ago to 1.4 million today. The 
generosity of neighboring countries has been inspiring, but the 
capacities of local governments, families, social services, and civic 
organizations are severely strained as they seek to accommodate this 
flood of new arrivals. The State Department's Bureau of Population, 
Refugees, and Migration (PRM) and USAID are working to provide 
assistance to address needs in host communities in Jordan, Lebanon, and 
Turkey where refugees are living. These cities and villages are 
suffering from financial strain, reduced public services, and growing 
tensions as a result of hosting large numbers of refugees.
    The Department is concerned about the growing numbers of refugees, 
and we continue to work closely with the United Nations High 
Commissioner for Refugees (UNHCR) to plan for future outflows based on 
current conditions. Projecting refugee outflows is not an exact 
science, however, and no one can predict with certainty events inside 
Syria that will prompt refugees to flee. That said, in addition to the 
widespread violence, the collapse of basic services inside Syria, 
including the education and health systems, is likely to be a major 
driver pushing more Syrians to flee to neighboring countries.
    The United States has provided $409 million in humanitarian 
assistance and continues to work with the U.N. to rally financial 
support from other international donors. For example, the Government of 
Kuwait, cohost of the Syria pledging conference on January 30, recently 
fulfilled the entirety of its pledge of $300 million through 
contributions to U.N. agencies, the International Committee of the Red 
Cross (ICRC), and the International Organization for Migration (IOM).
    We must make smart, well-informed funding decisions. This puts a 
premium on contingency planning, on all donors coordinating with the 
U.N. and on providing assistance in a manner that meets international 
standards.
    Overall, we are pursuing a multipronged approach: First, we are 
consulting with key aid agency partners. In our discussions with 
organizations we fund, such as UNHCR, we ask them to identify how they 
are targeting the most vulnerable, meeting the needs of the majority of 
refugees who live outside of camps, and incorporating more robust 
support for overburdened host. We discuss their respective contingency 
plans, including topics related to: their humanitarian stockpiles in 
the region; guarding against aid pipeline breaks; preparing for health-
related and weather-related challenges; and plans for responding to 
major incidents that could result in large surges of refugees.
    Second, PRM and USAID have also been working with the Department's 
and President's budget offices to ensure that the U.S. Government is 
able to continue to provide sufficient funds to humanitarian partners.
    We are looking at ways to boost support for host countries beyond 
emergency humanitarian assistance, so that host communities can 
continue to support refugees fleeing violence in Syria. The 
international community needs to increase support to host countries' 
core community infrastructure, including health, education, energy, and 
water to minimize the burden of hosting up to 4 million Syrian refugees 
in the region by the end of the year.
    Third, we engage in humanitarian diplomacy. For example, we 
continue to urge all host countries to keep their borders open to all 
vulnerable refugees fleeing Syria, including Iraqis and Palestinians.
    We also regularly consult with officials from refugee-hosting 
countries to understand the relative priority they place on particular 
kinds of assistance, so we can synchronize our aid as much as possible 
and encourage them to engage in best practices when applicable. For 
example, camp construction has begun following a Government of Jordan 
decision to open an additional refugee camp in Azraq to respond to new 
arrivals and ease the burden on refugee-hosting communities in northern 
Jordan. We intend to provide additional assistance to support this 
goal.
    In Turkey, the government has played a strong and commendable role, 
providing ample support to nearly 200,000 refugees living in camps, and 
limited support to over 100,000 in urban areas. We are working with the 
Government of Turkey, UNHCR, and other partners to address basic needs 
as the numbers swell.
    Finally, we liaise with international organizations, NGOs, and the 
Syrian Opposition Council's Assistance Coordination Unit to evaluate 
how partners are performing and the extent to which there are gaps in 
the international humanitarian response. This information is then 
incorporated into our planning/programs.
    The U.S. Government is committed to continuing to help Syria's 
neighbors as they cope with refugee inflows. It is critical to regional 
political stability and to keep borders open to all those fleeing the 
violence in Syria that we demonstrate that they are not in this alone.

    Question. Aside from the President's stated ``redline'' on the use 
of chemical weapons by the Syrian regime, are there any other redlines 
the administration has that would trigger stronger intervention? What 
kinds of intervention, military or otherwise, would the administration 
use if Assad did definitively use chemical weapons?

    Answer. At the President's direction, the United States Government 
has been closely monitoring the potential use of chemical weapons 
within Syria.
    Our intelligence community does assess with varying degrees of 
confidence that the Syrian regime has used chemical weapons on a small 
scale in Syria, specifically the chemical agent sarin. This assessment 
is based in part on physiological samples. Our standard of evidence 
must build on these intelligence assessments as we seek to establish 
credible and corroborated facts. For example, the chain of custody is 
not clear, so we cannot confirm how the exposure occurred and under 
what conditions. We do believe that any use of chemical weapons in 
Syria would very likely have originated with the Assad regime. Thus 
far, we believe that the Assad regime maintains custody of these 
weapons, and has demonstrated a willingness to escalate its horrific 
use of violence against the Syrian people.
    The President has made it clear that the use of chemical weapons--
or the transfer of chemical weapons to terrorist groups--is a redline 
for the United States of America. We have communicated that message 
publicly and privately to governments around the world, including the 
Assad regime.
    We have also provided information and equipment to the region to 
help protect Syrians and support humanitarian workers in their life-
saving work. However, precisely because the President takes this issue 
so seriously, we have an obligation to fully investigate any and all 
evidence of chemical weapons use within Syria.
    That is why we are pressing for a comprehensive United Nations 
investigation that can credibly evaluate the evidence and establish 
what took place. We have offered information, expertise, and resources 
to the United Nations to support this investigation, and we are urging 
others in the international community to do the same.
    We are also working with our friends, allies, and the Syrian 
opposition, to procure, share, and evaluate additional information 
associated with reports of the use of chemical weapons so that we can 
establish the facts. Given the stakes involved, and what we have 
learned from our own recent experience, intelligence assessments alone 
are not sufficient--only credible and corroborated facts that provide 
us with some degree of certainty will guide our decisionmaking; the 
intelligence assessment is only one part of a broader process.

    Question. The State Department has now led two U.N. Human Rights 
Council resolutions on Sri Lanka, and I continue to believe that an 
independent, international investigation is needed for reconciliation. 
Meanwhile, the Sri Lankan Government reportedly continues to commit 
human rights violations, especially against journalists and students.

  <bullet> How will the State Department leverage its IMET training 
        programs to bolster a new generation of Sri Lankan military 
        leaders, who respect human rights, and to press the Government 
        to allow for an independent investigation?
  <bullet> What is the State Department vision for the future of 
        security cooperation with Sri Lanka?

    Answer. The Department continuously reviews its security 
cooperation programs with Sri Lanka to make sure they are appropriately 
calibrated to the rest of the bilateral relationship and broader U.S. 
objectives in Sri Lanka. U.S. military engagement with Sri Lanka is 
both limited and focused on our strategic goals. Currently, our efforts 
are focused on positively influencing the next generation of military 
leaders, strictly adhering to Leahy vetting requirements, and promoting 
Sri Lanka's ability to maintain security in its maritime domain, an 
area that is a key U.S. interest and has ramifications for the security 
of the broader region.
    IMET-funded courses expose defense establishment personnel to U.S. 
military doctrine and values. The courses promote democratic values, 
build capacity in key areas, increase the professionalization of the 
forces, and build lasting military-to-military relationships. We review 
IMET funding allocations carefully each year to ensure each program 
supports U.S. efforts to positively influence the Sri Lankan military 
in support of our strategic goals in the region. IMET funding in Sri 
Lanka has decreased over the past 3 years, from $952,000 in 2011 to 
$626,000 in FY 2013, in response to our concerns over the Sri Lankan 
Government's lack of progress reconciliation and accountability.

    Question. After 2 years of protests, dialogue between the 
Government of Bahrain and the opposition remains stalled. Meanwhile, 
reports of human rights violations against opposition protestors are 
concerning. The FY14 budget requests $10 million in Foreign Military 
Financing and an increase in the International Military Education and 
Training account.

  <bullet> How will you use this assistance to encourage the Government 
        of Bahrain to pursue real dialogue and end its crackdown on 
        protestors?
  <bullet> What else is the administration doing to press the Bahraini 
        Government to fully implement the recommendations of the 
        Bahrain Independent Commission of Inquiry?

    Answer. Making a strong case both publicly and privately for why 
political dialogue, reform, and the protection of human rights are in 
the long-term interests of Bahrain and the United States is a critical 
component of our bilateral relationship, as is continued engagement in 
support of a strong security partnership in the face of serious 
regional threats. We see the dialogue as a positive step in a broader 
process that needs to result in meaningful reform that meets the 
aspirations of all of Bahrain's citizens. We are pressing the Bahraini 
Government and opposition to explore confidence-building measures as 
the dialogue continues. We continue to urge the Bahraini Government to 
implement the full range of recommendations in the Bahrain Independent 
Commission of Inquiry report.
    We have seen some progress on these fronts, including the 
establishment of an ombudsman's office within the Ministry of Interior 
and the Police Code of Conduct, but more remains to be done. We 
continue to withhold the export of lethal and crowd-control items that 
could be used against peaceful protesters in Bahrain. We review all 
credible information documenting human rights violations and continue 
to press for investigations into, and accountability for, these 
violations, including effectively utilizing the Leahy amendment to 
ensure security assistance isn't provided to human rights violators in 
Bahraini security forces. Maintaining Bahrain's Foreign Military 
Financing (FMF) account and increasing support for International 
Military Education and training (IMET) course--courses that include 
human rights modules and whose participants are screened for potential 
human rights abuses in accordance with Leahy vetting--will allow us to 
maintain a strong partnership with the Bahraini Government as it 
continues to move forward on reforms.
    The United States and Bahrain have a long history of friendship, 
and the Government of Bahrain has continued to be a critical partner in 
maintaining regional security.

    Question. While energy-rich and key to our operations in 
Afghanistan, the Central Asian countries have in common pervasive 
violations of human rights and poorly performing democratic 
institutions. What is the administration's strategy to encourage these 
regimes to treat their people with justice and strengthen the rule of 
law?

    Answer. We closely follow developments in human rights and 
democracy in central Asia, and promotion of democratic reform and 
greater respect for human rights is a top priority in this 
administration's strategy for central Asia. We continue to encourage 
central Asian governments at every level, including in every high-level 
visit to the region, to respect fundamental human rights, and to allow 
greater space for civil society, peaceful religious practice, and full 
freedom of expression, including media freedom. We urge these 
governments to hold free and fair elections and to engage in judicial, 
law enforcement, and media legislation reform. We support civil society 
organizations that use education and community development initiatives 
to help mitigate interethnic tensions and reduce regional 
vulnerabilities to violent extremism. We partner with central Asian 
states and international organizations to combat trafficking in persons 
and forced labor by facilitating contact with international monitoring 
entities, civil society, and law enforcement organizations. We also 
provide assistance to support democratic reforms and human rights. For 
FY 2012 we provided $26.6 million (not including centrally managed 
accounts such as the Human Rights and Democracy Fund of the Bureau of 
Democracy, Human Rights and Labor) to support democratic reforms and 
human rights in central Asia; our FY 2014 request would increase this 
support to $28.6 million.
                                 ______
                                 

           Responses of Secretary of State John F. Kerry to 
             Questions Submitted by Senator Jeanne Shaheen

                  afghanistan special immigrant visas
    Secretary Kerry, on April 15, the New York Times reported on the 
growing backlog of immigration visa applications for Afghans pending 
with the State Department. These individuals have, at tremendous risk 
to their own lives and to the lives of their family members, assisted 
the United States and NATO as translators in Afghanistan. The Taliban, 
as you know, puts a high price on their heads for helping Western 
forces.
    Given the clear threat these brave individuals face and the ongoing 
U.S. withdrawal from Afghanistan that increases that threat, I believe 
we owe it to them to address this backlog immediately and move these 
applications along.

    Question. How large is the current backlog of Special Immigrant 
Visas for Afghan principal applicants and eligible family members under 
section 1244 and section 1059 at the State Department?

    Answer. Afghan Special Immigrant Visas are issued under Section 
602(b) of the Afghan Allies Protection Act of 2009 and Section 1059 of 
the National Defense Authorization Act of FY 2006. As of April 29, 
there are approximately 2,000 Afghan principal applicants and eligible 
family members who have been interviewed and are in administrative 
processing pending the completion of the interagency screening process. 
There are 480 Afghan principal applicants and eligible family members 
scheduled for SIV interviews in May with 1,934 waiting to be scheduled 
for interviews as openings become available in upcoming months. There 
are an additional 2,032 principal applicants and family members whose 
cases have been assigned to a consular section and will be scheduled 
for interviews once the applicants submit the required documents.

    Question. What are the major obstacles to processing these 
applications more quickly?

    Answer. The two major obstacles to processing these applications 
more quickly are the interagency screening process and preliminary 
approval at post by the Chief of Mission due to setbacks in the 
establishment of the recommendation committee in Kabul at the onset of 
the program. The screening process takes the most time and the 
Department of State is working constantly with our interagency 
counterparts to streamline this comprehensive and essential process 
while eliminating bottlenecks. We have added additional staff to 
address the delays in the Chief of Mission approval process and quickly 
process pending cases. A legislative extension of the program would 
allow additional time to process the cases that remain in the pipeline.

    Question. Will you make the reduction of this backlog a priority?

    Answer. Yes. Finding ways to streamline the process, without 
compromising national security, has been a Department priority since 
the inception of the program. We are working with National Security 
Council staff and the interagency to address the challenges. We 
recognize that many who are employed by, or work on behalf of the U.S. 
Government in Afghanistan and their families, face real threats as a 
result of their U.S. Government affiliation. We take these threats, and 
the concerns of those who work with us, very seriously and we are 
committed to providing them with the benefits for which they legally 
are eligible. At the same time, we must ensure that recipients of 
SIVs--like all others who seek to enter the United States--do not pose 
a threat to our security. Embassy Kabul has redirected and increased 
resources to improve efficiency at all stages of the SIV process and 
reduce processing backlogs without compromising security. The consular 
section has increased staffing to meet the increased demand for visa 
appointments and the Embassy has increased staffing to more 
expeditiously process Chief of Mission reviews, which are required as 
the first step of the application process.

    Question. As you know, the SIV program currently is set to expire 
at the end of this fiscal year. Do you support the program's extension 
beyond September 30?

    Answer. Our authority to issue SIVs to Iraqis under the National 
Defense Authorization Act of 2008 expires at the end of this fiscal 
year. Our authority to issue SIVs to Afghans under the Afghan Allies 
Protection Act of 2009 expires at the end of fiscal year 2014. We have 
been working with our interagency partners and interested Members of 
Congress to extend our authority to allow for the continued issuance of 
SIVs after those dates. We fully support each program's extension and 
welcome any action by Congress to extend the programs. The FY 2014 NDAA 
request includes provisions extending the program, as does S. 744--the 
Senate Comprehensive Immigration Reform legislation.
       cooperative threat reduction and nonproliferation in mena
    Secretary Kerry, at an April 16 Senate Armed Services hearing, 
Secretary Hagel announced that the administration is utilizing the 
Department of Defense's Cooperative Threat Reduction authorities to 
work with Jordan to help them counter the threat from Syria's chemical 
weapons.
    I believe that the Middle East and North Africa region is our next 
real proliferation challenge when it comes to WMD-related materials. I 
believe we should be supporting more cooperative threat reduction and 
nonproliferation resources to this region. DOD is obviously responsible 
for the CTR program; however, State does have a number of important 
nonproliferation programs that could be ramped up to meet the threat 
posed in this region.

    Question. Do you believe we are doing enough to work with our 
partners on cooperative threat reduction in the region--particularly 
with respect to Syria's chemical weapons stockpile?

    Answer. Given the dynamic situation in the region, mitigating the 
chemical weapons threat emanating from Syria requires a multifaceted 
and tailored engagement strategy. The Department of State is working 
closely with other U.S. Government agencies, including the Department 
of Defense, and regional allies to address these threats by 
strengthening the ability of our partners to prevent, detect, and 
respond to a chemical event. The Department's Global Threat Reduction 
(GTR) program is leveraging current partnerships to develop regional 
and country-specific activities tailored to address the evolving Syrian 
threat. GTR works closely with partners in Jordan, Turkey, Iraq, and 
elsewhere in the region to build capacity in the areas of chemical 
security, detection, and forensics for technical and law enforcement 
audiences.

    Question. Could we be doing more to support assistance efforts like 
upgrading border controls or increasing some of our allies' capacities 
to prevent, detect, or interdict chemical weapons technology or 
materials in this region?

    Answer. The Department of State is actively working with allies in 
the region on a broad range of efforts to address the threat of 
chemical weapons and other border security challenges emanating from 
the conflict in Syria. We have an extensive border security engagement 
program and work closely with our Department of Defense and other U.S. 
Government stakeholders to continually address and respond to the 
evolving threat. Furthermore, we are in close coordination with our 
international partners to coordinate assistance in the region to ensure 
that activities are complementary and not duplicative. In particular, 
through our Export Control and Related Border Security (EXBS) program, 
we are providing inspection and detection equipment and training for 
border security units to enhance their capabilities to detect and 
interdict weapons of mass destruction (WMD) technology and related 
materials.
    For example, the EXBS program is providing fixed imaging systems, 
night vision binoculars, mobile x-ray vans, personal radiation pagers, 
and basic inspection tool kits to our partners in the region. EXBS is 
also providing training in WMD interdiction, targeting and risk 
management, and other border interdiction related skills to Syria's 
neighbors.
                            nonproliferation
    More generally, I'm concerned about the decrease in funding for 
nonproliferation reflected in the President's budget. I think we need 
to be ramping up nonproliferation efforts around the globe--
particularly as the proliferation threat becomes more complex and 
diffuse.

    Question. Do you believe that the current budget for FY 2014 
nonproliferation activities is adequate to meet the challenge of the 
nonproliferation of nuclear, chemical, and biological weapons and 
materials around the globe?

    Answer. As we reduced the overall State Department budget to help 
meet our country's fiscal problems, it was necessary to also reduce the 
budget for our nonproliferation foreign assistance programs. However, 
we limited the reduction to less than 10 percent (compared to FY 2012 
funding levels). While this reduction will force some of our programs 
to make difficult decisions, we are confident that the budget will 
ensure funding for our highest nonproliferation priorities, including 
our contribution to the International Atomic Energy Agency's safeguards 
program, and our program to improve strategic trade and export controls 
in key partner states.
              ndi's challenges and crackdown in azerbaijan
    Secretary Kerry, it has come to my attention that the United States 
funded National Democratic Institute and other pro-democracy 
nongovernmental organizations are experiencing intense and increasing 
harassment from the Government of Azerbaijan. The Azeri government has 
submitted a formal request to the Organization for Security and 
Cooperation in Europe to downgrade its presence in the country. In 
addition, last week, the Government of Azerbaijan closed the U.S.-
funded Free Thought University, which provides lectures and open 
dialogue for Azerbaijani youth on economics, human rights, government 
reforms, and culture.
    I am deeply concerned by these troubling developments in Azerbaijan 
and the implications of what appears to be a broader antidemocratic 
push taking place.

    Question. In light of the Azeri government's crackdown and 
widespread harassment of civil society groups, how is the State 
Department responding to Azerbaijan?

    Answer. The State Department has raised concerns privately and 
publicly about Azerbaijan's crackdown on and harassment of civil 
society groups. For example, in a series of statements in recent weeks, 
Ambassador Morningstar has made plain how troubling the United States 
has found the closure of Free Thought University's facilities and the 
government's reaction to peaceful protests in January and March. Both 
the State Department spokesperson and the U.S. Mission to the 
Organization for Security and Cooperation in Europe (OSCE) have made 
similar statements. We regularly raise our concerns directly with 
senior Azerbaijani Government officials in Baku and Washington. While 
in Baku April 17-18, Democracy, Human Rights and Labor Deputy Assistant 
Secretary Thomas Melia conveyed our concerns in meetings with President 
Aliyev and Foreign Minister Mammadyarov, while publicly demonstrating 
support for civil society activists in several meetings and with the 
press.
    The Department will continue to encourage meaningful dialogue 
between the Azerbaijani Government and its citizens to address 
legitimate grievances and also encourage authorities to respect 
citizens' freedom of assembly, expression, and association.

    Question. What is the State Department and the U.S. Embassy in Baku 
doing to impress upon Azeri political leaders the need to improve their 
human rights record and work to realize Azerbaijan's potential as a 
responsible stakeholder in the international community?

    Answer. We have repeatedly raised these concerns in public 
statements and in meetings with high-level officials in Baku, including 
President Aliyev.
    For example, in December and again in April, Deputy Assistant 
Secretary of State for Democracy, Human Rights, and Labor Thomas Melia 
led interagency visits to Azerbaijan with the Department of Justice and 
USAID. In meetings with the President, Foreign Minister, human rights 
activists, and civil society, the team emphasized the need for 
meaningful democratic reform, including increased respect for human 
rights, fundamental freedoms, due process, and the rule of law.

    Question. On April 16, President Aliyev stated publicly ``We are 
building relations with all countries on the basis of mutual respect 
and with no interference in each other's affairs . . . We do know how 
to run our country. We do not need advice from the sidelines.'' Given 
this recent statement, how do we work with President Aliyev to convince 
him that democracy promotion organizations and other U.S.-funded civil 
society efforts are good for Azerbaijan and in high demand by the Azeri 
people?

    Answer. We have expressed our concern at the highest levels about 
actions taken by the Government of Azerbaijan, including harassment of 
democracy promotion organizations such as the National Democratic 
Institute (NDI) and the closure of Free Thought University's 
facilities. As Ambassador Morningstar reiterated in his remarks in Baku 
on April 11, ``Our closest relationships are with democratic states 
that respect the full range of human rights of their citizens.'' We 
will continue to make these points in our interactions with all of our 
contacts inside and outside of the government in Azerbaijan.
                                 ______
                                 

           Responses of Secretary of State John F. Kerry to 
               Questions Submitted by Senator James Risch

    Question. Your budget requests $133.2 million to realign Regional 
Security Officer positions. Will this include rebalancing personnel to 
ensure the RSOs with the greatest experience are placed in the 
locations that need the most seasoned experts?

    Answer. In an effort to create greater transparency on how DS 
positions are funded, the Department is proposing to realign funding 
for DS overseas positions from the Diplomatic and Consular Programs 
(D&CP) 2-year account to the Worldwide Security Protection no-year 
account. Currently overseas positions are funded out of both funding 
sources. This realignment is consistent with how the Department handles 
American salaries under other Bureaus such as Consular Affairs and 
Overseas Buildings Operations.
    The Department has looked at staffing issues for high threat posts, 
and we believe that the overall availability of experienced staff will 
remain a challenge given hiring shortfalls in previous years. We have 
evaluated the use of temporary, experienced staff, but believe only 
hiring, training, and assigning adequate permanent staff will provide a 
long-term solution to the identified experience gap. However, we are 
making progress on this front as the FY 2013 continuing resolution 
provided funding to hire additional Diplomatic Security personnel, 
including more RSOs.

    Question. On 21 March 2013, six of my colleagues and I sent you a 
letter on arms control compliance and verification issues. When can we 
anticipate a response?

    Answer. The Department will provide a response shortly.

    Question. Could you provide more details on the U.S. economic 
package to the Palestinians that you mentioned while you were in the 
region? Will the resignation of Prime Minister Fayyad have an impact on 
this?

    Answer. We are still working on the economic initiative for the 
Palestinians. The U.S. Government, through USAID, is already the 
leading provider of bilateral economic assistance to the Palestinian 
people. This initiative will complement the work that we have underway 
across a variety of sectors. We want to consult with the many 
interested parties prior to making any final decisions.
    There will be a heavy emphasis on leveraging the private sector, 
and we do not envision the need for any additional U.S. budgetary 
resources for this initiative. As soon as decisions are reached, we 
will of course brief Congress on the details.
    At the same time, economic efforts are not a substitute for the 
political track. We remain focused on creating the conditions needed to 
reestablish productive negotiations between the parties with the goal 
of two states for two peoples living side by side in peace and 
security.
    The Palestinian Authority has made tremendous strides in 
revitalizing the Palestinian economy and reforming its institutions to 
better serve the Palestinian people. We look to all Palestinian leaders 
and the Palestinian people to continue these reform and revitalization 
efforts, and we are committed to moving forward with economic and 
institution-building efforts in the West Bank. The resignation of Prime 
Minister Fayyad should not derail this economic initiative or our 
efforts to promote peace and security.

    Question. Please explain the efforts of the administration to 
promote democracy, the rule of law, civil society, and human rights in 
Russia, particularly in the wake of closing the USAID office and the 
government's ongoing crackdown on independent civil society groups?

    Answer. The United States is firmly committed to promoting 
democracy, the rule of law, civil society, and human rights in Russia. 
We have raised our concerns in public statements and private 
discussions about the regrettable closure of USAID, disruptive 
government inspections of hundreds of NGOs across Russia, an array of 
new laws aimed at intimidating civil society, and the prosecution of 
political and civil society leaders. We have frequently joined with the 
international community in urging Russian officials to protect the 
fundamental human rights of all citizens.
    The decision by the Russian Government that USAID should close its 
mission in Moscow marked the beginning of a transition for how we will 
support civil society, human rights, and democracy in Russia, but it 
has not altered our goals or our commitment. As in all countries in 
which our civil society partners face severe impediments to carrying 
out their work, the United States is putting in place a tailored 
strategy that is sensitive to the specific context, needs, 
opportunities, and challenges. I would be happy to have State 
Department officials brief you on the specifics of our approach to 
support for civil society.

    Question. With the recent announcement of a merger between Al Qaeda 
in Iraq and Jabhat al-Nusra, please identify what connections exist 
between al-Nusra and Al Qaeda in Pakistan.

    Answer. On April 10, al-Nusra leader Abu Muhammad al-Jawlani 
publicly pledged allegiance to al-Qaeda leader Ayman al-Zawahiri, but 
said he was not consulted on Al Qaeda in Iraq's (AQI) April 9 public 
announcement of a merger between AQI and al-Nusra. Al-Nusra is part of 
Zawahiri's al-Qaeda network, as is AQI.
                                 ______
                                 

           Responses of Secretary of State John F. Kerry to 
               Questions Submitted by Senator Jeff Flake

    Question. The Executive Budget Summary notes that the request for 
State and USAID ``strikes the balance between fiscal discipline and 
sustaining and advancing America's global leadership--and is 6 percent 
less than in FY 2012.'' But, looking at the breakdown, it appears that 
base budget funding in FY 2012 totaled $39.6 billion, while base budget 
funding in the FY 2014 request totals $43.9 billion, roughly. It would 
seem to me that any savings claimed here comes strictly from a 
reduction in OCO funds, and in fact the Department is asking for 
additional base budget funds this year. Is this the case?

    Answer. The FY 2014 budget request for the Department of State and 
USAID totals $47.8 billion, which is a decrease of $3.1 billion from FY 
2012, or 6 percent. The reduction is largely a result of our efforts to 
rightsize our presence and programs in Afghanistan, Pakistan, and Iraq, 
yielding savings of $4.2 billion from FY 2012. The FY 2014 budget 
prioritizes how we use our limited resources so they are effective 
investments in solving the problems of today and shaping the world of 
tomorrow, protecting the American people and bolstering the U.S. 
economy.
    Due to the breadth of the FY 2012 Overseas Contingency Operations 
(OCO) appropriation, which shifted some base programs to OCO, the 
overall topline is the most accurate comparison of programs from FY 
2012 to FY 2014. In FY 2012, Congress provided $11.2 billion in OCO, 
$2.5 billion (29 percent) more than the administration had requested, 
and expanded the definition of OCO beyond the Frontline States of 
Afghanistan, Pakistan, and Iraq. Consistent with the FY 2012 and FY 
2013 requests, the FY 2014 request returns to the administration's 
approach of using State/USAID OCO for the temporary and extraordinary 
costs of operations and programs in the Frontline States.

    Question. Before the wars in Iraq and Afghanistan, the Department 
of Defense maintained an account within its budget called the 
``overseas contingency operations transfer fund,'' which was used to 
pay for operations in places like the Balkans, and other places where 
the United States ran operations on a temporary basis. DOD still 
maintains this fund although it has not received any recent 
appropriations from Congress, and it is a separate account from the OCO 
title which is now funded with tens of billions of dollars, none of 
which is subject to spending caps.
    The State Department began requesting OCO funds outside of its 
``base budget'' in FY 2012. It has been used to pay for State 
Department operations in Iraq, Afghanistan, Pakistan and ``to a limited 
extent in other fragile regions,'' according to a response I received 
from your office. Certainly the State Department has operated in 
``fragile regions'' long before the existence of this extra-budgetary 
account, and I am sure that even after the war in Afghanistan winds 
down, the Department will continue to operate in these regions.

  <bullet> Do you intend to continue requesting OCO funding outside of 
        the regular 
        budget to pay for these operations interminably?
  <bullet> Would the Department benefit from creating an on-budget OCO 
        account, similar to the one operated by the DOD?

    Answer. We appreciate the flexibility that the Congress provided in 
the FY 2012 Overseas Contingency Operations appropriation. Our FY 2014 
request reflects the administration's intent that OCO for the 
Department of State and USAID include only the temporary and 
extraordinary costs related to the civilian responsibilities in the 
Frontline States (Afghanistan, Pakistan, and Iraq). We do expect to 
continue programs in these countries in the long term, but at more 
reduced levels.
    The size of the State/USAID OCO request will change, as reflected 
in the FY 2014 President's budget, as circumstances on the ground 
warrant, with the general goal of decreasing OCO funding over time.
    Since FY 2012, OCO funding governmentwide has decreased by $34 
billion. The administration has capped OCO spending through 2021 at 
$450 billion to ensure that OCO funds are used judiciously, in a 
fiscally responsible way, and only for the extraordinary needs for 
which they were designed.

    Question. In FY 2012, the Department requested $8.7 billion in OCO 
funds but received more than $11 billion from appropriators. The FY 
2013 CR continues those levels.

  <bullet> How has the Congress' decision to designate more of the 
        State Department's ``base budget'' as OCO funding affected the 
        Department's budgeting process?

    Answer. The FY 2013 Continuing Resolution (CR) provides the 
Department and USAID with $10.6 billion in Overseas Contingency 
Operations (OCO) funding, $559 million less than the FY 2012 OCO 
appropriation. The Department and USAID appreciate the flexibility 
Congress has provided within the OCO title and has used that authority 
judiciously to respond to emerging and unanticipated contingencies, 
which are consistent with the intent of OCO funds, including responding 
to the crises in Syria and Mali.

    Question. OCO funds have been reprogrammed to pay for operations to 
Syria and Mali, and perhaps even elsewhere.

  <bullet> Do you know approximately how much money has been 
        transferred within the OCO account to pay for these operations? 
        Can you tell me what else, apart from Mali and Syria, these 
        funds have been used for?
  <bullet> If not, can you please provide that to my office?

    Answer. We are dealing with complex crises at a time when resources 
are scarce. The Department of State/USAID budget prioritizes how we use 
our limited resources so they are effective investments in solving the 
problems of today and shaping the world of tomorrow, protecting the 
American people and bolstering the U.S. economy.
    The transfer authority provided in the OCO title has enabled the 
Department and USAID to respond to emerging needs in Syria and Mali and 
elsewhere. The transfer authority has also allowed us to meet 
priorities of the Congress.
    We will provide a list of programs we have used OCO authority to 
fund to your staff. We look forward to working with the Congress to 
determine how best to maintain flexible authorities and sufficient 
resources to meet emergent needs in the out years.

    Question. The FY 2013 request asks for $77.7 million in funding for 
UNESCO, despite the decision of that entity in October of 2011 to award 
the Palestinian Authority full member status in its organization. 
UNESCO went through with this vote knowing full well that doing so 
would result in a cessation of contributions to it from the United 
States, pursuant to existing U.S. law. You have also said that, ``if 
confirmed, I will continue the administration's policy of opposing 
firmly any and all unilateral actions in international bodies or 
treaties that circumvent or prejudge the very outcomes that can only be 
negotiated, including Palestinian statehood.''

  <bullet> Why have you again requested both funding for UNESCO as well 
        as a waiver to allow the administration to ignore the current 
        laws that prohibit assistance to UNESCO?

    Answer. The administration is seeking a waiver to allow the 
discretion necessary to continue to provide contributions that enable 
us to maintain our vote and influence within the United Nations and its 
specialized agencies, if the President determines that doing so is 
important to our national interests, and to deny the Palestinians or 
their allies any ability to force a contribution cutoff and diminish 
our influence within these agencies.
    Without a national interest waiver our ability to conduct 
multilateral diplomacy and pursue U.S. objectives will be eroded, and 
our standing and position in critical U.N. agencies will be harmed. As 
a result, our ability to defend Israel from unfair and biased attacks 
in the United Nations will also be greatly damaged.
    The most effective way to wield U.S. influence in international 
organizations is from within. By withholding our contributions, not 
only do we cut off support for important programs that advance U.S. 
interests, we weaken our ability to promote our priorities, risk losing 
altogether our voting rights, and effectively empower others to 
determine how and when America engages.
    Congress has passed legislation that provides the United States 
with additional tools that are much better suited for the purposes of 
deterrence than the contribution cutoff mechanism. Legislation passed 
in the aftermath of the Palestinians' successful UNESCO bid, if 
triggered, would place limits on U.S. economic support to the 
Palestinian Authority and would require the closure of the 
Palestinians' Washington, DC, office if they obtain membership as a 
state in a U.N. specialized agency going forward. These requirements 
are, appropriately, directed at the Palestinians in the event they 
engage in conduct that we are seeking to discourage. By contrast, the 
implications of the contribution cutoff will be most felt by the United 
States and the partners whose interests we defend across the spectrum 
of the U.N. system.
    Ironically, current legislation penalizes U.N. institutions which 
do not have a role in membership votes. The vote to admit the 
Palestinians was taken by other member countries, not U.N. officials.

    Question. In response to an inquiry from my office when your 
confirmation was pending, you stated that, in fact, you would seek 
these funds [for UNESCO] along with the waiver because, ``I believe 
that our country cannot afford to be on the sidelines of organizations 
that help advance American national interests.''

  <bullet> What national interests are served by UNESCO?
  <bullet> If the United States does not follow through on its word to 
        withhold these contributions, do you think this would encourage 
        other organizations to take actions similar to those taken by 
        UNESCO?
  <bullet> What kind of a message does it send to our allies when the 
        United States 
        reneges on its word?

    Answer. UNESCO promotes U.S. national interests. At its core, 
UNESCO is an antiextremism organization, and one that uses cooperation 
to address shared challenges. The work that UNESCO carries out in order 
to promote peace, intercultural dialogue, tolerance, and education for 
all is essential to combating violent extremism. UNESCO's coordination 
of the global tsunami warning system has already proven invaluable for 
helping prevent massive casualties from deadly tsunamis, some of which 
threaten large populations along the U.S. coastline.
    UNESCO also serves U.S. free market goals. Many American 
companies--including Google, Apple, Microsoft, and Procter and Gamble--
have partnered with UNESCO to advance core American values, such as 
press freedom and access to education. At the same time, these 
companies are expanding their global reach into new and untapped 
markets.
    In addition, UNESCO supports and furthers fundamental American 
values, including promoting literacy for women and girls, promoting 
tolerance and respect for all by creating curriculum programs for 
global dissemination, and supporting Holocaust education as a means to 
combat anti-Semitism and prevent future atrocities. UNESCO also plays a 
critical leading role in promoting freedom of the press and safety for 
journalists globally.
    The United States remains a steadfast ally of Israel at UNESCO, and 
has been able to successfully advocate for Israel within the 
Organization. The most recent example is at the UNESCO Executive Board 
meeting in April, where the United States played an instrumental role 
in negotiating a compromise between the Israelis and Palestinians, 
resulting in the deferred consideration of five contentious recurring 
resolutions on cultural sites in the region.
    This latest example of U.S. engagement on behalf of Israel in the 
U.N. system underscores the critical importance of a continued strong 
U.S. presence at UNESCO. However, without resuming payment of assessed 
contributions due to UNESCO, the United States will lose its vote at 
the 37th General Conference in November 2013--an unprecedented 
consequence that will harm both U.S. interests and those of our allies.
    At the same time, we continue our active engagement across the 
spectrum of U.N. agencies and directly with the Palestinians to 
underscore that similar efforts to pursue status as a member state will 
only risk undermining a return to direct negotiations which remain the 
only path forward to a just, lasting, and comprehensive regional 
solution to end the conflict.
    We believe that our actions must be determined by our own national 
interest both in a just, lasting, and comprehensive regional solution 
and in a responsible and capable U.N. system. We remain convinced that 
the best way to advance these interests is to demonstrate our 
commitment to Middle East peace and to maintain our investment in and 
our leadership within the U.N. system.
    Many of our allies have given us a clear message--including through 
statements at the UNESCO Executive Board that just ended in Paris--that 
they want the United States to remain an active player at UNESCO and in 
the multilateral system more broadly. They see the United States as a 
vital and powerful voice for freedom and democratic values.
    As you will recall, it was under the leadership of President George 
W. Bush that the United States rejoined UNESCO in 2003 following a 
prolonged absence. In a bipartisan effort, President Bush and the late 
Representative, Tom Lantos, led the charge in convincing members on 
both sides of the aisle in Congress that the United States is far 
better off being at the table at UNESCO. By withholding our 
contributions, not only do we cut off support for important programs 
that advance U.S. interests, we weaken our ability to promote our 
priorities, risk losing altogether our voting rights, and effectively 
empower others to determine how and when America engages. As a result, 
our ability to defend Israel from unfair and biased attacks in the 
United Nations will also be greatly damaged.

    Question. A total of $836.6 million has been requested for the 
Global Climate Change Initiative in FY 2013 [sic]. The Executive Budget 
Summary says that the programs which receive these funds will work to 
``improve the resilience of countries that are most vulnerable to 
climate and weather-related disasters; support fast-growing economic 
and regional leaders in their transition to clean energy; and limit 
greenhouse gas emissions from deforestation and forest degradation.''

  <bullet> What countries will be receiving funds to combat climate 
        change?
  <bullet> Can you please provide my office with a complete list of 
        countries and programs which will receive these funds?

    Answer. Funding for the Global Climate Change Initiative (GCCI) is 
requested for programs implemented by the Department of State, USAID, 
and the Department of Treasury. The President's FY 2014 budget requests 
$836.6 million for GCCI, of which $481.0 million would be programmed 
through the Department of State and USAID.
    The Department of State's programs focus on diplomatic initiatives 
and are generally global in scope. USAID's programs focus on regional 
and bilateral programs. GCCI funds do not provide cash transfers to 
foreign governments; they provide technical assistance to public and 
private stakeholders in partner countries. In the case of USAID 
bilateral funding, the FY 2014 budget request seeks funding to support 
the following countries: Ethiopia, Kenya, Malawi, Mali, Mozambique, 
Rwanda, Senegal, South Africa, Tanzania, Uganda, Zambia, Cambodia, 
Indonesia, Philippines, Timor-Leste, Vietnam, Georgia, Ukraine, 
Bangladesh, India, Kazakhstan, Maldives, Nepal, Colombia, Dominican 
Republic, Ecuador, Guatemala, Honduras, Jamaica, Mexico, Peru, and 
Barbados. Additionally, funding is requested for State Western 
Hemisphere Regional and the following USAID regional programs: Africa 
Regional, Central Africa Regional, East Africa Regional, Southern 
Africa Regional, West Africa Regional, Regional Development Mission--
Asia, Europe and Eurasia Regional, Central America Regional, Latin 
America and Caribbean Regional, and South America Regional. Details on 
the requested funding levels for each bilateral and regional program 
will be provided in the Congressional Budget Justification.
    Funding programmed through the Department of State is generally 
either transferred to other USG agencies utilizing USG technical and 
functional expertise and leadership, or provided to international 
organizations including the Intergovernmental Panel on Climate Change, 
the Montreal Protocol Multilateral Fund, the U.N. Environment Program, 
the U.N. Framework Convention on Climate Change (UNFCCC), and the World 
Bank.
    In FY 2014, the Department of State plans to fund the following 
programs through the GCCI in the areas of adaptation, clean energy, and 
sustainable landscapes. Where possible, a list of countries that 
benefit from these multilateral programs is provided.
                               adaptation
Least Developed Countries Fund (LDCF)
    The LDCF supports the 49 least developed countries, which are 
especially vulnerable to the adverse impacts of climate change, in 
responding to urgent adaptation needs in key development sectors. The 
Global Environment Facility (GEF) operates the LDCF, with the World 
Bank as Trustee for the fund. The GEF develops its projects through 10 
implementing agencies: the U.N. Development Program (UNDP), the U.N. 
Environment Program (UNEP), the World Bank, the African Development 
Bank, the Asian Development Bank, the European Bank for Reconstruction 
and Development, the Inter-American Development Bank, the International 
Fund for Agricultural Development, the U.N. Food and Agriculture 
Organization, and the U.N. Industrial Development Organization. The 
current list of 49 least developed countries (LDCs) eligible for 
funding under the LDCF are Afghanistan, Angola, Bangladesh, Benin, 
Bhutan, Burkina Faso, Burma, Burundi, Cambodia, Central African 
Republic, Chad, Comoros, Democratic Republic of Congo, Djibouti, Timor-
Leste, Equatorial Guinea, Eritrea, Ethiopia, Gambia, Guinea, Guinea-
Bissau, Haiti, Kiribati, Laos, Lesotho, Liberia, Madagascar, Malawi, 
Mali, Mauritania, Mozambique, Nepal, Niger, Rwanda, Samoa, Sao Tome and 
Principe, Senegal, Sierra Leone, Solomon Islands, Somalia, South Sudan, 
Sudan, Togo, Tanzania, Tuvalu, Uganda, Vanuatu, Yemen, and Zambia.
Special Climate Change Fund (SCCF)
    The GEF operates the SCCF, with the World Bank as Trustee for the 
fund. The GEF develops its projects through 10 implementing agencies: 
the U.N. Development Program (UNDP), the U.N. Environment Program 
(UNEP), the World Bank, the African Development Bank, the Asian 
Development Bank, the European Bank for Reconstruction and Development, 
the Inter-American Development Bank, the International Fund for 
Agricultural Development, the U.N. Food and Agriculture Organization, 
and the U.N. Industrial Development Organization. Unlike the LDCF, 
which is specifically dedicated to the urgent and immediate needs of 
the LDCs, the SCCF is open to all vulnerable developing countries 
(defined as all non-Annex I parties to the UNFCCC). All developing 
countries that are party to the Convention are eligible to receive 
financial support for adaptation interventions to be integrated into 
development activities.
Intergovernmental Panel on Climate Change/U.N. Framework Convention on 
        Climate Change
    The Intergovernmental Panel on Climate Change (IPCC) assesses the 
state of our understanding of the science, impacts, and possible 
response strategies to address climate change. U.S. contributions to 
the IPCC do not support country programs. The U.N. Framework Convention 
on Climate Change Secretariat provides organizational and technical 
support for negotiation and implementation processes under the U.N. 
Framework Convention on Climate Change. The nearly 200 Parties to the 
Convention are divided into three main groups according to differing 
commitments: Annex I Parties, which are the industrialized countries 
that were members of the Organization for Economic Co-operation and 
Development in 1992, plus countries with economies in transition (the 
EIT Parties), including the Russian Federation, the Baltic States, and 
several Central and Eastern European States; Annex II Parties, which 
include the OECD members of Annex I, but not the EIT Parties; and Non-
Annex I Parties, which are mostly developing countries. The 49 Parties 
classified as least developed countries (LDCs) by the United Nations 
are given special consideration under the Convention due to their 
limited capacity to respond to climate change and adapt to its adverse 
effects.
                              clean energy
The Global Methane Initiative (GMI)
    The GMI is implemented through the Environmental Protection Agency 
(EPA). EPA develops its GMI implementation plan on an annual basis, 
based in part upon the interest and capacity of partner country 
governments to support methane reduction activities. GMI activities 
utilizing FY 2014 funds may include work with the following countries: 
Argentina, Brazil, Bulgaria, Chile, China, Colombia, Dominican 
Republic, Ecuador, Ethiopia, Georgia, Ghana, India, Indonesia, Jordan, 
Kazakhstan, Mexico, Mongolia, Nigeria, Philippines, Peru, Poland, 
Russia, Serbia, Sri Lanka, Thailand, Turkey, Ukraine, and Vietnam.
The Climate and Clean Air Coalition (CCAC)
    The CCAC is implemented through EPA and the United Nations 
Environment Program. Country engagement primarily focuses on developing 
countries that are formal partners of the CCAC, including Bangladesh, 
Benin, Chile, Colombia, Cote d'Ivoire, Dominican Republic, Ethiopia, 
Ghana, Jordan, Maldives, Mexico, Nigeria, and Peru, but could also 
include select other countries that are not currently partners.
The Renewable Energy Deployment Initiative (Climate REDI), Clean Energy 
        Ministerial (CEM), and Major Economies Forum (MEF)
    Climate REDI is implemented through the Department of Energy and is 
the primary vehicle through which the United States sponsors activities 
in support of the CEM and MEF. Primary recipients are developing and 
emerging market countries that are members of the CEM, including India, 
Indonesia, Mexico, and South Africa. Other emerging market CEM members 
include China and Russia, which have not received funding to date but 
could benefit from funding in the future. Some Climate REDI programs, 
such as the Clean Energy Solutions Center, benefit a much wider group 
of developing countries that reach out to the Solution Center's ``Ask 
an Expert'' staff for policy support. Additional countries that have 
received assistance through such ad-hoc requests to the Solutions 
Center include: Argentina, Chile, Ethiopia, Ghana, Guyana, Iraq, 
Kazakhstan, Kenya, Laos, Micronesia, Morocco, Namibia, Nepal, Sierra 
Leone, St. Kitts, St. Vincent, Suriname, Uganda, and Vietnam.
Enhancing Capacity for Low Emission Development Strategies (EC-LEDS)
    EC-LEDS, which is primarily funded through USAID, provides 
technical assistance and support to developing countries for the 
development and implementation of low emission development strategies. 
These strategies assist countries to achieve their economic and social 
development objectives while reducing greenhouse emissions over the 
longer term. The EC-LEDS program works in the following countries: 
Albania, Bangladesh, Colombia, Costa Rica, Gabon, Georgia, Guatemala, 
India, Indonesia, Jamaica, Kazakhstan, Kenya, Macedonia, Malaysia, 
Malawi, Mexico, Moldova, Peru, Philippines, South Africa, Serbia, 
Thailand, Ukraine, Vietnam, and Zambia.
Montreal Protocol Multilateral Fund
    The purpose of the Montreal Protocol Multilateral Fund is to assist 
what are referred to as Article 5 Parties to implement the Protocol's 
obligations for those countries. Article 5 countries are developing 
countries whose annual level of consumption of ozone depleting 
substances (ODS) was less than 0.3 kilograms per capita at the time of 
entry into force of the Protocol for them. A list of these countries 
can be found in the following link: http://ozone.unep.org/new_site/en/
parties_under_article5_para1.php. The Department of State does not plan 
to provide funds to all of these countries. For example, the Department 
of State does not fund the Republic of Korea and the United Arab 
Emirates, both Article 5 countries. In addition, Section 307(a) of the 
Foreign Assistance Act of 1961, as amended, requires the United States 
to withhold its proportionate share of expenditures for programs funded 
by the International Organizations and Programs account for Iran, Cuba, 
Burma, North Korea, and the PLO or entities associated with the PLO. 
Funding for the IPCC and UNFCCC falls under both the Adaptation and 
Clean Energy pillars of the GCCI. These two programs are also funded 
from the IO&P account and are subject to the same legislative 
restriction cited above as the Montreal Protocol Multilateral Fund.
                         sustainable landscapes
    FY 2014 Sustainable Landscapes funding implemented through the 
World Bank will support work in developing countries seeking to reduce 
net emissions by improving land use through sustainable landscapes, 
REDD+, LEDS, or related strategies. The Department of State also plans 
to provide a portion of its $10 million in Sustainable Landscapes 
funding to a multilateral fund to support reducing emissions from 
deforestation and forest degradation in developing countries (REDD+) 
with FY 2014 funds. Funds that may be considered for U.S. assistance 
include the BioCarbon Fund, the Forest Carbon Partnership Facility 
(FCPF), or the World Bank Forest Investment Program (FIP). Countries 
that will benefit from this work will depend on the fund to which 
assistance is provided.

    Question. The MCC takes a different approach to foreign assistance 
than many competing agencies in that it requires a recipient country to 
meet certain indicators to qualify for varying levels of assistance. It 
also requires that recipient countries have some stake in their 
compacts, as well.
    The budget request for the MCC has been consistently less robust 
than it used to be for at least the last 4 fiscal years. I understand 
better than most that budgets are constrained these days, but these 
lower requests occurred before the current fiscal crisis had really set 
it. And while the budget request for MCC has been less robust, budgets 
for USAID have grown.

  <bullet> What is the reason that the budget requests for the MCC has 
        been decreased, while USAID's has been increased?

    Answer. Millennium Challenge Corporation (MCC) is a critical 
component of the U.S. Government international programs. With its 
selective approach and focus on broad-based economic growth and 
democratic governance, MCC advances countries along the path to 
reliance on domestic resources, foreign investment, and trade rather 
than foreign aid. The entire U.S. Government development community is 
learning and applying broader lessons from MCC about economic analysis, 
growth, evaluation, the cost-effectiveness of development investments, 
monitoring and evaluation, and data-driven approaches to decisions.
    All development agencies currently face a very constrained budget 
environment and, as a result, the overall FY 2014 foreign assistance 
request is 6 percent below the FY 2012 enacted level. The request 
addresses many foreign assistance priorities that are not within the 
scope of MCC programs, including humanitarian assistance, aid to 
support post-crisis transitions from armed conflict, and security 
assistance. The level of USAID funding also reflects that Agency's role 
in implementing the administration's key development programs: the 
Global Health Initiative, Feed the Future, and the Global Climate 
Change Initiative. The administration will continue to support MCC and 
the unique skills and strengths it provides.

                                  <all>

</pre></body></html>
